<html>
<title> - NASA EARTH SCIENCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                           NASA EARTH SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2005

                               __________

                           Serial No. 109-12

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
20-736                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                             April 28, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    17

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    18

Prepared Statement by Representative Mark Udall, Member, 
  Committee on Science, U.S. House of Representatives............    19

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Al Green, Member, Committee 
  on Science, U.S. House of Representatives......................    21

                               Witnesses:

Mr. Alphonso V. Diaz, Associate Administrator, Science 
  Directorate, NASA
    Oral Statement...............................................    21
    Written Statement............................................    24
    Biography....................................................    29

Dr. Berrien Moore III, Director, Institute for the Study of 
  Earth, Oceans, and Space, University of New Hampshire
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Timothy L. Killeen, Director, National Center for Atmospheric 
  Research
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    44

Dr. Sean C. Solomon, Director, Department of Terrestrial 
  Magnetism, Carnegie Institution of Washington
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    48

Dr. Marcia McNutt, President and CEO, Monterey Bay Aquarium 
  Research Institute
    Oral Statement...............................................    48
    Written Statement............................................    51
    Biography....................................................    56

Dr. Ray A. Williamson, Research Professor, Space Policy 
  Institute, George Washington University
    Oral Statement...............................................    57
    Written Statement............................................    59
    Biography....................................................    62

Discussion
  The Importance of Earth Science at NASA........................    64
  Earth Science Cuts.............................................    67
  Relationship Between NASA and NOAA.............................    69
  Transferring Earth Science From NASA to NOAA...................    70
  Glory..........................................................    72
  The Effects of Earth Science Cuts on Universities..............    73
  LandSat........................................................    74
  Climate Change Research........................................    77
  Research Priorities............................................    78
  TRMM...........................................................    80
  Transferring Earth Science From NASA to NOAA...................    82
  Use of Earth Science Programs to Manage the Water Supply.......    84
  Effects of Decreased Earth Science Funding.....................    85

             Appendix 1: Answers to Post-Hearing Questions

Mr. Alphonso V. Diaz, Associate Administrator, Science 
  Directorate, NASA..............................................    92

Dr. Berrien Moore III, Director, Institute for the Study of 
  Earth, Oceans, and Space, University of New Hampshire..........   155

Dr. Timothy L. Killeen, Director, National Center for Atmospheric 
  Research.......................................................   159

Dr. Sean C. Solomon, Director, Department of Terrestrial 
  Magnetism, Carnegie Institution of Washington..................   163

Dr. Marcia McNutt, President and CEO, Monterey Bay Aquarium 
  Research Institute.............................................   165

Dr. Ray A. Williamson, Research Professor, Space Policy 
  Institute, George Washington University........................   168

             Appendix 2: Additional Material for the Record

Letter to Chairman Sherwood L. Boehlert from Bart Gordon, Mark 
  Udall, and David Wu, dated April 6, 2005.......................   172

Letter to Bart Gordon, Mark Udall, and David Wu from Sherwood 
  Boehlert, Chairman, dated April 19, 2005.......................   174

Earth Science and Applications from Space: Urgent Needs and 
  Opportunities to Serve the Nation, Space Studies Board, 
  Division on Engineering and Physical Sciences, National 
  Research Council of the National Academies (Prepublication 
  Copy)..........................................................   176


                           NASA EARTH SCIENCE

                              ----------                              


                        THURSDAY, APRIL 28, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                           NASA Earth Science

                        thursday, april 28, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, April 28, at 10:00am, the Committee on Science will 
hold a hearing to examine the state of Earth science programs of the 
National Aeronautics and Space Administration (NASA).
    NASA proposes to spend about $1.37 billion on Earth science 
research in Fiscal Year (FY) 2006, a cut of about $120 million, or 
eight percent, from FY 2005 (or about $180 million, or 12 percent, 
below the FY04 request).
    In a report to be released this week, the National Academy of 
Sciences concludes that the budget cutbacks threaten the vitality of 
NASA's Earth science research, as many Earth science missions have been 
downsized, delayed or canceled. The report is part of the ``Decadal 
Survey'' being conducted by the Academy at NASA's request to help the 
Agency set priorities in the Earth sciences. The final report is due in 
late 2006.
    The primary activities of NASA's Earth science program are to 
develop and launch research satellites designed to improve 
understanding of the land, oceans and atmosphere. In the past, NASA 
missions have helped gain new knowledge and create new capabilities 
that have led to advances in weather forecasting, storm warnings, and 
the ability to more efficiently manage agricultural and natural 
resources.
    But the National Academy of Sciences report warns that U.S. 
leadership in developing such capabilities is threatened by the drop in 
support for NASA's Earth science research. Because at the time of this 
writing the report has yet to be released, NASA has not issued a 
response.
    NASA's new Administrator, Michael Griffin, in his public statements 
has expressed general support for Earth science at NASA.

Overarching Questions

    The Committee plans to explore the following overarching questions 
at the hearing:

        1.  What is NASA's long-term strategic vision for conducting 
        Earth science observations from space? How does the current 
        budget reflect that vision?

        2.  What are or what should be the top priority missions for 
        Earth science? How would these priorities benefit society?

        3.  What are the implications of NASA's recent actions to 
        cancel or reduce funding for several Earth science missions? 
        How would the proposed cuts affect interagency programs such as 
        those on climate science and Earth observations?

Witnesses

Alphonso Diaz is the Associate Administrator at NASA for the Science 
Mission Directorate, which includes Earth sciences.

Dr. Berrien Moore is the Co-Chairman the National Academy of Sciences 
Decadal Survey, ``Earth Observations from Space: A Community Assessment 
and Strategy for the Future.'' Dr. Moore is also the Director for the 
Institute for the Study of Earth, Oceans, and Space at the University 
of New Hampshire.

Dr. Tim Killeen is the Director of the National Center for Atmospheric 
Research in Boulder, Colorado.

Dr. Marcia McNutt is the President and Chief Executive Officer of the 
Monterey Bay Aquarium Research Institute in Moss Landing, California.

Dr. Sean Solomon is the Director of the Department of Terrestrial 
Magnetism at the Carnegie Institution of Washington.

Dr. Ray Williamson is a Research Professor in the Space Policy 
Institute at The George Washington University.

Background

Recent Developments: National Academy Report
    At NASA's request, the National Academy of Sciences (NAS) Committee 
on Earth Science Applications from Space is currently conducting a 
``Decadal Survey'' for Earth science observations from space. Similar 
to the decadal surveys conducted with great success in astronomy and 
the planetary sciences, the Earth science decadal survey is expected to 
establish a prioritized list of research projects that the entire Earth 
sciences community agrees should be funded for the next ten years.
    This will be the first time a decadal survey has been conducted for 
Earth science. It is a challenging undertaking because the field is 
broader and deals with more federal agencies than astronomy does. The 
NAS Committee Chair, Dr. Berrien Moore, will be testifying at the 
hearing.
    The NAS Committee this week is releasing an interim report titled 
``Earth Science and Applications from Space: Urgent Needs and 
Opportunities to Serve the Nation.'' The report states that ``recent 
changes in federal support for Earth observation programs are 
alarming.'' The report's Executive Summary states:

         At NASA, the vitality of Earth science and application 
        programs has been placed at substantial risk by a rapidly 
        shrinking budget that no longer supports already approved 
        missions and programs of high scientific and societal 
        relevance. Opportunities to discover new knowledge about the 
        Earth are diminished as mission after mission is canceled, de-
        scoped, or delayed, because of budget cutbacks, which appear to 
        be largely the result of new obligations to support flight 
        programs that are part of the Administration's vision for space 
        exploration.

    The NAS Committee specifically recommends that NASA launch on 
schedule two Earth science missions that have been threatened with 
delays or cancellations. It also recommends that NASA request brief 
studies of its plans for three other missions. NASA has said that those 
missions could be launched on board the NPOESS satellite rather than as 
independent missions. (NPOESS stands for National Polar-orbiting 
Operational Environmental Satellite System and is being launched by the 
National Oceanic and Atmospheric Administration (NOAA) and the 
Department of Defense.) Finally, the NAS Committee recommends that NASA 
``re-invigorate'' several smaller Earth science programs. (The 
Executive Summary of the NAS report is attached, and more information 
on specific missions is included below.)
Earth Sciences
    NASA's mission statement begins with the goal, ``To understand and 
protect our home planet.'' NASA research in Earth science has thus 
focused on understanding how the Earth's atmosphere, oceans, and land 
interact and operate as a whole, with an eye toward direct societal 
applications.
    Within the Earth sciences program, one of NASA's primary roles is 
to build and launch research satellites to provide a deeper 
understanding of the basic processes governing the Earth's physical 
system. Capabilities and discoveries from NASA's program are often 
later incorporated by other agencies into the satellites they use in 
their ongoing operational programs, such as weather or geographic 
imaging satellites.
    One example of how the NASA program works and contributes to 
operational programs is its Tropical Rainfall Measuring Mission (TRMM), 
which NASA launched in 1997 and is now scheduled to end operations this 
summer. TRMM provides data that was never before available on tropical 
precipitation patterns to help scientists study the water cycle and 
related issues including climate change. But unexpectedly, TRMM has 
also given researchers new insights into determining the track and 
intensity of hurricanes, which could contribute to future efforts to 
predict the landfall of hurricanes, which is the responsibility of 
NOAA. NOAA could place instruments based on TRMM on future weather 
satellites.
    The Global Precipitation Mission (GPM), the planned follow-on 
mission to TRMM, would continue to provide further improvements in the 
observation of rainfall by, among other things, expanding rainfall 
information to the entire globe. NASA has delayed the launch of GPM 
several times. (See below.)
    In another example, NASA researchers are also exploring whether 
data from Earth observing satellites can be used to track ocean 
pollution from runoff. (See attached article from Space News).
    NASA satellites have made substantial contribution to a variety of 
areas, such as documenting the existence of a hole in the ozone layer 
in the upper atmosphere. Future NASA missions could potentially provide 
useful information for a number of important societal needs. For 
example, interferometric synthetic aperture radar (InSAR) technology 
that some scientists have suggested for a future NASA mission could be 
able to detect small changes in surface of Earth to presage volcanic 
eruptions or landslides. Also, NASA's Glory mission, which has recently 
been downscaled (see below), was developed to help resolve one of the 
largest uncertainties in scientists' understanding of climate change, 
the effects of the variable output of the sun and of atmospheric 
aerosols (black soot and carbon).
    NASA's Goddard Space Flight Center (MD), Jet Propulsion Lab (CA), 
and Ames Research Center (CA) each contribute substantially to Earth 
sciences research at NASA.
NASA Earth Sciences Budget
    Funding for the Earth sciences has declined each year since FY 
2004, and the President's FY 2006 budget submission continues this 
reduction. The table below compares the last three budget requests 
(including the accompanying run-out for the four following years) for 
NASA's Earth science programs:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The budget for the Earth sciences programs at NASA was cut sharply 
in FY 2005, with reductions in the run-out for the years 2005-2009 
totaling over $1 billion as compared to the planned budget for these 
years at the time of the FY 2004 budget submission. The FY 2006 budget 
request reduces this amount slightly further.
    In the FY 2006 budget request, NASA has made it difficult to 
determine Earth science funding by consolidating the Earth science 
programs and several space science programs into a new ``Earth-Sun 
System'' theme within the new Science Mission Directorate. (Earth 
sciences had previously been a separate directorate from space 
sciences. The Science Committee was able to get the Earth science 
figures only after repeated requests.) The Earth-Sun theme also 
includes the ``Sun-Earth Connections'' programs, such as the Voyager 
mission, which continues to send back data from the outer limits of the 
solar system. The funding table above includes only funding for Earth 
sciences. For information regarding funding for the entire Earth-Sun 
System theme as a whole see Appendix B.
Effect of Budget Reductions
    The budget reductions have led NASA to delay, cancel or scale back 
most Earth science missions. Furthermore, NASA has few if any 
additional Earth science missions in the planning pipeline beyond the 
missions that have been in the works for years. Also, NASA does not 
appear to have sufficient funds to launch some of the missions that it 
describes as being on schedule.
    For example, the NASA Global Precipitation Measurement (GPM) 
satellite, which is to be coordinated with launches of related 
satellites by other nations, was first scheduled to be launched in 
2007. Currently, launching in 2010 would be considered ``on schedule.'' 
In its FY 2005 budget request, NASA delayed the launch until 2012. In 
the FY 2006 request, the date has been shifted back to 2010, but it is 
unclear whether NASA has requested sufficient funding to make that 
date.
    The NAS Committee interim report recommends that the GPM mission be 
launched without further delays, citing its international nature and 
the importance of understanding ``the availability of fresh water.''
    Another mission affected by the budget cutbacks is Glory, which is 
designed to study one of the highest priority questions in climate 
change science. Glory was originally intended to fly as a stand-alone 
mission in 2008. But in 2005, NASA began talking instead about just 
building the instruments for Glory and then looking to see if they 
could be launched on another satellite, such as NPOESS. NASA has not 
been able to say when or even if Glory would be able to be launched if 
it ``piggy-backed'' on another mission. Under pressure from the Science 
Committee and the House Appropriations Committee, NASA has extended the 
contract to build a launch vehicle for an independent Glory mission, 
but the future of the mission is still in doubt.
    The NAS Committee interim report recommends that NASA commission an 
independent review to determine the ``suitability, capability and 
timeliness'' of placing the Glory instruments on another satellite.
    The table below summarizes the status of all of NASA's currently 
planned large Earth science missions:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to reducing funding for specific large missions, NASA 
has sharply reduced the Earth System Science Pathfinders (ESSP), a 
research program to launch small, experimental satellites that can test 
ideas for future larger missions. ESSP missions are not allowed to cost 
more than about $230 million over the life of the mission (as opposed 
to close to $1 billion for GPM). NASA now plans to delay for a year the 
ESSP proposal solicitation that was scheduled for this summer. The NAS 
Committee interim report calls for NASA to go forward with the 
solicitation this summer.
    (ESSP launches approved from previous solicitations are on 
schedule. Two should launch this year.)
    NASA has also substantially cut its Earth science research and 
analysis program, which focuses on developing the tools and techniques 
to interpret Earth science data. The program also helps scientists 
determine how to prioritize potential future research missions. These 
cuts particularly affect graduate student funding. According to the NAS 
Committee interim report, the research and analysis programs at NASA 
have suffered disproportionately large cuts.
    The NAS Committee interim report also notes that the Earth science 
reductions could jeopardize NASA's ability to fulfill its obligations 
to interagency initiatives, such as the development of a Global Earth 
Observing System of Systems (GEOSS). This international effort will 
develop a comprehensive and coordinated Earth observing system. Earlier 
this year, Secretary of Commerce Carlos Gutierrez represented the 
United States at the meeting in Brussels where the GEOSS plan was 
adopted.
    The NAS Committee interim report also calls into question NASA's 
ability to fulfill its commitments to the Climate Change Science 
Program (CCSP). NASA's Earth Science program represents the largest 
portion of the CCSP budget, (62 percent in the President's FY 2006 
budget request).

Questions for the Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Alphonso Diaz
    Please briefly explain the President's FY06 budget request for NASA 
Earth sciences and answer the following questions:

        <bullet>  What missions that were in the planning process as of 
        the FY 2004 budget submission have been delayed, canceled or 
        reformulated? What criteria have NASA used in determining which 
        missions to delay, cancel or reformulate? How do these criteria 
        relate to NASA's larger vision for its Earth science programs?

        <bullet>  Given the FY06 budget run-out, to what extent will 
        NASA have to limit its contributions to multiple agency 
        programs such as the Climate Change Science Program (CCSP) and 
        the Global Earth Observing System of Systems (GEOSS)?

Questions for Dr. Berrien Moore
    Please summarize the NRC report, and answer the following 
questions:

        <bullet>  What are the Committee's greatest concerns for the 
        funding outlook for NASA Earth sciences?

        <bullet>  How should NASA prioritize currently planned and 
        future missions? What criteria should NASA use in doing so?

        <bullet>  What are the highest priority unaddressed or 
        unanswered questions in Earth science observations from space?

Questions for Dr. Tim Killeen

        <bullet>  How should NASA prioritize currently planned and 
        future missions? What criteria should NASA use in doing so?

        <bullet>  What are the highest priority unaddressed or 
        unanswered questions in Earth science observations from space?

        <bullet>  What have been the most important contributions to 
        society that have come from NASA Earth sciences over the last 
        decade (or two)?

        <bullet>  What future benefits to the Nation (societal 
        applications) are possible that NASA Earth sciences could 
        provide? What gaps in our knowledge must we fill before those 
        future benefits are possible?

Questions for Dr. Marcia McNutt

        <bullet>  How should NASA prioritize currently planned and 
        future missions? What criteria should NASA use in doing so?

        <bullet>  What are the highest priority unaddressed or 
        unanswered questions in Earth science observations from space?

        <bullet>  What have been the most important contributions to 
        society that have come from NASA Earth sciences over the last 
        decade (or two)?

        <bullet>  What future benefits to the Nation (societal 
        applications) are possible that NASA Earth sciences could 
        provide? What gaps in our knowledge must we fill before those 
        future benefits are possible?

Questions for Dr. Sean Solomon

        <bullet>  How should NASA prioritize currently planned and 
        future missions? What criteria should NASA use in doing so?

        <bullet>  What are the highest priority unaddressed or 
        unanswered questions in Earth science observations from space?

        <bullet>  What have been the most important contributions to 
        society that have come from NASA Earth sciences over the last 
        decade (or two)?

        <bullet>  What future benefits to the Nation (societal 
        applications) are possible that NASA Earth sciences could 
        provide? What gaps in our knowledge must we fill before those 
        future benefits are possible?

Questions for Dr. Ray Williamson

        <bullet>  How should NASA prioritize currently planned and 
        future missions? What criteria should NASA use in doing so?

        <bullet>  What are the highest priority unaddressed or 
        unanswered questions in Earth science observations from space?

        <bullet>  What have been the most important contributions to 
        society that have come from NASA Earth sciences over the last 
        decade (or two)?

        <bullet>  What future benefits to the Nation (societal 
        applications) are possible that NASA Earth sciences could 
        provide? What gaps in our knowledge must we fill before those 
        future benefits are possible?

Appendix A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Good morning. The Committee will come to 
order.
    It is a pleasure to welcome everyone here this morning for 
our hearing on one of NASA's primary mission areas: the Earth 
sciences.
    We are very pleased that NASA's new Administrator, Mike 
Griffin, has very clearly and unequivocally reinforced NASA's 
commitment to Earth science. For example, both Senator Allen, 
during the confirmation process, and this is a direct quote, 
``There are activities, including Earth sciences research, 
which have little in common with the needs of exploration and 
with which NASA has had a long-term involvement. Thus, NASA has 
certain responsibilities in these areas, which cannot and 
should not be set aside. And I am committed to continuing 
exploration of the Earth's environment at NASA.'' And that is 
the end of the quote from Administrator Griffin in the Senate 
confirmation hearing.
    Unfortunately, NASA's prepared testimony for today's 
hearing is more problematic. The testimony describes Earth 
science research as being significant to the extent that it 
informs our knowledge of and our capability to explore other 
planets. This is precisely backwards. The planet that has to 
matter most to us is the one we live on. You would think that 
would go without saying. And we are woefully ignorant of the 
way this planet works, of the functioning of the land, the 
oceans, and the atmosphere and how they interact. It is great 
if Earth science can contribute to exploration and greater 
still if exploration of other planets could teach us more about 
the planet Earth.
    But the Earth science program doesn't exist as some 
secondary adjunct of the exploration program. It exists to help 
us understand the planet we depend on, and there is no reason 
that NASA can't robustly carry out the President's Vision for 
Space Exploration while conducting vital Earth science 
research. In fact, that is what NASA has to do.
    That is why the National Academy of Sciences' report that 
was released just yesterday is so alarming. The report 
indicates that NASA may be allowing its Earth Science Program 
to erode, perhaps irretrievably, just as we are beginning to 
understand more about the Earth's processes, just as our 
technology offers unprecedented opportunities, just as the 
Administration has announced new international commitments to 
Earth observation.
    This report has to be a red flag for all of us. We need to 
stop, examine what is happening, and make sure that the fiscal 
year 2006 budget for NASA, whatever its top-level number, 
include adequate funding to keep Earth science moving forward 
for the foreseeable future. We need a vision for Earth science 
and priorities for Earth science just as we need to do more for 
exploration and aeronautics.
    Yesterday, I heard, for the first time, a rationale from 
Dr. Diaz for the proposed cuts in Earth science, and I have to 
say, I found it a little bit troubling rather than convincing. 
He argued that some of NASA's projects could be launched on 
NOAA satellites and that some other aspects of Earth science 
could migrate to NOAA.
    Now we all want NASA and NOAA to work together even better. 
In fact, we plan to hold a hearing in the next couple of months 
bringing the two agencies together to look in more detail at 
their relationship. But having NASA claim that NOAA will take 
over activities when there is no indication of that in NOAA's 
plan or budget strains. It is a sound of one hand clapping, and 
it won't get any applause from us.
    NASA has long been the lead agency for space-based Earth 
science research. NOAA has operational responsibilities. The 
two agencies have complementary missions, and the more they can 
cooperate, the better. But one agency cannot substitute for the 
other, and no agency can build, launch, or use data from 
satellites without money.
    Mr. Diaz told us yesterday he had no visibility into NOAA's 
budget. You would think a window into a partner agency's budget 
would be a prerequisite for transferring responsibilities. If 
NASA has plans to rely more on NOAA, those plans ought to be 
shared and reviewed with us and with the scientific community. 
Just setting the notion of relying on NOAA as an after-the-fact 
budget rationalization, I think, is playing with fire.
    We have before us today the experts with whom we can begin 
a thoughtful, detailed, and realistic discussion about what 
NASA needs to do to ensure that we have a healthy national 
Earth science program. I can't think of anything more vital to 
our survival on the planet that is most important to us, the 
planet Earth.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    It's a pleasure to welcome everyone here this morning for our 
hearing on one of NASA's primary mission areas--the Earth sciences. I'm 
very pleased that NASA's new Administrator, Mike Griffin, has very 
clearly and unequivocally reinforced NASA's commitment to Earth 
science.
    For example, he told Senator Allen during the confirmation process, 
``[T]here are activities, including Earth Sciences. . .research, which 
have little in common with needs of Exploration, and with which NASA 
had had a long-term involvement. Thus, NASA has certain 
responsibilities in these areas which cannot and should not be set 
aside.'' And Dr. Griffin told Senator Dorgan, ``Earth science continues 
to be vitally important and I am committed to continuing exploration of 
the Earth's environment at NASA.''
    Unfortunately, NASA's prepared testimony for today's hearing is 
more problematic. The testimony describes Earth science research as 
being significant to the extent that it informs our knowledge of, and 
our capability to explore other planets. This is precisely backwards. 
The planet that has to matter most to us is the one we live on. You'd 
think that would go without saying. And we are woefully ignorant of the 
way this planet works--of the functioning of the land, oceans and 
atmosphere and how they interact.
    It's great if Earth science can contribute to exploration, and 
greater still if exploration of other planets could teach us more about 
the Earth.
    But the Earth science program doesn't exist as some secondary 
adjunct of the exploration program. It exists to help us understand the 
planet we depend on. And there's no reason that NASA can't robustly 
carry out the President's Vision for Space Exploration while conducting 
vital Earth science research. In fact, that's what NASA has to do.
    That's why the National Academy of Sciences report that was 
released yesterday is so alarming. The report indicates that NASA may 
be allowing its Earth science program to erode, perhaps irretrievably, 
just as we are beginning to understand more about the Earth's 
processes, just as our technology offers unprecedented opportunities, 
just as the Administration has announced new international commitments 
to Earth observation.
    This report has to be a red flag for all of us. We need to stop, 
examine what's happening, and make sure that the fiscal 2006 budget for 
NASA--whatever its top-level number--include adequate funding to keep 
Earth science moving forward for the foreseeable future. We need a 
vision for Earth science, and priorities for Earth science, just as 
much as we do for exploration and aeronautics.
    Yesterday, I heard for the first time a rationale from Mr. Diaz for 
the proposed cuts in Earth science. And I have to say I found it more 
troubling than convincing. He argued that some NASA projects could be 
launched on NOAA satellites and that some other aspects of Earth 
science could migrate to NOAA.
    Now we all want NASA and NOAA to work together even better. In 
fact, we plan to hold a hearing in the next couple of months bringing 
the two agencies together to look in more detail at their relationship. 
But having NASA claim that NOAA will take over activities when there is 
no indication of that in NOAA's plans or budget strains credulity. It's 
the sound of one hand clapping, and it won't get any applause from us.
    NASA has long been the lead agency for space-based Earth science 
research. NOAA has operational responsibilities. The two agencies have 
complementary missions, and the more they can cooperate the better. But 
one agency cannot substitute for the other, and no agency can build, 
launch or use data from satellites without money.
    Mr. Diaz told us yesterday he had ``no visibility'' into NOAA's 
budget. You'd think a window into a partner agency's budget would be a 
prerequisite for transferring responsibilities. If NASA has plans to 
rely more on NOAA, those plans ought to be shared and reviewed with us 
and with the scientific community.
    Just citing the notion of relying on NOAA as an after-the-fact 
budget rationalization is playing with fire.
    We have before us today the experts with whom we can begin a 
thoughtful, detailed and realistic discussion about what NASA needs to 
do to ensure that we have a healthy, national Earth science program. I 
can't think of anything more vital to our survival.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman, and good morning.
    I would like to welcome the witnesses to today's hearing on 
NASA's Earth Science program. We have a distinguished panel of 
witnesses, and I look forward to their testimony.
    Let me first say that you--that we all live now in a city 
with lots of conflicts and where Democrats and Republicans 
often times disagree frequently and legitimately on issues. But 
let there be no mistake, I want to concur with the Chairman's 
statement today. On this committee, I think we are in complete 
sync on his statement and on the direction that we need to 
move.
    And so I say that so that folks don't think that there is a 
crack in the window that through stalemate more autocratic 
decisions can be made. So just for the record, I would like for 
you to know that.
    NASA's Earth Science program has long been one of NASA's 
core missions, yet NASA's core missions are increasingly 
threatened by the new budgetary priorities contained in the 
President's exploration initiative. Just last month, the Space 
and Aeronautics Subcommittee heard about the precarious state 
of NASA's Aeronautics programs from a range of expert 
witnesses. One month before that, this committee heard from 
Acting Administrator Gregory that some 2,000 existing jobs at 
the NASA centers would be eliminated by the fall of next year, 
although we were unable to get any clear explanation of the 
rationale for the cuts or the process by which they would be 
made.
    Today, we are going to hear more bad news from a panel of 
expert witnesses. The bottom line appears to be that NASA's 
Earth Science program faces the prospects of being marginalized 
in the coming years as the Agency puts its focus on the 
President's exploration initiative.
    Let me quote some excerpts from the National Research 
Council's just-released interim report on Earth sciences. And I 
quote: ``Today, this system of environmental satellites is at 
risk of collapse. . .NASA has no plan to replace its Earth 
Observing System platforms after their nominal six-year 
lifetimes end. . .and it has canceled, de-scoped, or delayed at 
least six planned missions--''
    The NRC committee goes on to say, and I quote: ``These 
decisions appear to be driven by a major shift in priorities at 
a time when NASA is moving to implement a new vision for space 
exploration. This change in priorities jeopardizes NASA's 
ability to fulfill its obligations in other important 
presidential initiatives, such as Climate Change Research 
Initiative and the subsequent Climate Change Science Program. 
It also calls into question future U.S. leadership in the 
Global Earth Observing System of Systems, an international 
effort initiated by the current Administration.''
    That is tough language, but it appears to be consistent 
with the facts.
    I count myself among strong supporters of exploration, but 
as I said on previous occasions, we have to be willing to pay 
for it. We shouldn't try to implement it by cannibalizing 
NASA's other important programs.
    Yet the fact is that when the President cut $2.5 billion 
from NASA's funding plan for fiscal year 2006 through 2009 
relative to what he had promised just a year earlier, NASA 
imposed 75 percent of the cut on NASA's Science and Aeronautics 
program and only 10 percent on NASA's Exploration Systems 
program.
    In reality, fiscal year 2006 funding requests for NASA's 
Earth Science Research program is $647 million lower than the 
funding plan for fiscal year 2006 contained in the fiscal year 
2004 budget request. That is a reduction of 24 percent in just 
two years.
    It is no wonder that the Earth science program is canceling 
and delaying missions. And the problem has been compounded by 
NASA's apparent unwillingness or inability to date to develop a 
long-term vision for Earth science and application programs.
    So where does all of this leave us?
    Let me quote the National Research Council once again: 
``Today the Nation's Earth Observatory program is at risk.''
    And let me remind you of a hearing just, I guess, a couple 
of years ago when Richard Blomberg of the National Shuttle 
Safety Panel had something similar to say, that that Shuttle 
was at risk. I don't think he meant that it was going to happen 
the next day, but he was correct.
    And once again, let me quote this: ``Today, the Nation's 
Earth observatory program is at risk.'' I think we need to take 
that seriously.
    I want to hear our NASA witnesses respond to the National 
Research Council's findings. Does NASA dispute the facts 
presented by the NRC? And if not, why has NASA let its Earth 
science program reach this state of affairs? And most 
importantly, what is NASA's long-term commitment to Earth 
science and applications research, and what, if anything, is 
NASA prepared to do to reverse the current trend?
    As our Chairman said earlier, I suspect part of the answer 
is these functions will be picked up by NOAA. Well, if that is 
the case, I would like to know what that amount of cost will be 
and what funding, additional funding, would be going to NOAA to 
pick that up.
    In closing, I again want to thank the witnesses for 
participating in today's hearing. I look forward to your 
testimony.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good morning. I'd like to welcome the witnesses to today's hearing 
on NASA's Earth Science program. We have a distinguished panel of 
witnesses, and I look forward to their testimony.
    NASA's Earth Science program has long been one of NASA's core 
missions. Yet NASA's core missions are increasingly threatened by the 
new budgetary priorities contained in the President's exploration 
initiative.
    Just last month, the Space and Aeronautics Subcommittee heard about 
the precarious state of NASA's aeronautics programs from a range of 
expert witnesses.
    One month before that, this committee heard from Acting 
Administrator Gregory that some 2,000 existing jobs at the NASA Centers 
would be eliminated by the fall of next year. Although we were unable 
to get any clear explanation of the rationale for the cuts or the 
process by which they would be made.
    Today we are going to hear more bad news from a panel of expert 
witnesses.
    The bottom line appears to be that NASA's Earth Science program 
faces the prospect of being marginalized in the coming years as the 
Agency puts its focus on the President's exploration initiative.
    Let me quote some excerpts from the National Research Council's 
just-released interim report on the Earth Sciences:

         ``Today, this system of environmental satellites is at risk of 
        collapse. . .NASA has no plan to replace its Earth Observing 
        System platforms after their nominal six-year lifetimes end. . 
        .and it has canceled, de-scoped, or delayed at least six 
        planned missions. . .

    The NRC committee goes on to say:

         ``These decisions appear to be driven by a major shift in 
        priorities at a time when NASA is moving to implement a new 
        vision for space exploration. This change in priorities 
        jeopardizes NASA's ability to fulfill its obligations in other 
        important presidential initiatives, such as the Climate Change 
        Research Initiative and the subsequent Climate Change Science 
        Program. It also calls into question future U.S. leadership in 
        the Global Earth Observing System of Systems, an international 
        effort initiated by the current Administration.''

    That is tough language, but it appears to be consistent with the 
facts.
    I count myself among the strong supporters of exploration, but as 
I've said on previous occasions, we have to be willing to pay for it. 
We shouldn't try to implement it by cannibalizing NASA's other 
important programs.
    Yet, the fact is that when the President cut $2.5 billion from 
NASA's funding plan for FY 2006 through 2009 relative to what he had 
promised just a year earlier, NASA imposed 75 percent of that cut on 
NASA's science and aeronautics programs and only 10 percent on NASA's 
Exploration Systems programs.
    In reality, the FY 2006 funding request for NASA's Earth-Sun 
Science research program is $645 million lower than the funding plan 
for FY 2006 contained in the FY 2004 budget request. That's a reduction 
of 24 percent in just two years.
    It's no wonder that the Earth Science program is canceling and 
delaying missions. And the problem has been compounded by NASA's 
apparent unwillingness or inability to date to develop a long-term 
vision for its Earth Science and Applications programs.
    So where does all of this leave us?
    Let me again quote the National Research Council's report:

         ``Today the Nation's Earth observation program is at risk.''

    I want to hear our NASA witness respond to the National Research 
Council's findings. Does NASA dispute the facts presented by the NRC? 
And if not, why has NASA let its Earth Science program reach this state 
of affairs? And most importantly, what is NASA's long-term commitment 
to Earth Science and Applications research, and what--if anything--is 
NASA prepared to do to reverse the current trends?
    In closing, I again want to thank the witnesses for participating 
in today's hearing, and I look forward to your testimony.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    And I think, for the audience, who are so familiar with 
atmosphere on Capitol Hill these days, how refreshing it is to 
see the same basic thrust of the remarks from both sides of the 
center aisle. This committee is noted for working cooperatively 
on important and sensitive subjects. We try to go forward 
together. That is not just a cliche; it is a modus operandi.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. I want to thank the witnesses for appearing before 
the Committee to examine the state of the Earth science programs of the 
National Aeronautics and Space Administration (NASA).
    The primary activities of NASA's Earth science programs are to 
develop and launch research satellites designed to improve our 
understanding of the land, oceans, and atmosphere. NASA missions have 
helped improve our knowledge and create new capabilities leading to 
advances in weather forecasting, storm warnings, and natural resource 
management.
    I am aware that National Academy of Sciences (NAS) Committee on 
Earth Science Applications from Science is currently conducting a 
``Decadal Survey'' for Earth science observations from space at NASA's 
request. This will be the first time a decadal survey has been 
conducted for Earth science and is expected to establish a prioritized 
list of research projects. I look forward to hearing from the NAS 
Committee Chair, Dr. Berrien Moore, to assess how the survey is 
progressing.
    With regard to NASA's Earth Science budget for fiscal year 2006, I 
am aware that funding for the program has declined each year since FY 
2004, and the President's FY 2006 budget submission continues this 
reduction. These budget reductions have led NASA to delay, cancel or 
scale back most Earth science missions. Furthermore, NASA has few if 
any additional Earth science missions in the planning pipeline beyond 
the missions that have been in the works for years. Also, NASA does not 
appear to have sufficient funds to launch some of the missions that it 
describes as being on schedule. If one of NASA's primary roles in the 
Earth sciences program is to build and launch research satellites to 
provide a deeper understanding of the basic processes governing the 
Earth's physical system, I am skeptical of NASA's ability to operate a 
successful Earth science program that lives up to its objectives.
    Again, I thank the witnesses for appearing today and look forward 
to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman for calling this very important hearing 
today. I welcome our distinguished witnesses, and I would like to thank 
you for agreeing to testify here today on the importance of the NASA 
and their Earth Science programs.
    The purpose of this hearing is to examine the state of Earth 
science programs of National Aeronautics and Space Administration 
(NASA).
    The theme for Earth Science Week in 2004 was ``Living on a Restless 
Earth.'' The global community is affected by the restless nature of our 
planet every day. Natural hazards such as earthquakes, storms, 
volcanoes, and landslides threaten our homes and businesses, but they 
also provide evidence of the incredible power and beauty of our planet. 
We were reminded of this incredible power this past December when South 
Eastern Asia was devastated by the horrific affects of a Tsunami.
    As we discuss the enormous devastation caused by this natural 
disaster, the one question we must ask ourselves is could this have 
been avoided?
    The space exploration research program has been one of the most 
successful research programs in the history of this country. 
Unfortunately, this year, NASA plans to cut $120 million or eight 
percent from last year's budget.
    A newly released study by the National Academy of Sciences 
concluded that budget cuts threaten the vitality of NASA's Earth 
science programs.
    Our challenge today is to achieve an increased public perception 
and awareness of the tremendous importance and value that the NASA's 
Earth Science programs for all people.
    I agree with the assessment that Earth science is one of the most 
necessary and exciting fields of the science community today. I look 
forward to working with this committee on its advancement.

    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning. I'd like to join my colleagues in welcoming our 
witnesses to today's hearing. I am particularly eager to hear from Dr. 
Tim Killeen from the National Center for Atmospheric Research.
    Dr. Killeen has been the Director of NCAR since 2000, and in that 
capacity he oversees the important research performed at NCAR. Of 
course, I have a particular interest in NCAR because it is located 
within my congressional district. But in addition, the Center's 
research has an impact nationwide since NCAR is operated by the 
University Corporation for Atmospheric Research--or UCAR--which 
includes 68 universities across the country.
    With the collaboration of these universities, NCAR is able to 
perform research that is beyond the capabilities of any one university. 
So welcome, Dr. Killen--I look forward to your testimony.
    Turning now to the topic of today's hearing, I will say up front 
that I am a strong believer in the importance of a strong national 
program in Earth science and applications. And I think that NASA, NOAA, 
and our universities have a critical role to play in increasing our 
understanding of the Earth and its environment through the collection 
and analysis of Earth observation data.
    In addition to being of interest scientifically, commercial and 
governmental remote sensing data can and should be leveraged to meet a 
variety of important societal needs--including such things as land use 
planning, homeland security, and water resources management.
    To that end, earlier this year I reintroduced H.R. 426, the Remote 
Sensing Applications Act, which is a bill that already passed the House 
in a previous Congress, and I look forward to working with Members on 
both sides of the aisle to advance its goals in this Session.
    However, despite the importance of Earth science and applications 
research, all is not well with NASA's Earth Science program. Indeed, 
the just-released interim report of a Committee of the National 
Research Council makes it clear that NASA's Earth Science program is 
facing a serious threat to its future viability.
    In that regard, the NRC report enumerates a whole series of planned 
missions and research activities that are being cut back or eliminated 
by NASA.
    In addition, a number of currently operating missions that are 
still returning useful scientific data--such as Voyager--are threatened 
with premature termination.
    While I certainly recognize that when ongoing missions lose their 
scientific productivity they need to be turned off to free up resources 
for newer missions, a number of the missions threatened with 
termination do not appear to fall into that category. I hope that NASA 
will take another look at those missions before doing something 
irrevocable.
    Finally, I'm concerned by the push to eliminate or significantly 
delay planned NASA Earth Science missions such as the Landsat Follow-on 
mission and the Glory mission.
    With respect to Landsat, there may well be good budgetary or 
operational reasons to consider moving a Landsat sensor onto NPOESS, 
the joint NOAA-DOD weather satellite currently under development. 
However, I am concerned that neither the technical impacts of such a 
move nor its likely cost impacts are well understood at this point.
    I would hate for us to eliminate NASA's planned Landsat follow-on 
spacecraft now only to find out a few years down the road that trying 
to include a Landsat instrument on NPOESS is having unacceptable 
impacts on the NPOESS program. I fear that the ultimate outcome of such 
a situation could be a significant loss of Landsat data continuity.
    I hope that the witnesses at today's hearing can help us better 
understand what the implications of putting NASA missions like Landsat 
onto the NPOESS spacecraft are, and what we will need to pay attention 
to if we agree to proceed down that path.
    Well, Mr. Chairman, there are many other issues that I could 
mention, but at this point I would rather yield back my time so we can 
hear from our witnesses. Thank you.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for holding this 
important hearing today.
    Over the past 30 years, NASA's Earth Science programs have resulted 
in important social and economic benefits, including improved weather 
forecasting and improved observation of sea surface winds and 
precipitation.
    Better forecasts allow for more efficient evacuations and are 
crucial to for protecting populations in areas that are prone to 
natural disasters, including hurricanes, tornadoes, floods, earthquakes 
and tsunamis. Furthermore, businesses and infrastructure, including 
transportation and energy, are reliant on current forecasting and need 
improved weather information.
    These improved Earth science findings are tremendously valuable--
saving precious human lives and property. I would be surprised to find 
more than a handful of congressional districts in our nation that do 
not risk some form of natural disaster. These are crucial programs that 
all of as public servants have an obligation to make certain are 
maintained.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing to 
discuss the status of NASA's Earth Science programs. While we often 
think of NASA's work to be solely in space, the truth is that NASA 
Earth Sciences have made many discoveries that impact our day to day 
lives right here on Earth. In fact the greatest knowledge we can learn 
is that of our own world because the discovery of this planet is far 
from complete.
    There was a time in history when even scholars believed that Earth 
was flat. Obviously we have come a long way in terms of discovery since 
that time. We will always push the limits of innovation, but in order 
to do so we must invest the proper resources. Indeed, NASA's own 
mission statement begins with the goal, ``To understand and protect our 
home planet.'' NASA research in Earth science has focused on 
understanding how the Earth's atmosphere, oceans, and land interact and 
operate as a whole. Unfortunately, NASA proposes to spend about $1.37 
billion on Earth science research in Fiscal Year (FY) 2006, a cut of 
about $120 million, or eight percent, from FY 2005 (or about $180 
million, or 12 percent, below the FY04 request). These cuts threaten 
many programs that would increase our knowledge of this Earth. In fact, 
the knowledge gained through Earth science could help avert many 
natural disasters. The tragic events following the earthquake and 
tsunami in South Asia highlight the global need for coordinated 
disaster preparedness and response. Seismometers detected the 
earthquake that triggered the tsunami and satellite altimeters detected 
the tsunami before it struck land. A tsunami warning system could 
potentially have saved tens of thousands of lives, but it did not exist 
in this region. In the aftermath of the disaster, a wide array of high-
resolution satellite images and measurements are helping guide and 
monitor relief and recovery efforts and assisting in the deployment of 
resources (food, water, and medical supplies). As nations rebuild their 
devastated communities, Earth observations will provide critical inputs 
into decisions on the location, land use, and type of disaster-
resistant construction practices that will improve human conditions in 
these disaster-prone regions.
    I find it deeply unfortunate that these budget cuts will 
potentially end many successful programs that measure our environmental 
standard of life and could help us improve upon our condition. Many 
Earth observation missions have been canceled, delayed, or their scope 
has been severely limited. I have been a long time supporter of NASA in 
this committee and have supported the President's Vision for Space 
Exploration, but those endeavors should not cause us to limit our 
discovery right here on Earth. Again, the most important lessons we can 
learn are those about ourselves, because we as a human race must 
inhabit this Earth for many more generations to come and to limit our 
knowledge will only decrease our chances of doing so.

    [The prepared statement of Mr. Green follows:]

             Prepared Statement of Representative Al Green

    I'd like to thank Chairman Boehlert and Ranking Member Gordon for 
the opportunity to discuss the state of Earth science programs at NASA. 
I had the opportunity to witness the devastation caused by the tsunami 
that occurred December 26, 2004. We have all seen the increasing 
devastation caused by the various hurricanes that hit Florida over the 
past year. We have all witnessed the variant climate changes from El 
Nino. Given the increasing vulnerability to extreme weather and climate 
variations, federal investments in these areas of research are more 
important than ever. I realize that we have a nation and a variety of 
good programs that will be affected by the tightening of our federal 
fiscal belt, so I relish the chance to speak to the experts on their 
views of the effects of such changes. To my knowledge, Earth science 
research is set to sustain about an eight percent cut from the last 
fiscal year, and I hope that any or all of you may be able to elaborate 
about what we will see as results.

    Chairman Boehlert. Now with that, let me introduce our very 
distinguished panel, and I thank all of you for serving as 
resources for this committee.
    First, we have Mr. Alphonso Diaz, the Associate 
Administrator at NASA for the Science Mission Directorate with 
whom I had a very constructive and productive meeting 
yesterday. Dr. Berrien Moore is the Co-Chair of the National 
Academy of Science's decadal survey, Earth Observations from 
Space, a Community Assessment and Strategy for the Future. Dr. 
Moore is also the Director for the Institute for the Study of 
Earth, Oceans, and Space at the University of New Hampshire. 
Dr. Moore, welcome. Dr. Tim Killeen is the Director of the 
National Center for Atmospheric Research in Boulder, Colorado. 
Doctor, welcome. Dr. Marcia McNutt is the President--oh, I have 
skipped Dr. Solomon. Excuse me. Well, I will get Dr. McNutt 
since I started. Dr. Marcia McNutt is the President and Chief 
Executive Officer of the Monterey Bay Aquarium Research 
Institute in Lost Landing, California. Doctor, welcome. Dr. 
Sean Solomon is the Director of the Department of Terrestrial 
Magnetism at the Carnegie Institution of Washington. Dr. 
Solomon, welcome. And finally, Dr. Ray Williamson is a Research 
Professor in the Space Policy Institute at the George 
Washington University. Doctor, welcome.
    With that, you all are experienced in this process. You 
know, the drill. Essentially, we ask that you summarize in 
approximately five minutes. The Chair is never arbitrary when 
we have six distinguished witnesses before us, but if you can 
condense your opening remarks, that allows more opportunity for 
what is the most productive part of the hearing, and that is 
the dialogue between those of us who are privileged to be 
representatives and those of you in the wide world out there 
that we represent.
    With that, Mr. Diaz, you are first up.

  STATEMENT OF MR. ALPHONSO V. DIAZ, ASSOCIATE ADMINISTRATOR, 
                   SCIENCE DIRECTORATE, NASA

    Mr. Diaz. Thank you, Mr. Chairman, and thank you, Ranking 
Member Gordon, and Members of the Committee. I especially thank 
you Mr. Boehlert, Mr. Gordon, and Mr. Calvert, who I did meet 
with yesterday, and I think also we had a constructive 
discussion. So thank you very much for that.
    As I have said yesterday and will say again, I think we 
have come a long way in my career at NASA over the past 30 to 
40 years in our pursuit of understanding the Earth, the Solar 
System, and the Universe.
    From our constellation of Earth Observation System 
Satellites helping to assess the emergence and spread of 
disease, the melting of glaciers, and the recovery efforts 
following the recent tsunami to our knowledge about life forms 
thriving in extreme environments helping us to understand and 
develop strategies to search for evidence of life beyond our 
home planet, NASA's accomplishments in Earth science are many 
and varied.
    As one recent example, last week's edition of the Journal 
of Science published a new study showing that a decrease in 
snow cover in the Himalayas causes an increase in algal blooms 
thousands of miles away off the coasts of Somalia, Yemen, and 
Oman. This finding was based on data collected over the past 
two decades by instruments on four different satellites that 
reflect NASA's intergovernmental, interagency, and commercial 
partnerships; the Tropical Rainfall Measuring Mission, the 
Advanced Earth Observing System of Japan, the operational 
weather satellites that are operated by NOAA, and the 
instrument on Orbital Sciences Corporation Seastar.
    We recognize that, as you indicated, Mr. Chairman, that by 
first understanding how to study the Earth as a planet, we can 
better prepare for sending humans to the Moon, Mars, and 
beyond. The Vision for Space Exploration and subsequent agency-
wide transformation has presented NASA's science endeavors with 
an historic opportunity. By merging space science with its 
emphasis on discovery with Earth science's emphasis on 
capability for prediction, the Science Mission Directorate, I 
believe, is uniquely positioned to engage in comprehensive 
scientific investigations into the origin, evolution, and 
destiny of Earth, the Solar System, and the Universe.
    We are in the midst of a transition in Earth science from a 
NASA-centric approach to a national strategy that maximizes all 
our national capabilities. These changes have created some 
anxiety, I recognized, and have caused some to question our 
commitment to Earth science. We have a responsibility to 
clarify the current strategy with all our stakeholders and to 
include them in the process as we go forward, and as I have 
said, we intend to do so.
    There are several ways that I believe you can gauge our 
commitment to Earth science.
    The actions in the 2005 budget, I believe, should be 
interpreted as a sign of the Administration's interest in 
accelerating the evolution of Earth science to a national 
program, not as a retreat from our NASA commitment to Earth 
science. The President's 2006 budget request will support a 
highly-effective program of research and development of Earth 
sciences that enables NASA to play a critical role in four 
major presidential directed programs: the Climate Change 
Science Program, the Global Earth Observing System of Systems, 
the Grand Challenges and Natural Disaster Reduction, and the 
Vision for Space Exploration.
    As an example of our commitment to these initiatives, 
NASA's Earth science program contributes over 60 percent of the 
total funding to the Administration's Climate Change Science 
Program. The fiscal year 2006 budget request also supports 
several critical missions: 16 Earth science missions on orbit, 
eight missions scheduled to launch by 2010, and eight missions 
currently in formulation.
    We have several exciting Earth science missions coming up 
with launches scheduled later this year, CloudSat and CALIPSO. 
In addition, we have several missions in development, such as 
the NPOESS Preparatory Project, NPP, that we are--that we and 
our partners believe are vital to evolving from research to 
operations.
    Further, the Global Precipitation Mission is currently in 
formulation, along with several smaller missions in the Earth 
systems science pathfinder line.
    While some Science Mission Directorate missions have been 
delayed one to two years to respond to other national 
priorities, this decision applies to all science missions that 
have not passed their confirmation review, not just those in 
Earth science.
    To help chart our course ahead, we have established a two-
pronged approach to obtaining community advice on the future of 
the Earth sciences at NASA. As part of the broader NASA 
planning effort to implement the Vision for Space Exploration, 
and other national objectives articulated in the New Age of 
Space Exploration, we have established 13 strategic road map 
committees, one specifically focused on the dynamic Earth 
system. We have recently received this committee's draft report 
and are pleased with the products and progress. We expect the 
final report within the next few weeks, and we will integrate 
them all into the Agency's next strategic plan.
    NASA has also requested that the National Research Council 
generate a community-led decadal survey for Earth science. We 
are still digesting the recently received NRC Earth Science 
Decadal Survey Phase One Report, and we will carefully consider 
its recommendations together with our partners at NOAA.
    While the decadal survey and the Dynamic Earth System 
Strategic Road map are still in development, some aspects of 
the direction we will take are already clear. We will continue 
working in partnerships with our international partners, as 
well as our interagency partners. We believe that that will 
provide us an implementation strategy that leverages our 
resources in a very effective way.
    I would like to highlight the working relationship that 
NASA enjoys with NOAA, given the natural synergy and history of 
coordination and cooperation between Earth and space weather 
scientists and NASA and NOAA management. By partnering with 
NASA--excuse me, with NOAA, we are enabling improved weather 
prediction, severe storm forecasting, and climate prediction 
services. Further, we intend to increase our emphasis on having 
Earth science benefit our exploration program through the 
development of an operational capability to predict space 
weather.
    Through our collaborative effort, not only can we answer 
questions of how and why the Sun varies, but also how the Earth 
responds to these changes and the implications of these changes 
to society. Understanding that is critical as we send humans to 
the Moon, Mars, and beyond.
    We believe that we have effectively combined NASA's 
strengths in research and technology development with NOAA's 
capabilities to sustain a long-term operational system of 
satellites, creating the most effective system for American 
taxpayers.
    I look forward to the upcoming launch of NOAA-N as some 
evidence of this and the launch of the NPOESS Preparatory 
Mission as further amplification.
    Thank you, again, for the opportunity to appear, and I look 
forward to your questions.
    [The prepared statement of Mr. Diaz follows:]

                 Prepared Statement of Alphonso V. Diaz

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's commitment to maintaining 
robust Earth and space science programs and their contributions to 
achieving the Nation's Vision for Space Exploration.
    The Science Mission Directorate provides leadership to NASA at the 
agency level, delivering a unique scientific perspective. The Earth and 
space science activities of the Science Mission Directorate fully 
support NASA's mission to:

        <bullet>  Understand and Protect our Home Planet by using our 
        view from space to study the Earth system and improve 
        prediction of Earth system change

        <bullet>  Explore the Universe and Search for Life by 
        continuing scientific investigations into the origin, 
        evolution, and destiny of the universe and our solar system, 
        and by applying our scientific understanding of the Earth 
        system to the identification and study of Earth-like planets 
        around other stars

        <bullet>  Inspire the Next Generation of Explorers by providing 
        Earth and Space science content and training to educators, and 
        by sponsoring the education and early careers of Earth 
        scientists, astronomers, and physicists.

    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA a new focus 
and clear objectives. The fundamental goal of this directive for the 
Nation's space exploration program is ``. . .to advance U.S. scientific 
security, and economic interests through a robust space exploration 
program.'' In issuing this directive, the President committed the 
Nation to a journey of returning humans to the Moon, sending robots and 
ultimately humans to Mars, and exploring the solar system and beyond. 
He challenged us to establish new and innovative programs to enhance 
our understanding of the planets, to ask new questions and to answer 
questions as old as humankind. NASA enthusiastically embraced this 
directive and immediately began an agency-wide transformation to enable 
us to achieve the Vision.
    NASA's recently published document, The New Age of Exploration: 
NASA's Direction for 2005 and Beyond, articulates NASA's commitment to 
implementing the Vision for Space Exploration. It identifies NASA's 
Guiding National Objectives to:

        1.  Implement a sustained and affordable human and robotic 
        program to explore the solar system and beyond

        2.  Extend human presence across the solar system, starting 
        with the Moon by the year 2020, in preparation for human 
        exploration of Mars and other destinations

        3.  Develop innovative technologies, knowledge, and 
        infrastructure both to explore and to support decisions about 
        the destinations for human exploration

        4.  Promote international and commercial participation in 
        exploration

        5.  Study the Earth System from space and develop new space-
        based and related capabilities for this purpose

    NASA Earth science is critical for fulfilling NASA's mission 
because of NASA's unique capabilities of frequent global observations, 
modeling and data assimilation with the aim to improve prediction of 
both large-scale and small-scale processes. Human exploration of Mars 
and beyond requires prediction of the environment to be encountered by 
humans. The technological tools and scientific skills that NASA 
continues to develop through studying Earth, which has the most complex 
ecosystem with continuous interactions of biological, chemical and 
physical processes at all time and space scales, are critical in the 
exploration and search for life of other planets in our own solar 
system and beyond.
    In June 2004, the President's Commission on the Implementation of 
the United States Space Exploration Policy, led by E.C. ``Pete'' 
Aldridge, Jr. (the Aldridge Commission), and reported their findings 
and recommendations to the President. The Aldridge Commission 
emphasized the crucial roles that technological innovation, national 
and international partnerships, and organizational transformation must 
play if we are to implement the President's Vision for an affordable 
and sustainable space exploration program. NASA is committed to making 
the necessary transformation to ensure our success in achieving the 
Vision for an affordable and sustainable space exploration program.

The Historic Opportunity to Implement the Vision

    The transformation presents NASA's science endeavors with an 
historic opportunity to support and benefit from the Vision for Space 
Exploration. As the National Research Council stated in their report, 
Science in NASA's Vision for Space Exploration (2005), ``the 
appropriate science in a vibrant space program is nothing less than 
that science that will transform our understanding of the universe 
around us, and will in time transform us into a space-faring 
civilization that extends human presence across the solar system.''
    In August 2004, NASA repositioned its science endeavors by merging 
two science Enterprises into one Science Mission Directorate with three 
themes: Earth-Sun System, Solar System Exploration, and Universe. The 
merger of Space Science, with its emphasis on ``discovery,'' and Earth 
Science's capacity for ``prediction'' positions the Science Mission 
Directorate to support the Vision by engaging in comprehensive 
scientific investigations into the Origin, Evolution, and Destiny of 
the Earth, the Solar System, and the Universe. The synergies 
facilitated by this integration will benefit research, development, and 
improve science results in all NASA science disciplines, including 
Earth science. Furthermore, a unified Science Mission Directorate 
facilitates the opportunity for all of the discipline areas of science 
to learn from each other which, in turn, enhances NASA's exploration 
activities.

Planning for the Future

    NASA has identified eighteen strategic objectives, from which 
thirteen strategic roadmaps will be derived. Six of these roadmaps 
directly apply to the activities and research objectives of the Science 
Mission Directorate. The current strategic planning process forms the 
basis for our future strategy for Earth and space science. Through our 
actions, we are clearly emphasizing a continuing commitment to Earth 
science and NASA's commitment to study the Earth system is clearly 
reflected in our national objectives. Not only will these studies 
better inform our work as we implement the Vision, but will strengthen 
our ability to continue to support Presidential initiatives involving 
climate change science and technology, the oceans, an integrated Earth 
observation system, and others.

Strategic Roadmapping
    While the ``Aldridge'' Commission provided the blueprint for NASA's 
ongoing transformation in support of the Vision, NASA's strategic 
planning efforts are defining the specific details for The New Age of 
Exploration. New strategic roadmaps will provide a foundation for 
future investment decisions and priorities in 13 key areas. Each 
strategic roadmap is being developed by a team composed of nationally-
recognized scientists, engineers, educators, visionaries, and managers, 
organized into dedicated teams co-chaired by senior NASA leaders and 
nationally recognized leaders from industry and academia. In some 
strategic roadmap areas, thematic roadmaps already exist or are in 
development. These ``legacy'' products and activities will be 
integrated into the new process.
    The Dynamic Earth System roadmap committee submitted its interim 
status report to NASA for review on April 15. The work being done by 
this roadmapping committee has already identified a number of missions 
that NASA should consider in the future. For Earth science, the roadmap 
assumes the successful implementation of the currently planned mission 
set, such as the Orbiting Carbon Observatory, Aquarius, and the Global 
Precipitation Measurement missions. Likewise, for the Sun-Earth 
Connection, the roadmap assumes the successful implementation of 
STEREO, Solar-B, Magnetosphere Multi-Scale, Radiation Belt Storm 
Probes, and the Solar Dynamics Observatory missions.
    In addition, the Dynamic Earth System and Sun-Solar System 
Connection roadmap committees are coordinating their activities and 
held a joint meeting on March 16, 2005. Interim reports from the two 
committees evidence interest in similar missions. Such missions have 
considerable importance for Earth science and the Vision for Space 
Exploration by enabling high-temporal resolution of atmospheric changes 
and solar influences on climate, and by providing a capability to 
monitor space weather and solar events that could be hazardous to 
spacecraft and astronauts.
    Unlike the other roadmap committees, the Dynamic Earth System 
committee did not have the benefit of a National Research Council 
Decadal Survey as a starting input; such a survey was requested shortly 
before the roadmapping activity began and is currently in work. NASA 
expects to receive the final Phase II report by the end of calendar 
year 2006. However, the Dynamic Earth System committee will benefit 
from other detailed, strategic planning documents from NASA and 
national planning processes such as the U.S. Climate Change Science 
Plan, the Grand Challenges for Natural Disaster Reduction, and the U.S. 
Integrated Earth Observation System.
    We have recently received the Dynamic Earth System committee's 
draft report and are pleased with the Committee's products and 
progress. We appreciate their hard work and support and value their 
contributions to this critical endeavor.

Decadal Study
    At the request of NASA and NOAA, the National Research Council is 
carrying out a ``decadal survey'' entitled ``Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future.'' The Space Studies Board, in consultation with other units of 
the NRC, will lead the study to generate consensus recommendations from 
the Earth and environmental science and applications communities 
regarding a systems approach to space-based and ancillary observations 
that encompasses the research programs of NASA and the related 
operational programs of NOAA.
    The key goals of the study are:

        <bullet>  Articulate priorities for Earth system science and 
        the space-based observational approaches to address those 
        priorities.

        <bullet>  Establish individual plans and priorities within the 
        sub-disciplines of the Earth sciences as well as an integrated 
        vision and plan for the Earth sciences as a whole.

Providing Continued Leadership While Leveraging Partnerships in Earth 
                    Sciences

Presidential Initiatives
    The FY06 budget supports critical national needs, including climate 
change by supporting investments in the U.S. Global Change Science and 
Technology Programs and next generation Earth observing satellites.
    In addition to supporting the Vision for Space Exploration, NASA's 
Earth science program has a critical role in implementing important 
Administration initiatives:

        <bullet>  Global Earth Observation System of Systems via the 
        U.S. Group on Earth Observations--The purpose of GEOSS is to 
        achieve comprehensive, coordinated and sustained observations 
        of the Earth system, in order to improve monitoring of the 
        state of the Earth, increase understanding of Earth processes, 
        and enhance prediction of the behavior of the Earth system. 
        NASA's Earth Observing System supports this effort through a 
        series of polar-orbiting and low inclination satellites, a 
        science component, and a data system of long-term global 
        observations of the land surface, biosphere, solid Earth, 
        atmosphere, and oceans.

        <bullet>  Climate Change Science Program--NASA's Earth science 
        program is the largest contributor (over 60 percent of the 
        total funding) to the Administration's Climate Change Science 
        Program. NASA brings the global perspective from satellite and 
        sub-orbital measurements to address climate and global change 
        science questions. NASA has the end-to-end capability to 
        develop technologies, models, deploy observing systems and 
        utilize and provide products for decision support systems.

        <bullet>  Grand Challenges in Natural Disaster Reduction--NASA 
        research and observations are essential to help the U.S. meet 
        its disaster reduction goals for the next decade. Through its 
        ability to view the Earth as a dynamic system, NASA makes key 
        contributions to the science of hazard assessment and 
        mitigation and provides essential support to the efforts of 
        other federal agencies charged with these responsibilities.

International Partnerships
    NASA has long-standing relationships with foreign countries in the 
conduct of Earth science. Historically, over 50 percent of NASA's Earth 
science programs have involved international participation. Such 
partnerships have allowed each country to leverage their Earth science 
resources to conduct outstanding science in the pursuit of 
understanding our Earth and the forces that influence its change. 
Cloudsat and CALIPSO, scheduled to launch this summer, exemplify how 
NASA is able to successfully collaborate with space agencies around the 
world. NASA and the Canadian Space Agency worked together to develop 
CloudSat's Cloud Profiling Radar. For CALIPSO, CNES, the French space 
agency, not only provided the spacecraft and the Imaging Infrared 
Radiometer (IIR), but is also performing payload-to-spacecraft 
integration and spacecraft mission operations.
    In support of the Vision for U.S. Space Exploration, the Science 
Mission Directorate held a conference this past March that included 
participation from 26 international organizations. In some cases the 
participants were representatives from multilateral organizations such 
as the Central American Commission on Environment and Development 
(CCAD), the European Commission (EC), and the United Nations 
Educational, Scientific and Cultural Organization (UNESCO). The 
conference provided a forum for NASA and its international partners to 
exchange information on the Vision and to discuss opportunities for 
enhanced future cooperation. A recurring theme at the conference was 
the importance of international collaboration and information sharing 
in achieving common scientific priorities.

Interagency Partnerships
    NASA works closely with our partner agencies on national programs 
including the Climate Change Science Program, the Grand Challenges in 
Disaster Reduction, and Integrated Earth Observation System. We value 
our long history of collaboration with research agencies, such as NSF 
and DOE, as well as operational agencies, such as EPA, USDA, DOI and 
NOAA. We are committed to continuing to work closely with our partner 
agencies to ensure the continuity of data sets crucial to our nation.
    NASA and the U.S. Geological Survey (USGS) of the Department of 
Interior have cooperated to produce new global land cover data products 
for each of three different time periods: the 1970s, circa 1990, and 
circa 2000. The DOI (USGS) and NASA share responsibility for preserving 
and populating the National Satellite Land Remote Sensing Data Archive 
and ensuring the continued collection of Landsat data. The Landsat 
Program is the longest running enterprise for acquisition of imagery of 
the Earth from space. The first Landsat satellite was launched in 1972 
and the most recent, Landsat 7, was launched in 1999. USGS's 33-year 
Landsat data archive provided most of the over 20,000 Landsat satellite 
images needed. In partnership with private industry (the Earth 
Satellite Corporation), the GeoCover product was created. Researchers, 
planners, and land managers are now using the GeoCover data to 
understand how the Earth's land cover and land use have changed over 
the past thirty years. Recent projects have documented urbanization in 
the U.S. and tracked land cover change on the biologically rich island 
of Madagascar. A new project is underway to map changes in North 
American forests since 1975 as part of the North American Carbon 
Program. GeoCover data also have been made available through two United 
Nations organizations, the UN Environment Programme (UNEP) and the Food 
and Agriculture Organization (FAO).
    NOAA, NASA, U.S. Navy and U.S. Air Force jointly support the Joint 
Center for Satellite Data Assimilation (JCSDA) which seeks to 
accelerate and improve the quantitative use of research and operational 
satellite data in weather and climate prediction models. Recent 
successes have been based on data from a number of NASA satellites, 
including QuikSCAT, TRMM, Terra and Aqua. Through the JCSDA, inclusion 
of NASA data on sea winds, rainfall, high latitude winds and 
temperature and humidity vertical profiles in NOAA forecast models has 
led to improved NOAA weather forecast models, including short-term, 
hurricane and seasonal-to-inter-annual forecasts. The JCSDA helps to 
transform NASA's results into NOAA's operational systems and we are 
working together to ensure that each agency's models are sufficiently 
similar to allow for easy movement of progress from one to the other.
    NASA and NOAA have also worked together to improve weather 
prediction on Earth Through a long-standing relationship where NASA 
acts as a program manager and purchasing agent on NOAA's behalf. This 
relationship in developing, launching, and operating the GOES and POES 
satellites has provided invaluable information used every day to 
forecast the weather, both in the U.S. and across the world. The launch 
of NASA-built NOAA N later this year will provide new short- and long-
range forecasting capabilities.
    In 1970, NASA's Nimbus-4 satellite led to the first measurements of 
global ozone content from space. Beginning with the Nimbus-7 in 1979, 
NASA and NOAA have harnessed this capability through the Total Ozone 
Mapping Spectrometers (TOMS) and the Solar Backscatter Ultraviolet 
(SBUV) instruments to produce a continuous 25-year data record of 
global ozone. The resulting long-term data set has been a central part 
of international assessments of the state of the ozone layer, showing 
both the global picture and trend of ozone loss and the progress of the 
Antarctic ozone hole. The continued data from this series of satellites 
will also play a key role in the observation of the recovery of the 
ozone layer. To interweave data from this series of satellite 
instruments into a homogeneous climate-quality data record requires the 
ongoing commitment of this interagency science team. This data record, 
and the blending of diverse strengths to analyze and verify data, 
continues today with the advanced ozone measurements being made by 
NASA's Aura mission. This capability will transition to NPOESS, with 
the first flight of the OMPS instrument suite aboard the NASA NPP 
mission.
    More recently, NASA and NOAA have begun cooperating on missions 
related to space weather and its effects on Earth. Data from NASA 
spacecraft can be used to improve the NOAA capability to predict space 
weather. For example, NOAA uses data from NASA's solar wind monitoring 
ACE spacecraft to assist in predicting space weather. New NASA 
instruments will continue to inform the process needed to further 
develop a robust operational capability to predict space weather. By 
working together, NASA and NOAA are jointly able to answer questions of 
interest to both agencies: ``How and why the Sun varies?''; ``How does 
the Earth respond to solar variability?''; and ``What are the 
implications of solar variability and the Earth's response?''
    Based on this synergy of science objectives and history of 
coordination and cooperation, NASA has been working with NOAA to 
transition to a strategy that better leverages our respective strengths 
in science investigations and mission operations. NASA believes this is 
in line with the principles of good and efficient management of public 
funds to serve our nation and the world. It is our intent to continue 
to work with NOAA to look for new ways to improve the efficiency of 
these transfers. For example, both agencies have jointly funded a study 
by the National Academy of Sciences/National Research Council Committee 
on NASA-NOAA Transition from Research to Operations (CONNTRO). The May 
2003 final report was called Satellite Observations of the Earth's 
Environment, Accelerating the Transition from Research to Operations. 
In addition, NASA and NOAA have established a Joint Research to 
Operations (R2O) Working Group as a mechanism for joint and coordinated 
planning on transition matters pertaining to research results, ground 
systems, and current and future spacecraft missions in preparation for 
discussions within the National Science and Technology Council.

FY 2006 Budget

    The former Earth Science Enterprise and the Sun-Earth Connection 
theme from the former Space Science Enterprise have been combined to 
form the new Earth-Sun System theme. In this new theme, the following 
programs can be traced from Earth Science: Earth Systematic Missions, 
Applications and Earth System Pathfinders.
    The FY 2006 budget supports a vibrant and effective science program 
that is responsive to national priorities. The overall NASA science 
programs budget run-out shows a 24 percent increase from FY 2006 
through FY 2010, at which time science will grow from 33 percent to 
approximately 38 percent of the NASA budget. NASA's Science Mission 
Directorate continues to support 55 operational missions, 26 missions 
in development and 34 in formulation. There are 16 Earth Science 
missions presently on orbit and plans to launch eight more Earth 
Science missions between 2005 and 2010. Earth science missions in 
development include Cloudsat; the Cloud-Aerosol Lidar and Infrared 
Pathfinder (CALIPSO); the NPOESS Preparatory Project (NPP); the 
Orbiting Carbon Observatory (OCO); and the Landsat Data Continuity 
Mission (LDMC). In addition, the following Earth science missions are 
currently in formulation: the Ocean Surface Topography Mission (OSTM); 
the Global Precipitation Mission (GPM); Glory; Aquarius; and Hydros. 
Additionally, the NOAA reimbursable missions GOES-N, -O, and -P and 
POES-N and -N' are in development and GOES-R is in formulation.
    One of NASA's Strategic Objectives for 2005 and beyond is to 
advance scientific knowledge of the Earth system through space-based 
observation, assimilation of new observations, and development and 
deployment of enabling technologies, systems, and capabilities 
including those with the potential to improve future operational 
systems. The FY 2006 budget for NASA supports a highly effective 
program of research and development of Earth Sciences, and plans are 
now being formulated to continue this significant effort into the 
future.

Conclusion

    The integrated view of Sun and Earth as a system is reflected in 
our strategic roadmapping approach and long-term planning. NASA's goal 
is to continue using our unique view from space to study the Earth 
system and improve our prediction of the Earth system change. Through 
new space-based technology designed to monitor the Earth system, NASA 
will provide timely, on-demand data and analyses to users for 
scientific research, national policy-making, economic growth, natural 
hazard mitigation, and the exploration of other planets in this solar 
system and beyond. NASA's FY 2006 budget request supports a robust 
science and mission set to ensure a wealth of scientific research and 
discovery will continue well into the future. Through this approach we 
also recognize the emerging importance of understanding the Earth-Sun 
system in enabling the achievement of the Vision and NASA's exploration 
mandate.

                     Biography for Alphonso V. Diaz

    Mr. Alphonso V. Diaz was named Associate Administrator for NASA's 
Science Mission Directorate on August 8, 2004. In this position, he is 
responsible for the management, direction, and oversight of NASA's 
science flight programs, mission studies, and technology development. 
In addition, in this capacity, he is the designated Program Executive 
Officer for the Goddard Space Flight Center (GSFC), the Ames Research 
Center, and contract management of the Jet Propulsion Laboratory.
    From 1996 to 2004, Mr. Diaz was at Goddard Space Flight Center 
where he served as Center Director from 1998 to 2004 and as Deputy 
Director from 1996 to 1998. While at GSFC he was responsible for 
planning, organizing, and directing NASA's Earth science, space 
science, and technology programs assigned to the Center. GSFC is 
engaged in developing and operating scientific spacecraft including the 
Hubble Space Telescope and the Earth Observing System. The Center 
continues to seek excellence in science and technology as demonstrated 
by many discoveries and advances in its history, from the first mapping 
of the Antarctic ozone hole to determining the very early structure of 
the universe.
    From 1989 to March 1996, Mr. Diaz served as Deputy Associate 
Administrator and Chief Engineer of the Office of Space Science (Code 
S) at NASA Headquarters. In that capacity, he was responsible for 
management direction and oversight of space science flight program 
policy, launch vehicle requirements, technology infusion requirements, 
and mission study reviews and assessments. Mr. Diaz led the Agency 
committee charted by the Administrator to study proposals related to 
science institutes and to provide recommendations for implementation. 
Prior key positions with NASA include Deputy Associate Administrator 
for the former Office of Space Science and Applications (OSSA), 
Assistant Associate Administrator for Programs within OSSA, and 
Director for Strategic Plans and Programs for Space Station.
    Mr. Diaz began his career at NASA's Langley Research Center as a 
NASA Coop Student in 1964. At Langley, he worked in a variety of 
technical management positions, including on the Viking Project, Gas 
Chromatograph Mass Spectrometer (GCMS). This scientific instrument was 
the first to analyze the surface material of Mars in 1976. In 1979, Mr. 
Diaz began his work at NASA Headquarters, where he served in a variety 
of positions. Aside from the positions mentioned above, Mr. Diaz also 
has served as the International Solar-Polar Mission (now Ulysses 
Mission) Program Manager, the Galileo Program Manager, Manager of 
Planetary Advanced Programs, and as Deputy Director of the Solar System 
Exploration Division. He later served as Assistant Associate 
Administrator for Space Station within OSSA, managing all activities on 
the use of the planned Space Station for scientific research, and 
providing strategic planning guidance for OSSA's overall program of 
scientific exploration. Mr. Diaz received three Presidential Rank 
Awards; two as Meritorious Executive in 1990 and in 1995, and one 
Distinguished Award in 1996. He also has received five NASA Medals, 
including a NASA Outstanding Leadership Medal in 1994 for his work on 
the Hubble Space Telescope First Servicing Mission, and an Exceptional 
Scientific Achievement Medal for his work on the Viking Project in 
1976.
    Mr. Diaz received a Bachelor of Science degree in Physics from St. 
Joseph's University in Philadelphia, Pennsylvania and a Master of 
Science degree in Physics from Old Dominion University in Norfolk, 
Virginia. In addition, he received a Master of Science in management 
from the Massachusetts Institute of Technology (MIT) Sloan School of 
Management in 1986 where he attended as a NASA Sloan Fellow. He has 
received an Honorary Doctorate in Science from Capital College and is 
scheduled to receive an Honorary Doctorate from the University of Rome 
(Italy) on May 30, 2005. He is a Fellow and Trustee of the 
International Academy of Astronautics and an Associate Fellow of the 
American Institute of Aeronautics and Astronautics. He is married to 
Angela Phillips Diaz. They reside in Takoma Park, MD.

    Chairman Boehlert. Thank you very much, Mr. Diaz.
    Dr. Moore.

STATEMENT OF DR. BERRIEN MOORE III, DIRECTOR, INSTITUTE FOR THE 
 STUDY OF EARTH, OCEANS, AND SPACE, UNIVERSITY OF NEW HAMPSHIRE

    Dr. Moore. Thank you. Thank you Committee, Minority Member 
Congressman Gordon, and Members of the Committee. Thank you for 
inviting me here to testify today.
    My name is Berrien Moore, and I am a professor of systems 
research at the University of New Hampshire. I appear today in 
my capacity as Co-Chair of the National Research Council's 
Committee on Earth Science and Applications from Space: A 
Community Assessment and a Strategy for the Future.
    This committee came into being in response to requests from 
NASA, NOAA, and the USGS to begin a decadal survey of Earth 
sciences and applications from space. That committee's report, 
the final report, is due to be completed in late 2006.
    The key tasks of the committee are to develop a consensus 
of the top-level scientific questions that should provide the 
focus for Earth and environmental observations for the period 
2005 to 2020 and to develop a prioritized list of recommended 
space programs, missions, and supporting activities to address 
these questions.
    I would like now to just simply summarize my comments more 
informally.
    What we have submitted today, or actually released 
yesterday, is the interim report of the committee. 
Unfortunately, I don't think that is the best title. It is the 
report that the committee was asked to do, funded by the 
government and partnered by the community, to look at the 
status of affairs today, because if we are to try to set a 
decadal survey into motion to talk about a vision for 2005, but 
really in reality 2010 to 2020, we need to see where we are 
today.
    And so the interim report is essentially a status of the 
bridge. Al Diaz mentioned quite properly that NASA's history in 
Earth science over the last 15 to 20 years is truly remarkable. 
So our past up to the present is of enormous strength. And I 
concur, having had this morning the opportunity to look at the 
road maps and to know what the decadal survey is doing, as we 
think about the period 2010 to 2020, that there is a glorious 
opportunity that we have to better understand this planet and 
to better serve the Nation and the world.
    However, we are now on a bridge between that extraordinary 
past and the future. And there is concern about the status of 
that bridge. And that is the content of the interim report.
    The concerns are in five areas.
    For a variety of reasons, there have been a significant 
number of Earth science missions that have been delayed or 
descoped or canceled or terminated, and I can easily understand 
some debate about which of those verbs is most appropriate. But 
there has been a significant impact upon a set of Earth science 
missions that the community had expected to come into 
existence.
    Secondly, part of the strategy of dealing with this 
challenge has been to move some of that capability from NASA to 
NOAA and put it onto the NPOESS platform. There are concerns 
about that transition. We do not understand fully the 
technological issues as well as the scientific.
    I will return to that point in a moment.
    Thirdly, that there are--that after the Global 
Precipitation Mission, there is no major facility-class mission 
at NASA in the planning queue. This is the first time that I 
can remember, in the long history I have had with NASA, to see 
that there is essentially an end. And when that occurs, it has 
an impact upon the technology investments. If you do not have a 
robust mission queue leading out into the future, then you do 
not have a robust technology cue to support that.
    The Earth System Science Pathfinders are an extraordinary 
opportunity to have rapid access to space through principal 
investigator-led missions. I find this one of the most exciting 
aspects to see the Earth sciences adopt the Explorer mission 
concept from the space sciences and to have incorporated these 
in the so-called ESSP, the Earth System Science Pathfinders.
    However, because of budget constraints again, these 
missions have been stretched out longer and longer. I think the 
theme is going to be ``fly before I die'' if we don't bring 
these in. We are looking at outwards of eight and 10 years to 
fly off some of these PI-led missions.
    Two final areas.
    In this transfer of capability from NASA to NOAA, there are 
extraordinary opportunities there. But there are some very real 
concerns. Take, for instance, we have had this wonderful 
success with the EOS missions. And those now are to be 
replaced, in part, by the operational NPOESS missions.
    But let us look at what happens to the information that 
comes from NPOESS. It flows to four weather centrals, 
operational weather centrals. There is no science central. 
There is no climate central. There is no central where the data 
can be analyzed carefully and repeatedly. It goes to four 
operational centers that have enormously important but very 
significant time constraints for getting the information out.
    And so we think that, in one of our recommendations, we 
need to look at this and ask: Is NPOESS really serving the 
scientific community, and in particular, the climate part of 
that mission?
    Finally, when you have a constrained budget, or a budget 
that is falling, one of the hardest things in the world to do 
is to preserve the research and analysis. This is particularly 
true when many times you have built the research and analysis 
part of the budget through a coupling with the major missions. 
The EOS is a good example. Research and analysis in the Earth 
sciences was enhanced tremendously because of the close 
coupling with the Earth Observing System. That coupling is 
beginning to deteriorate as the Earth Observing System begins 
to age.
    I would like to compliment, though, Ghassem Asrar, who has 
done everything he could--who is in the audience, who has done 
everything he could to preserve that research and analysis 
line. But in a declining budget, this becomes the first of many 
difficulties.
    Let me conclude, and I would go back to my formal 
testimony.
    Taken together, these developments jeopardize U.S. 
leadership in both Earth science and Earth observations, and 
they undermine the vitality of the government-university-
private sector partnership that has made so many contributions 
to society.
    Thank you for the opportunity to appear before you today, 
and I am prepared to answer any questions that you have.
    [The prepared statement of Dr. Moore follows:]

                Prepared Statement of Berrien Moore III

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me here to testify today. My name is 
Berrien Moore, and I am a Professor of Systems Research at the 
University of New Hampshire. I appear today in my capacity as Co-Chair 
of the National Research Council (NRC)'s Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future.
    As you know the National Research Council is the unit of the 
National Academies that is responsible for organizing independent 
advisory studies for the Federal Government on science and technology. 
In response to requests from NASA, NOAA, and the USGS, the NRC has 
begun a ``decadal survey'' of Earth science and applications from space 
which is due to be completed in 2006. The guiding principle for the 
study, which was developed in consultation with members of the Earth 
science community, is to set an agenda for Earth science and 
applications from space, including everything from short-term needs for 
information, such as weather warnings for protection of life and 
property, to longer-term scientific understanding that is essential for 
understanding our planet, how it supports and sustains life, and that 
underpins future societal applications.
    The NRC has been conducting decadal strategy surveys in astronomy 
for four decades. But it has only started to do them in other areas 
fairly recently. This is the first decadal survey in Earth science and 
applications from space.
    Among the key tasks in the charge to the decadal survey committee 
is the request to:

        <bullet>  Develop a consensus of the top-level scientific 
        questions that should provide the focus for Earth and 
        environmental observations in the period 2005-2020; and

        <bullet>  Develop a prioritized list of recommended space 
        programs, missions, and supporting activities to address these 
        questions.

    The NRC survey committee has prepared a brief interim report, which 
I am pleased to be able to summarize today. This report provides an 
early examination of urgent issues that require attention prior to 
publication of the committee's final report in the second half of 2006. 
A copy of the full report has also been provided for your use.
    The report was requested by the sponsors of the study and by staff 
members of the Science Committee. The report also responds, in part, to 
direction in the FY 2005 appropriations bill that calls for ``the 
National Academy's Space Studies Board to conduct a thorough review of 
the science that NASA is proposing to undertake under the space 
exploration initiative and to develop a strategy by which all of NASA's 
science disciplines. . .can make adequate progress towards their 
established goals, as well as providing balanced scientific research in 
addition to support of the new initiative.''
    The current U.S. civilian Earth observing system centers on the 
environmental satellites operated by NOAA; the atmosphere-, ocean-, 
ice-, and land-observation satellites of NASA's Earth Observing System 
(EOS); and the Landsat satellites, which are operated through a 
cooperative arrangement between NASA, NOAA, and the USGS. Over the past 
30 years, NASA and NOAA have contributed to fundamental advances in 
understanding the Earth system and in providing a variety of societal 
benefits through their international leadership in Earth observing 
systems from space. Today, this process of building understanding 
through increasingly powerful observations and thereby expanding the 
basis for needed applications is at risk of collapse. Although NOAA has 
plans to modernize and refresh its weather satellites, NASA has no plan 
to replace its EOS platforms after their nominal six-year lifetimes end 
(beginning with the end of the Terra satellite mission in 2005), and it 
has canceled, scaled back, or delayed at least six planned missions, 
including a Landsat continuity mission.
    These decisions at NASA appear to be driven by a major shift in 
priorities as the Agency moves to implement a new vision for space 
exploration. We believe this change in priorities jeopardizes NASA's 
ability to fulfill its obligations in other important presidential 
initiatives, such as the Climate Change Research Initiative and the 
subsequent Climate Change Science Program. It also calls into question 
future U.S. leadership in the Global Earth Observing System of Systems, 
an international effort initiated by this administration. Indeed, the 
Nation's ability to pursue a visionary space exploration agenda depends 
critically on our success in applying knowledge of the Earth to 
maintain economic growth and security on our home planet.
    Moreover, a substantial reduction in NASA's Earth observation 
programs today will result in a loss of U.S. scientific and technical 
capacity, which will decrease the competitiveness of the United States 
internationally for years to come. U.S. leadership in science, 
technology development, and societal applications depends on sustaining 
competence across a broad range of scientific and engineering 
disciplines that include the Earth sciences.
    The NRC's interim report identifies a number of issues for NASA and 
NOAA that require immediate attention in the FY 2006 and FY 2007 
programs. They include the following:

        <bullet>  The impact of canceling or delaying NASA missions,

        <bullet>  The need to evaluate plans for transferring 
        capabilities from some canceled or scaled-back NASA missions to 
        the NOAA-DOD NPOESS satellites,

        <bullet>  The adequacy of the technological base for future 
        missions,

        <bullet>  The state of NASA Research and Analysis programs, 
        which are necessary to maximize scientific return on NASA 
        investments in Earth science and to retain the intellectual 
        base for future missions,

        <bullet>  The need to reinvigorate the Explorer missions 
        program, and

        <bullet>  Near-term steps that are required to develop a 
        sustained and robust observing system from space that provides 
        essential baseline climate observations and create a climate 
        data and information system to meet the challenge of 
        production, distribution and stewardship of climate records 
        from NPOESS and other relevant observational platforms.

    With regard to these issues, the committee recommends the following 
actions:

        1.  The NASA Global Precipitation Measurement mission should be 
        launched without further delays. This mission is an 
        international effort to improve climate, weather, and 
        hydrological predictions through more accurate and frequent 
        precipitation measurements.

        2.  NASA and NOAA should complete the fabrication, testing, and 
        space qualification of the GIFTS (Geosynchronous Imaging 
        Fourier Transform Spectrometer) instrument and should support 
        the international effort to launch this instrument by 2008. 
        GIFTS will make highly detailed measurements from geostationary 
        orbit of temperature and water vapor and will improve the 
        prediction of severe weather conditions as well as the range of 
        global weather forecasts.

        3.  NASA and NOAA should commission three independent reviews, 
        to be completed by October 2005, regarding three missions or 
        instruments: (a) the Landsat Data Continuity Mission, which has 
        been endorsed by the White House Office of Science and 
        Technology Policy and was planned by NASA to continue the vital 
        record of Earth land imaging after Landsat-7, which is 
        currently failing, (b) the Glory mission to measure and 
        characterize atmospheric aerosols and solar irradiance, which 
        is now canceled, but which NASA had previously proposed to 
        accelerate in response to the President's Climate Change 
        Science Program, and (c) the suitability of the instrumentation 
        planned for NPOESS to measure ocean winds and direction.

            The guidelines for these reviews are set forth in the 
        Interim report.

        4.  Mr. Chairman, we also recommend that NASA significantly 
        expand existing technology development programs to ensure that 
        new enabling technologies for critical observational 
        capabilities are available to support mission starts over the 
        coming decade. One of the problems of having nothing in the 
        mission queue after the Global Precipitation Mission, other 
        than smaller, principal investigator led explorer-class 
        missions, is that focused technology development is no longer 
        supported. Amongst the areas requiring increased technology 
        investments are:

                <bullet>  Space-based interferometric synthetic 
                aperture radar, whose numerous applications include 
                monitoring of Earth's crustal movements caused by 
                volcanic or seismic activity;

                <bullet>  Wide swath ocean altimetry, which will 
                provide the first synoptic observations of global ocean 
                eddies, coastal currents and tides, and internal tides; 
                and

                <bullet>  Wind lidar, which will facilitate long sought 
                measurements of global wind profiles, particularly over 
                the oceans where three dimensional measurements are 
                sparse and where most weather phenomena originate.

        5.  We also recommend that NASA:

                <bullet>  Increase the frequency of Earth Explorer 
                selection opportunities and accelerate the frequency of 
                launch opportunities by providing sufficient funding 
                for at least one launch per year (that is, a return to 
                the schedule the program originally envisioned and 
                followed prior to recent delays), and

                <bullet>  Release the next announcement of opportunity 
                for this program in FY 2005.

            NASA developed its Earth System Science Pathfinder (ESSP) 
        program as ``an innovative approach for addressing Global 
        Change Research by providing periodic 'Windows of Opportunity' 
        to accommodate new scientific priorities and infuse new 
        scientific participation into the Earth Science Enterprise. . 
        .[using]. . .relatively low to moderate cost, small to medium 
        sized missions that are capable of being built, tested and 
        launched in a short time interval.'' But some of the missions 
        now being planned may not be launched until nearly 10 years 
        after they were selected.

        6.  Last, we recommend that NOAA, working with the Climate 
        Change Science Program and the international Group on Earth 
        Observations create a robust and sustained observing system 
        from space that includes at a minimum a set of essential 
        baseline climate observations. In addition NOAA should create a 
        climate data and information system to meet the challenge of 
        the production, distribution, and stewardship of high-accuracy 
        climate records from NPOESS and other relevant observational 
        platforms. These functions are within NOAA's mandate to 
        understand climate variability and change, but cannot be 
        accomplished through the current NPOESS program or its data 
        system architecture.

    Finally, Mr. Chairman, our committee is also concerned about 
diminished resources for the research and analysis (R&A) programs that 
sustain the interpretation of Earth science data. Because the R&A 
programs are carried out largely through the Nation's research 
universities, there will be an immediate and deleterious impact on 
graduate student, postdoctoral, and faculty research support. The long-
term consequence will be a diminished ability to attract and retain 
students interested in using and developing Earth observations. Taken 
together, these developments jeopardize U.S. leadership in both Earth 
science and Earth observations, and they undermine the vitality of the 
government-university-private sector partnership that has made so many 
contributions to society.
    Thank you for the opportunity to appear before you today. I am 
prepared to answer any questions that you may have.

    Chairman Boehlert. Thank you, Dr. Moore.
    Dr. Killeen.

STATEMENT OF DR. TIMOTHY L. KILLEEN, DIRECTOR, NATIONAL CENTER 
                    FOR ATMOSPHERIC RESEARCH

    Dr. Killeen. Good morning.
    I thank Chairman Boehlert, Ranking Member Gordon, and the 
other Members of the Committee for the opportunity to speak 
with you today about NASA's role in the Earth sciences.
    My name is Tim Killeen. I am the Director of the National 
Center for Atmospheric Research, or NCAR, which is sponsored by 
the National Science Foundation, and the President-Elect of the 
American Geophysical Union.
    I am a space scientist who has built hardware for NASA in 
the past and a former professor at the University of Michigan 
where I taught Earth system sciences for many years.
    I would like to make three simple points today.
    First, NASA plays a crucial role in the country's vibrant 
Earth sciences program. Decisions about NASA priorities and 
funding on Earth science can accelerate or impede progress in 
this vitally important field.
    Second, rapid advances in NASA Earth observing 
capabilities, when coupled with the acceleration of modeling 
and information technologies, have positioned us on the brink 
of an extraordinary new era in Earth science research, one in 
which we can quantitatively understand and predict the Earth as 
a system with tremendous societal and economic benefits.
    Third, the importance of Earth science and the central role 
of NASA argue for careful, thorough, and deliberative 
assessment to inform program planning, especially when major 
changes are being considered. In my opinion, the current pace 
of budgetary and program change at NASA is inconsistent with 
such an approach and could result in irrevocable damage to 
programs and scientific teams that have taken decades and 
billions of tax dollars to build.
    If I could have the first slide, please.
    It is clear after many years of pioneering satellite 
observations that Earth is a system of tightly coupled parts 
that interact in complex ways to produce the whole. For me 
personally, this ``blue marble'' photograph taken over 30 years 
ago by Apollo 17 astronauts on the way to the Moon symbolizes 
this complex system. It has become a societal icon.
    The study of such interactions has, in fact, become known 
as Earth system science and has led to numerous insights about 
how the Earth functions and how it is evolving and changing 
over time.
    To understand, for example, how the atmosphere supports and 
protects life, one must appreciate the complex and tightly-
coupled circulation dynamics, chemistry, interactions with the 
oceans, with ice, with biosphere and land surface, all driven 
by solar radiation. And the natural system that we live on--
live in is susceptible to changes due to human activity, 
creating still more complexity and variability. We must strive 
to understand and predict such variability in order to 
safeguard and manage human societies.
    Earth system science, informed by comprehensive and 
accurate ground- and space-based observations, is the tool kit 
for this.
    Let me provide you with a single example of what I am 
talking about.
    Just last week, President Bush mentioned proposed rules to 
limit air pollution from power plants.
    The next slide, please.
    These animations were the first NASA-produced global 
observations of air pollution moving around the globe. Sources 
of carbon monoxide seen here include industrial processes. See, 
for example, the source regions in the Pacific Rim, and fires, 
look at Amazonia. This global-scale data from space, thanks to 
NASA's commitment to research and innovation, has helped 
transform our understanding of the relationship of pollution 
and air quality. We now know that pollution is not solely, or 
even primarily, a local or regional problem. California's air 
quality, for example, is clearly influenced by industrial 
activity in Asia.
    NASA Earth observation capabilities, such as these, thank 
you, coupled with the Agency's strong support for modeling and 
scientific research and analysis, have been essential to the 
advancement of Earth system science. It is very important to 
maintain this balance within the NASA program both because 
research and analysis is the process by which useful 
information is derived from remote sensing systems and because 
university-based research activities produce and nurture the 
human capital that provides a foundation for the entire space 
program.
    In this slide, the effect of funding reaches far beyond the 
year in which they occur.
    Advanced Earth observations and modeling, I assert, will 
lead directly to major societal benefits to the country, 
including improved national security, weather forecasts and 
warnings, climate outlooks, management of natural resources, 
including water, agriculture, and energy, and mitigation of 
natural disasters, such as droughts, floods, landslides, and 
volcanic eruptions.
    I fully understand that NASA faces many difficult choices 
arising from pursuit of ambitious goals in a period of national 
budget constraints. However, I believe it is important to 
proceed carefully when making decisions regarding key national 
assets and programs such as these. Understanding the complex, 
changing planet upon which we live, how it supports life, and 
how human activities will affect its ability to support life 
into the future is one of the greatest intellectual and 
practical challenges facing humanity.
    I urge the Members of the Committee to do all that is 
possible to protect and help to manage, in a thoughtful and 
strategic manner, the critically valuable scientific 
infrastructure and human capital that are unique to the NASA 
Earth Science program.
    And I thank the Chairman and the Ranking Member, in 
particular, for the opening comments.
    [The prepared statement of Dr. Killeen follows:]

                Prepared Statement of Timothy L. Killeen

    I thank Chairman Boehlert, Ranking Member Gordon, and the other 
Members of the Committee for the opportunity to speak with you today on 
NASA's role in the Earth Sciences. My name is Tim Killeen, and I am the 
Director of the National Center for Atmospheric Research (NCAR), which 
is sponsored by the National Science Foundation. I am also the 
President-Elect of the American Geophysical Union (AGU). My academic 
background is as an experimental space scientist who has participated 
in several NASA space science programs and a former professor at the 
University of Michigan, where I taught atmospheric, space, and Earth 
system sciences for many years.
    The topic of this hearing is of tremendous importance to our 
understanding of the planet on which we live. I would like to make 
three fundamental points today, using examples of past and future 
contributions by NASA to the study of Earth:

        <bullet>  First, NASA plays a crucial role in this country's 
        vibrant Earth sciences program. NASA is the dominant federal 
        funding agency for U.S. scientists and engineers who address 
        fundamental questions about our planet, provide practical 
        knowledge about the way the Earth functions, and reveal how 
        human activities affect the environment upon which all life 
        depends. NASA funding for Earth science provides the 
        intellectual capital and scientific infrastructure to produce 
        work that is not just intellectually exciting but critical to 
        human existence.

        <bullet>  Second, rapid advances in NASA Earth observing 
        capabilities, coupled with revolutionary advances in 
        information technology, have positioned us for an extraordinary 
        new era in Earth science research--one in which we can 
        quantitatively understand and predict the Earth as a system, 
        with the temporal and spatial fidelity needed by decision-
        makers at many levels of our society: local, regional, and 
        global. This will lead directly to major societal benefits 
        including:

                  improved national security

                  better weather forecasts and warnings

                  more targeted climate outlooks

                  better management of natural resources including 
                water, agriculture, and energy

                  more effective mitigation of natural disasters such 
                as drought, floods, landslides, and volcanic eruptions.

        <bullet>  Third, the importance of Earth science and the 
        central role of NASA in this field argue for careful, thorough, 
        and deliberative assessment to inform program planning, 
        especially when major changes are being considered. The current 
        pace of budgetary and program change in NASA is inconsistent 
        with such an approach and could result in irrevocable damage to 
        programs and scientific teams that have taken decades and 
        billions of tax dollars to build.

    I fully understand that NASA faces many difficult choices arising 
from the pursuit of ambitious goals in a period of national budget 
constraints. However, I believe it important to proceed carefully when 
making decisions regarding important national assets and programs such 
as those represented within the NASA Earth Science effort.

A. The Importance of Earth Science and NASA's Role

    It is clear after decades of pioneering satellite observations that 
Earth is a system of tightly coupled parts that interact in complex 
ways to produce the whole. The study of such interactions has become 
known as Earth system science, and has led to numerous insights about 
how the Earth functions and how it is evolving and changing over time. 
To understand how the atmosphere supports and protects life, for 
example, one must appreciate the complex and tightly coupled 
circulation dynamics, chemistry, interactions with the oceans, ice, 
biosphere, and land surface: all driven by solar radiation. And today, 
the natural system is clearly susceptible to changes due to human 
activity, creating still more complexity and variability over many 
scales of time and space. In any foreseeable future, we will have to 
understand this ``system of systems'' in order to help create, 
maintain, safeguard, and guide human societies. Earth system science, 
based on comprehensive and accurate ground- and space-based 
observations, is the toolkit that enables such investigation. 
Furthermore, the manner in which we explore other worlds will be 
informed by the understanding of our own.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For me personally, this ``blue marble'' photograph taken over 30 
years ago by Apollo 17 astronauts on the way to the Moon perfectly 
represents this complex system. You have all seen this incredible 
picture hundreds of times in advertisements, reports and public media. 
It is perhaps one of the most significant, but under-sung, societal 
icons we possess. At NCAR, it is featured in a wall mural.
    There are many ways to illustrate the importance of NASA's role in 
supporting Earth system science in the U.S. In sheer budgetary terms, 
NASA is the single largest environmental science program supported by 
the Federal Government. The widely respected budget analyses of the 
American Association for the Advancement of Science (AAAS) indicate 
that NASA provided 34 percent of the total funding for the 
environmental sciences in 2004. Much of this spending is devoted to the 
design, development, and operation of scientific instruments, the 
spacecraft that carry them, and the data systems required to process, 
analyze, archive, and distribute data to the scientific community and 
other users. But it should also be remembered that NASA provides 
significant resources to university investigators through the research 
and analysis component of its program.
    In fact, leaving spacecraft and data system costs aside, AAAS 
analyses show that NASA was the third largest provider of competitively 
awarded extramural funding for the university environmental science 
community in 2004, trailing only the National Science Foundation and 
the National Institutes of Health. Even small reductions in the NASA 
program have large effects in the university community. This matters 
both because research and analysis is the process by which useful 
information is derived from remote sensing systems, and because 
university-based research activities provide the human capital 
(undergraduates, graduate students, young researchers and engineers) 
that underpins the entire space program. The effects of funding 
perturbations reach far beyond the year in which they occur. The design 
and development of an Earth observation satellite takes a decade or 
more, and keeping young scientists and engineers engaged in such work 
requires some degree of steady ongoing support.
    Another way of showing NASA's importance to this field is by 
looking at what has been accomplished. The scientific and practical 
results from NASA's Earth science program are much too extensive for me 
to catalogue here, but two examples can illustrate the unique 
contribution that NASA has made to our understanding of the Earth's 
atmosphere and its variations.

Example 1: Ozone depletions

    The first example is probably well known to you. The ozone 
``holes'' in the Antarctic and Arctic were monitored from space by 
various NASA satellite systems, including the Total Ozone Mapping 
Spectrometer (TOMS). The diagnosis of the physical and chemical 
mechanisms responsible for these dangerous changes to our protective 
ozone shield was made possible by the combination of observations, 
modeling, and theory supported by NASA. In fact, it was a NASA high-
altitude aircraft that made the ``smoking gun'' measurements that 
convinced the scientific and policy communities that chlorine compounds 
produced by various human activities were centrally responsible for the 
observed ozone loss. Following these observations, international 
protocols were put in place that are beginning to ameliorate the 
global-scale ozone loss. The TOMS instrument has provided an ongoing 
source of data that permits us to track the level of ozone in the 
stratosphere, the annual opening and closing of the ``ozone hole,'' and 
how this phenomenon is changing over time. These continuing 
measurements and analyses and the effective regulatory response have 
led, among other things, to a reduction in projected deaths from skin 
cancer worldwide.

Example 2: Air Pollution Observations

    Last week, President Bush mentioned proposed rules to limit air 
pollution from coal-fired power plants. Air pollution is clearly an 
important concern. NASA has played a major role in the development of 
new technologies that can monitor the sources and circulation patterns 
of air pollution globally. It is another tremendous story of science 
serving society through innovation. In this case, through an 
international collaboration, NASA deployed a one-of-a-kind instrument 
designed to observe global carbon monoxide and its transport from the 
NASA Terra spacecraft. These animations show the first global 
observations of air pollution. Sources of carbon monoxide include 
industrial processes (see, for example, source regions in the Pacific 
Rim) and fires (for example in Amazonia). These global-scale data from 
space have helped change our understanding of the relationship between 
pollution and air quality--we now know that pollution is not solely or 
even primarily a local or regional problem. California's air quality is 
influenced by industrial activity in Asia, and Europe's air quality is 
influenced by activities here in America.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    From such pioneering work, operational systems can now be designed 
to observe pollution events, the global distribution of chemicals and 
particulate matter in the atmosphere, and the ways in which these 
substances interact and affect the ability of the atmosphere to sustain 
life--such a system will undoubtedly underpin future efforts to 
understand, monitor, and manage air quality globally. Without NASA's 
commitment to innovation in the Earth sciences, it is hard to believe 
that such an incredible new capability would be available today.

B. The Promise of Earth Observations in the Next Decade

    The achievements of the last several decades have laid the 
foundation for an unprecedented era of discovery and innovation in 
Earth system science. Advances in observing technologies have been 
accompanied by vast improvements in computing and data processing. When 
the Earth Observing System satellites were being designed, processing 
and archiving the data was a central challenge. The Terra satellite 
produces about 194 gigabytes of raw data per day, which seemed a 
daunting prospect at the time of its definition. Now laptop memories 
are measured in gigabytes, students can work with remote sensing data 
sets on their laptops, and a large data center like NCAR increases our 
data holdings by about 1,000 gigabytes per day. The next generation of 
high performance computing systems, which will be deployed during the 
next five years or so, will be petascale systems, meaning that they 
will be able to process millions of gigabytes of data. The ongoing 
revolution in information technology has provided us with capabilities 
we could hardly conceive of when the current generation of Earth 
observing satellites was being developed. We have just begun to take 
advantage of the synergies between these technological areas. The U.S., 
through NASA, is uniquely positioned to take advantage of this 
technological opportunity.

Example 3: Weather Forecasting

    Weather forecasting in the Southern Hemisphere has been 
dramatically improved through NASA's contributions, and this experience 
illustrates the power of remote sensing for further global improvements 
in weather prediction. The lack of surface-based data in the Southern 
Hemisphere once meant that predictive skill lagged considerably behind 
that achieved in the Northern Hemisphere. The improvement in the 
accuracy of Southern Hemisphere weather forecasting is well documented 
and almost entirely due to the increased use of remote-sensing data. 
But improvements in the quality of satellite data were not sufficient. 
Improvements in data assimilation--a family of techniques for 
integrating observational results into predictive models--were also 
necessary. The combination has resulted in rapid improvement in 
Southern Hemisphere forecasting, which is now nearly equal to that in 
northern regions. Data assimilation capabilities continue to advance 
rapidly.
    One can now easily conceive of forecast systems that will fuse data 
from satellites, ground-based systems, databases, and models to provide 
predictions with unprecedented detail and accuracy--perhaps reaching 
natural limits of predictability. A new generation of weather forecast 
models with cloud-resolving spatial resolution is coming online, and 
these models show significant promise for improving forecast skills 
across the board. Use of new NASA remote sensing data from upcoming 
missions such as Calipso (Cloud-Aerosol and Infrared Pathfinder 
Satellite) and CloudSat will be essential to fully validate and tune 
these new capabilities which will serve the Nation in providing 
improved hurricane and severe storm prediction, and in the development 
of numerous decision support systems reliant on state-of-the-art 
numerical weather prediction capabilities.

Example 4: Earth System Models

    Data from NASA missions are central to constructing more 
comprehensive and detailed models that will more realistically 
represent the complexity of the Earth system. Cloud observations from 
MODIS (the Moderate Resolution Imaging Spectroradiometer) and 
precipitation measurements from GPM (the Global Precipitation Mission), 
for example, are critical to improving the representation of clouds and 
the water cycle in such models. Observations from MODIS and Landsat are 
fundamental to the development of more sophisticated representation of 
marine and terrestrial ecosystems and atmosphere-land surface 
interactions. The inclusion of this detail will help in the creation of 
true Earth system models that will enable detailed investigation of the 
interactions of Earth system processes and multiple environmental 
stresses within physically consistent simulated systems.
    In general terms, Earth system observations represent the only 
means of validating Earth system model predictions. Our confidence in 
short-term, regional-scale weather predictions is based on how closely 
they match observed regional conditions. Assessing the performance of 
global-scale, longer-term model predictions likewise depends on 
comparing model results with observational records. Scientific 
confidence in the ability of general circulation models to represent 
Earth's climate has been greatly enhanced by comparing model results 
for the last century with the observational records from that period. 
At the same time, the sparse and uneven nature of past observational 
records is an ongoing source of uncertainty in the evaluation of model 
results. The existence of much more comprehensive and consistent global 
measurements from space--such as the data from the NASA Terra, Aqua, 
and Aura satellites--is a giant step forward in this regard, and, if 
maintained, will enable much more rigorous evaluation of model 
performance in the future.
    In summary, Earth system models, with increasing temporal and 
spatial resolutions and validated predictive capabilities, will be used 
by industry and governmental decision-makers across a host of domains 
into the foreseeable future. This knowledge base will drive new 
economies and efficiencies within our society. I believe that 
requirements flowing from the needs and capabilities of sophisticated 
Earth system models will be very useful for NASA in developing 
strategic roadmaps for future missions.

C. The Importance of Careful Planning

    The central role of NASA in supporting Earth system science, the 
demonstrated success and impact of previous and current NASA missions, 
and the promise of continued advances in scientific understanding and 
societal benefits all argue for a careful, analytical approach to major 
modifications in the NASA Earth science program.
    As noted above, the development of space systems is a time-
consuming and difficult process. Today's actions and plans will have 
long-term consequences for our nation's capabilities in this area.
    The link between plans and actions is one of the most important 
points I want to address today. From the outside, the interagency 
planning process seems to be experiencing substantial difficulties in 
maintaining this link. The NASA Earth science program is part of two 
major Presidential initiatives, the Climate Change Science Program 
(CCSP) and the Global Earth Observation System of Systems (GEOSS). With 
regard to the CCSP, it is not apparent that the strategies and plans 
developed through the interagency process are having much impact on 
NASA decision-making. In January 2004, then-Administrator of NASA, Sean 
O'Keefe, called for acceleration of the NASA Glory mission because of 
the direct relevance of the mission to understanding the roles of 
aerosols in the climate system, which is one of the highest-priority 
science questions defined in the CCSP research strategy. NASA is now 
proposing cancellation of the mission. As I have emphasized throughout 
this testimony, the progress of and benefits from Earth system science 
research are contingent upon close coordination between research, 
modeling, and observations. The close coordination of program planning 
among the agencies that support these activities is also a necessity. 
This coordination currently appears to be fragile.
    The effect of significant redirections in NASA and reduction in 
NASA's Earth science effort are equally worrisome in the case of the 
Administration's GEOSS initiative, which is focused on improving the 
international coordination of environmental observing systems. Both 
NASA and NOAA satellite programs are vital to this effort. The science 
community is very supportive of the GEOSS concept and goals. There are 
over 100 space-based remote-sensing systems that are either operating 
or planned by various nations for the next decade. Collaboration among 
space systems, between space- and ground-based systems, and between 
suppliers and users of observational data is critical to avoiding 
duplication of effort and to getting the most out of the investments in 
observing technology. The tragic example of the Indian Ocean Tsunami 
demonstrates the need for such coordination. The tsunami was detected 
and observed before hitting land, but the absence of effective 
communication links prevented warnings from reaching those who needed 
them in time. A functioning GEOSS could lead to major improvements in 
the rapid availability of data and warnings, and the U.S. is right to 
make development of such a system a priority. But U.S. credibility and 
leadership of this initiative will be called into question if our 
nation is unable or unwilling to coordinate and maintain the U.S. 
programs that make up the core of our proposed contribution.

D. Answers to Questions Posed by the Committee

    My testimony to this point has outlined my views on a series of key 
issues for the NASA Earth science program. Much of the text found above 
is relevant to consideration of the specific questions posed by the 
Committee in its letter of invitation. In this section, I provide more 
direct answers to these questions to the extent possible and 
appropriate.

How should NASA prioritize currently planned and future missions? What 
criteria should NASA use in doing so?

    I believe that NASA should work with the scientific and technical 
community and its partner agencies to define a NASA Earth science plan 
that is fully compatible with the overall CCSP and GEOSS science 
strategies. In my view, the interaction with the scientific and 
technical community should include both input from and review by the 
National Research Council (NRC) and direct interaction with the strong 
national community of Earth science investigators and the aerospace 
industry who are very familiar with NASA capabilities and developing 
technological opportunities. Competitive peer review processes should 
be used appropriately in assessing the merit of competing approaches 
and in key decision-making. I believe NASA should also find a means of 
involving users and potential users of NASA-generated data in this 
process, perhaps through public comment periods or a series of 
workshops. Sufficient time should be allotted to this process for a 
careful and deliberative evaluation of options. This science plan 
should then guide the process of setting mission priorities.
    Defining criteria to use in comparing and deciding upon potential 
missions would be an important part of this planning exercise. I would 
recommend consideration of a set of criteria that include:

        <bullet>  compatibility with science priorities in the CCSP and 
        GEOSS science plans

        <bullet>  potential scientific return from mission

        <bullet>  technological risk

        <bullet>  direct and indirect societal benefits

        <bullet>  cost.

    I believe that the decadal planning activity underway at the NRC in 
response to a request from NASA and NOAA is a valuable step in this 
process.

What are the highest priority unaddressed or unanswered questions in 
Earth science observations from space?

    I believe this question is most appropriately addressed through the 
community process suggested above. There are many important Earth 
science questions, and prioritizing among them is best done in a 
deliberative and transparent process that involves extensive input from 
and discussion by the science community. I would personally cite soil 
moisture, three-dimensional cloud characteristics, global vector 
tropospheric winds, pollutant characteristics and transport, carbon 
fluxes, and aerosol distributions as all high priority measurements to 
make on a global scale.

What have been the most important contributions to society that have 
come from NASA Earth sciences over the last decade (or two)?

    NASA Earth science programs have played a key role in developing 
our understanding of the Earth as a coupled system of inter-related 
parts, and in the identification and documentation of a series of 
global-scale changes in the Earth's environment, including ozone 
depletion, land use and land cover change, loss of biodiversity, and 
climate change. Other examples of societal contributions include 
improved weather forecasting, improved understanding of the large-scale 
climate variations, such as the El Nino-Southern Oscillation and the 
North Atlantic Oscillation that alter seasonal patterns of rainfall, 
and improved understanding of the status of and changes in marine and 
terrestrial ecosystems that contributes to more effective management of 
natural resources.

What future benefits to the Nation (societal applications) are possible 
that NASA Earth sciences could provide? What gaps in our knowledge must 
we fill before those future benefits are possible?

    In a broad sense, NASA Earth science activities are part of 
developing a global Earth information system that can provide ongoing 
and accurate information about the status of and changes in the 
atmosphere, oceans, and marine and terrestrial ecosystems that sustain 
life, including the impact of human activities. The continued 
development of observation systems, sophisticated Earth system models, 
data assimilation methods, and information technologies holds the 
promise of much improved predictions of weather and climate variations 
and much more effective prediction and warning of natural hazards. Much 
has already been accomplished to lay the groundwork for such a system, 
but many important questions remain. Some of the most important have to 
do with the functioning and human alteration of the Earth's carbon, 
nitrogen, and water cycles, and how these cycles interact; the regional 
manifestation of global scale climate change; and the reactions of 
ecosystems to simultaneous multiple stresses.

Summary

    In closing, I hope that my short list of examples suffices to 
emphasize the fact that it is not possible to conceive of a vigorous 
and healthy Earth system science effort in the United States without a 
strong ongoing NASA program. The scientific community is in the initial 
stages of a knowledge revolution enabled by the vast increases in the 
capabilities of, and synergy between, observation and information 
technologies. The advances in Earth system science that are being 
enabled by these capabilities are critical for understanding the Earth 
system and how it is changing. Such understanding is an important 
contribution to natural resource management, natural-hazard mitigation, 
and sustainable economic growth. I understand that NASA faces many 
difficult choices arising from pursuit of ambitious goals in a period 
of budget constraints, but I urge you to take account of the unique and 
central role of NASA observing programs in our nation's climate, 
weather, and Earth system science efforts as you oversee development of 
the plans and strategies that will guide NASA in the coming decade and 
beyond.

                    Biography for Timothy L. Killeen

Director, National Center for Atmospheric Research; President-Elect, 
        American Geophysical Union

Education

B.S. Honors 1st Class (Physics), University College London, 1972

Ph.D. (Atomic and Molecular Physics), University College London, 1975

Professional Experience

1972-1975  Research Student, University College London

1975-1978  Research Assistant, University College London

1978-1979  Postdoctoral Scholar, University of Michigan

1979-1984  Assistant Research Scientist, University of Michigan

1984-1987  Associate Research Scientist, University of Michigan

1988-1992  Affiliate Scientist, National Center for Atmospheric 
        Research

1987-1990   Associate Professor of Atmospheric, Oceanic and Space 
        Sciences, University of Michigan

1992  Visiting Senior Scientist, NASA Goddard Space Flight Center

1990-2000   Professor of Atmospheric, Oceanic and Space Sciences, 
        University of Michigan

1993-1998  Director, Space Physics Research Laboratory, University of 
        Michigan

1997-2000  Director, Global Change Laboratory, University of Michigan

1997-2000  Associate Vice President for Research, University of 
        Michigan

2000-Present   Director, National Center for Atmospheric Research and 
        Senior Scientist, High Altitude Observatory, National Center 
        for Atmospheric Research

Honors and Awards

NASA Achievement Award, Dynamics Explorer Spacecraft, NASA, 1985

Excellence in Research Award, University of Michigan, College of 
        Engineering, 1993

Excellence in Teaching Award, University of Michigan, Department of 
        Atmospheric, Oceanic and Space Sciences, 1995

NASA Achievement Award, Polar Spacecraft, NASA, 1998

Excellence in Teaching Award, University of Michigan, College of 
        Engineering, 2000

AMS Fellow, 2005

Professional Affiliations

American Geophysical Union, President-Elect

American Meteorological Society, Fellow

American Association for the Advancement of Science

Professional Activities

Co-Chair, NASA Sun-Solar Systems Connections Roadmap, 2005

Principal Investigator, NASA TIMED Doppler Interferometer Investigation

    Chairman Boehlert. Thank you very much, Dr. Killeen.
    Dr. Solomon.

   STATEMENT OF DR. SEAN C. SOLOMON, DIRECTOR, DEPARTMENT OF 
   TERRESTRIAL MAGNETISM, CARNEGIE INSTITUTION OF WASHINGTON

    Dr. Solomon. Thank you, Chairman Boehlert, Ranking Member 
Gordon, and Committee Members. I am very pleased to be with you 
today.
    I am both an Earth scientist and a planetary scientist. I 
am a former President of the American Geophysical Union, and I 
am a principal investigator for one of NASA's missions to 
explore another planet.
    Five years ago, I was asked by Ghassem Asrar, in this 
audience, to chair a working group to guide the science 
community in the development of a long-term vision for solid 
Earth science at NASA. And over two years, our group 
deliberated. We gathered advice, and in 2002, we published our 
recommendations. That effort of ours served as a microcosm for 
the Earth science decadal survey indeed for the challenge NASA 
now faces as it integrates top priorities across all of its 
programs.
    Today, I would like to summarize the criteria that our 
group used to prepare that strategy, the most important 
questions we felt should guide NASA's programs and solid Earth 
science and most critical mission opportunities that our group 
recommended NASA pursue.
    The surface of the Earth, of course, is where we live. 
Though largely solid, the interior of the Earth is far from 
static. The Earth's internal motions and interactions of the 
solid Earth with the atmosphere and the hydrosphere and the 
oceans continually change our planet's surface. And some of 
those changes occur very slowly, but some are, indeed, 
catastrophic: earthquakes, volcanic eruptions, landslides, 
floods, tsunamis, and other natural disasters.
    If I could have the first view graph.
    We understand the workings of the Earth, particularly the 
solid Earth, are linked through the notion of plate tectonics 
that the outer layer of the Earth is divided into rigid plates 
that are in relative motion and interact primarily at their 
boundaries, where earthquakes, volcanoes, and mountains are 
concentrated. We have such boundaries in California and Oregon 
and Washington and Alaska.
    NASA's critical contribution to plate tectonics was to 
provide the first direct measurements of the motions of the 
plates through space geodata techniques. Research frontiers now 
are focused on exactly what is happening at the plate 
boundaries, what are the governing processes, and how does the 
solid Earth interact with the rest of the Earth system.
    Our working group developed four criteria to select among 
future programs. A question to be addressed by NASA's programs 
should be of fundamental scientific importance, criteria number 
one. It should have a strong implication for society, number 
two. It should be amenable to substantial progress through new 
observations, number three. And there should be unique 
contributions that NASA could provide.
    With these criteria, the working group identified six grand 
challenges, questions of highest priority, in the area of fault 
zones, landform change, sea level change, volcanic activity, 
internal dynamics, and the Earth's dynamic magnetic field.
    Next slide, please.
    In the near-term, the highest priority new mission that our 
group recommended for solid Earth science is a satellite 
dedicated to Interferometric Synthetic Aperture Radar, also 
known as InSAR. Such a mission, depicted in this animation 
flying over southern California, is technically feasible and 
addresses five of the six grand challenges for the solid Earth, 
and it is a critical element of the EarthScope project in 
partnership with the National Science Foundation and the U.S. 
Geological Survey. The mission will open the globe to new 
measurements of surface movements in earthquake zones, such as 
depicted here.
    And on the next slide.
    It would provide critical observations as well as other 
areas, such as active volcanic centers. What you see are four 
volcanic areas in South America thought to be inactive until 
InSAR observations showed that they were, in fact, inflating, 
as you see here in these Interferograms. But these volcanoes 
could have been in Oregon or Washington or Alaska, for that 
matter. InSAR, as well, can address that movements of the 
Earth's major ice sheets, coastal zones, areas susceptible to 
flood or landslides, and can reveal the underlying processes as 
well as provide a basis for hazard mitigation and response.
    Of course, the recommendations of our working group are for 
the solid Earth component of the Earth system, and those must 
be integrated into the broader spectrum of NASA programs for 
all of Earth sciences.
    But it is important, as I think this committee recognizes 
on the basis of the opening remarks, that our nation's space 
agency, as it carries out its many missions of exploration, 
does not lose sight of the special role that it can play in 
unraveling the mysteries of our own planet.
    For the foreseeable future, ladies and gentlemen, the Earth 
is our only home. We owe it to our children and theirs to 
understand how to live here to the betterment of all.
    Thank you.
    [The prepared statement of Dr. Solomon follows:]

                 Prepared Statement of Sean C. Solomon

    Thank you, Mr. Chairman, Ranking Minority Member, and Members of 
the House Science Committee. I am pleased to join you today to comment 
on NASA's programs in Earth science.
    By way of introduction, I am both an Earth scientist and a 
planetary scientist. I am the Director of the Department of Terrestrial 
Magnetism at the Carnegie Institution of Washington, a former President 
of the American Geophysical Union--with more than 40,000 members the 
world's largest professional society in the Earth sciences, and the 
Principal Investigator for one of NASA's missions in solar system 
exploration.
    First, let me begin by affirming my conviction that NASA has a 
continuing, strong role to play in the study of our planet. As the lead 
federal agency for technical innovation in space, with a clear charter 
for advancing basic knowledge of how this planet operates and for 
applying that knowledge to address problems of substantial societal 
importance, NASA can contribute to an understanding of the Earth and 
its workings in unique and fundamental ways. As this committee has 
expressed on many occasions, NASA's responsibilities in the Earth 
sciences are worthy of sustained national support.
    Second, I applaud the Earth science community for undertaking a 
decadal survey of Earth science and applications from space. This 
survey, co-chaired by Dr. Moore and operated under the aegis of the 
National Academy of Sciences and the National Research Council, is long 
overdue. Like the decadal surveys that the astronomy community has 
produced for the last four decades and the decadal survey that the 
solar system exploration community published in 2002, this decadal 
survey for Earth science and applications from space will provide a 
rationale for the most important missions and programs that NASA should 
undertake in the coming decade, established on the basis of sufficient 
community input and set out with sufficient clarity so that the program 
is seen by all as both achievable in scope and compelling in vision.
    In 2000 NASA's Associate Administrator for what was then the Office 
of Earth Science asked me to chair a working group ``to guide the 
science community in the development of a recommended long-term vision 
and strategy from solid-Earth science at NASA.'' Over a period of two 
years that Solid Earth Science Working Group gathered advice from the 
community, and in 2002 we published our recommendations for a NASA 
program in solid-Earth science and applications for the coming quarter 
century. That effort served as a microcosm for the ongoing Earth 
science decadal survey and indeed for the challenge that NASA now faces 
as it integrates the most important objectives across all of its 
programs. Today I'd like to summarize the criteria that our working 
group used to prepare its strategy, the most important questions that 
our group felt should guide NASA's programs, and the most critical 
mission opportunities that our group recommended NASA should pursue to 
address those questions.
    The surface of the Earth is where we live. Though largely solid, 
the interior of the Earth is far from static. The Earth's internal 
motions--and interactions of the solid Earth with the oceans, 
hydrosphere, and atmosphere--continually change the surface of our 
planet. Some of those changes progress at rates that seem nearly 
imperceptible over human lifetimes, but others concentrate 
catastrophically during earthquakes, volcanic eruptions, landslides, 
floods, tsunamis, and other natural disasters. Space offers a 
particularly special vantage point from which to study these phenomena, 
because of the broad, synoptic view and the global coverage afforded. 
Many of the workings of the solid Earth are linked by plate tectonics--
the theory that the Earth's outer layer is divided into nearly rigid 
plates that are in relative motion and interact primarily at their 
boundaries. NASA's solid Earth program made a critical contribution to 
this theory, when space geodetic techniques provided the first direct 
measurements of plate motions previously inferred only from the 
geological record. The frontier research areas now are in understanding 
the details of deformation and volcanism near plate boundaries and the 
interaction of the solid Earth with the rest of the Earth system.
    The Solid Earth Science Working Group utilized four criteria for 
selecting the most important questions in solid Earth science that 
could be addressed by NASA. First, the question should be of 
fundamental scientific importance. Second, the question should have 
strong implications for society. Third, the question should be amenable 
to substantial progress through new observations. And fourth, there 
should be unique contributions that NASA can make toward providing 
answers. These are quite general criteria that can be applied equally 
well across other NASA programs.
    On the basis of these criteria, the working group identified six 
grand challenges, questions of the highest priority for NASA's solid 
Earth science program over the next 25 years:

        1.  What is the nature of deformation at plate boundaries, and 
        what are the implications for earthquake hazards?

        2.  How do tectonics and climate interact to shape the Earth's 
        surface and create natural hazards?

        3.  What are the interactions among ice masses, oceans, and the 
        solid Earth and their implications for sea-level change?

        4.  How do magmatic systems evolve, and under what conditions 
        do volcanoes erupt?

        5.  What are the dynamics of the mantle and crust, and how does 
        the Earth's surface respond?

        6.  What are the dynamics of the Earth's magnetic field and its 
        interactions with the Earth system?

    Addressing these challenges involves leveraging partnerships with 
other NASA programs, with other federal agencies, and with 
international space agencies. Nonetheless, there are specific 
technological capabilities and orbital opportunities that only NASA can 
provide. The Solid Earth Science Working Group identified several 
observational strategies--each combining spaceborne and ground 
measurements with technological advances--where NASA should provide 
leadership: surface deformation, high-resolution measurements of 
topography and topographic change, variability in Earth's gravity and 
magnetic fields, imaging spectroscopy of Earth's changing surface, 
space geodetic networks and the International Terrestrial Reference 
Frame, and promising new techniques.
    In the next several years, the highest-priority new mission for the 
solid Earth sciences is a satellite dedicated to Interferometric 
Synthetic Aperture Radar (InSAR). Such a mission is technically 
feasible today and addresses five of the six grand scientific 
challenges for the solid Earth. Operating at a frequency that can 
penetrate vegetative cover (L-band) and that has weekly access to any 
land area, such an InSAR system could measure surface displacements at 
the one mm/yr level over 50 km horizontal extents. InSAR satellites 
flown by European and Canadian space agencies have revealed the 
enormous potential of such a technology, but at radar frequencies and 
repeat viewing rates that are not optimum for understanding solid Earth 
phenomena. The recommended mission would open the globe to new 
observations of ongoing surface movements in major earthquake zones, at 
active volcanic centers, on the Earth's major ice sheets, along coastal 
zones, and in areas susceptible to floods and landslides. Such 
observations are likely to reveal diagnostics of the governing 
phenomena and can provide a regionally complete basis for disaster 
mitigation and response.
    A NASA-led InSAR satellite is a critical element of the multi-
agency EarthScope project, whose other elements--supported by the 
National Science Foundation--include seismometers, GPS sensors, 
strainmeters and a San Andreas Fault drilling project that together 
will address the nature of deformation within western North America as 
well as the structure and governing geological processes of the North 
American continent. A NASA InSAR satellite has also been requested by 
the U.S. Geological Survey to assist that agency with their ongoing 
assessment of seismic hazards and their mitigation within the United 
States.
    The recommendations of the Solid Earth Science Working Group, of 
course, cover only one component of NASA's Earth science programs. The 
NRC decadal survey and NASA's own roadmapping activities, both 
currently underway, promise to provide a broader framework of 
recommended programs within which the component addressing the solid 
Earth and its interactions with the other elements of the Earth system 
will hold a natural place.
    NASA is an agency that is carrying out a truly impressive range of 
human and robotic missions designed to explore our space environment, 
our planetary neighbors, and the entire cosmos. It is important as NASA 
carries out its many missions of exploration that we do not lose sight 
of the special role that only NASA can play in unraveling the mysteries 
of our own planet. For the foreseeable future, Earth is our only home, 
and we owe it to our children and theirs to understand how to live here 
to the betterment of all.

                     Biography for Sean C. Solomon

    Sean C. Solomon is the Director of the Department of Terrestrial 
Magnetism of the Carnegie Institution of Washington, a position he has 
held since 1992. He received his B.S. from Caltech in 1966 and his 
Ph.D. from MIT in 1971, after which he was a Professor of Geophysics at 
MIT for more than 20 years.
    A seismologist, marine geophysicist, and planetary scientist, 
Solomon has worked on a wide range of problems in earthquake 
seismology, geodynamics, and the nature and evolution of the 
terrestrial planets. He served on science teams for NASA's Magellan 
mission to Venus and Mars Global Surveyor mission, and he is the 
Principal Investigator for NASA's MESSENGER mission now en route to 
orbit the planet Mercury.
    From 2000 to 2002 Solomon chaired NASA's Solid Earth Science 
Working Group, which developed a long-term vision and strategy for 
solid-Earth science at NASA. Solomon earlier served on NASA's Space and 
Earth Science Advisory Committee, Solar System Exploration 
Subcommittee, and Earth System Science and Applications Advisory 
Committee. He also sat on the National Research Council's Space Science 
Board and chaired its Committee on Earth Sciences. He currently serves 
on NASA's Strategic Roadmap Committee for Earth Science and 
Applications from Space.
    Solomon is a member of the National Academy of Sciences, a Fellow 
of the American Academy of Arts and Sciences, and a past President of 
the American Geophysical Union. A former Alfred P. Sloan Fellow and 
John Simon Guggenheim Fellow, he received the Arthur L. Day Prize from 
the National Academy of Sciences, the G.K. Gilbert Award from the 
Geological Society of America, the Harry H. Hess Medal from the 
American Geophysical Union, and NASA's Public Service Medal.

    Chairman Boehlert. Thank you very much, Dr. Solomon.
    Dr. McNutt.

STATEMENT OF DR. MARCIA McNUTT, PRESIDENT AND CEO, MONTEREY BAY 
                  AQUARIUM RESEARCH INSTITUTE

    Dr. McNutt. Chairman Boehlert, Mr. Gordon, and 
distinguished Members of the Committee, thank you for this 
opportunity.
    In my testimony today, I have chosen the tactic of simply 
answering your questions.
    So let me go immediately to the first one, which is 
prioritizing future missions.
    Chairman Boehlert. I might add that that is a novel 
approach.
    Dr. McNutt. My own institution, the Monterey Bay Aquarium 
Research Institution, was founded and privately funded by David 
Packard to be a sort of NASA for the oceans, albeit on a much 
smaller scale. And like NASA, we constantly struggle at my 
institution to balance our various missions: exploration, 
societally-relevant research, technology development, and 
maintenance of time series.
    In my written testimony, I have described how we manage to 
balance that diverse portfolio and many of the lessons we have 
learned along the way in doing so. I regret I don't have time 
to tell you all about that today. You can read about it, but 
frankly, it is not rocket science.
    But let me pass on just one piece of advice from that 
portion of my response.
    I have heard some argue that NASA could prioritize better 
if it handed out wholesale areas of NASA research, such as its 
Earth sciences program, to another civilian agency in order to 
focus its efforts. Severed from the root of the technology 
program that feeds it, innovation and the program would 
eventually wither, and it would die.
    Okay. Next question.
    You asked me to list some of NASA's greatest achievements 
in the Earth sciences from the past decade.
    Certainly one of the most unexpected surprises was the 
contribution of satellite altimetry to so many areas of ocean 
sciences, such as measuring sea level, waves, currents, tides, 
air moisture, and for mapping the topography of the sea floor 
using its gravitational effect on the shape of the ocean's 
surface.
    In my first figure, I show a dramatic comparison of our 
knowledge of the ocean floor topography in the South Pacific 
before, on top, and after the availability of satellite 
altimetry data.
    I recall 14 years ago serving as Chief Scientist on an 
oceanographic expedition to the South Pacific. One night, we 
were steaming full-speed ahead when I called to the bridge from 
the main lab to say that based on my processing of the 
satellite altimetry data, we were headed straight towards a 
major undersea volcano with a very shallow summit. The mate on 
watch responded that nothing was marked on the navigational 
charts, but they agreed to slow down anyway. Less than 10 
minutes later, I heard a seaman yell out in the moonlight: 
``Breakers at 100 yards and closing.''
    Second--next slide.
    I will mention a different NASA development, and that is 
the instruments to measure ocean color to monitor the 
concentration of microscopic plants in the upper ocean. These 
small plants, called phytoplankton, are responsible for 
producing half of the oxygen we breathe, and they are the 
fundamental basis for nearly all of the oceanic food chain. 
This is an image of ocean color around the island of Tasmania, 
south of Australia, and it was acquired by NASA's SeaWiFS 
satellite in about one minute. It would have taken 10 years of 
nonstop operations of an oceanographic ship to acquire the same 
amount of information, and all of the dynamic details, such as 
the effect of eddies and currents on the distributions, would 
have been smeared out beyond recognition.
    These satellite data have shown the changing productivity 
of the oceans in response to El Nino, reduction in polar ice 
extent, intensity of seasonal upwelling, and purposeful iron 
fertilization of the oceans.
    Such monitoring of the biological changes in the ocean help 
us to understand the consequences of both natural and manmade 
changes to the physical and chemical environment in which these 
plants survive.
    You also asked me to list the highest priority unanswered 
questions in Earth sciences that can be addressed from space.
    If I could have the next slide.
    Within the next decade, reconstruction of past climate 
records from sparse data have demonstrated that the Pacific 
Ocean temperature and productivity of fisheries all change in 
lock step to a thermal rhythm that waxes and wanes over decadal 
time periods. This temperature variation, which is called the 
Pacific Decadal Oscillation, or PDO, involves temperature 
changes of one to two degrees. That is it. The figure shows 
that the ``cool'' phase of the PDO ruled the Pacific in the 
early 1960s and it corresponded to the crash in the sardine 
fishery in my own hometown, Monterey, California.
    Landings of sardines fell from 3.6 million metric tons in 
the 1930s to less than 10,000 metric tons by 1965. During that 
same time, when the sardine fishery was crashing, the anchovy 
fishery offshore Peru became the largest single-species fishery 
in the world. In the mid-1970s, the regime shifted, and the 
Peruvian anchovy fishery, in turn, crashed.
    The most recent regime shift, which coincided with the 
1997-1998 El Nino, was captured by a number of satellite 
sensors. Seal level, as measured by altimetry, ocean 
temperature, and ocean plant production, as measured by ocean 
colored, all shifted together back into the ``cool,'' or the 
anchovy-rich phase.
    So what forces caused the shift? What rhythms govern the 
time scale? We don't know. But much is at stake. The numbers of 
seabirds in Hawaii, Monarch butterflies in Mexico, and salmon 
in Oregon all appear to vary at the pace of the PDO.
    We have only captured one shift with high-quality satellite 
records, but the hope is that with patience, we will understand 
how the system works and hopefully avoid another fisheries 
crash, like the one that devastated Monterey.
    In your last question, you asked me about the future of 
NASA's contributions to Earth sciences.
    Well, there are exciting couplings emerging among the 
physical, chemical, and biological aspects of the ocean, that 
point to a planetary metabolism that is best observed and most 
efficiently monitored from space. I have no doubt that upon 
further investigation, we will find that many changes in the 
land-based biosphere are also marching in step to that rhythm.
    Understanding exactly what will happen before it happens is 
clearly a powerful position to be in, because it enables to 
take actions that benefit from the regime shift as opposed to 
remaining in those that suffer from it.
    Thank you very much for this opportunity to speak to you on 
these critically important issues.
    [The prepared statement of Dr. McNutt follows:]

                  Prepared Statement of Marcia McNutt

Chairman Boehlert, Ranking Minority Member, and Members of the 
Committee:

    Thank you for this opportunity to speak to you this morning on the 
issue of NASA's past, present, and future outlook for making 
contributions to the Nation and the world in the area of Earth 
Sciences. My name is Marcia McNutt, and I currently serve as the 
President and CEO of the Monterey Bay Aquarium Research Institute, 
better known as MBARI. I am a Past President of the American 
Geophysical Union, the largest professional society serving the 
geosciences. It has been more than a decade since my own research was 
funded by NASA, and NASA contributes only one percent of my 
institution's annual operating budget. I mention these facts merely to 
make the point that I have no financial incentive to provide you with 
anything other than my best advice.

Prioritizing Missions

    First, you ask about prioritizing future missions. My own 
institution, MBARI, was founded and privately funded by David Packard 
to be a ``NASA for the oceans,'' albeit on a much smaller scale. Like 
NASA, we constantly struggle at MBARI to balance our various missions. 
We must continue to explore the ocean in new dimensions while still 
conducting societally-relevant ocean research. We must apply emerging 
technologies to next-generation ocean systems without abandoning 
critical long-term time series.
    There is no magic formula for making these hard choices. Tackling 
societally-relevant problems with near-term payback justifies the 
investment to today's taxpayers, while exploration lays the foundation 
for the societally-relevant research of the future and entrains the 
next generation. NASA is the only civilian agency that has the required 
capacity, tradition, and track record to vigorously pursue the 
technology development that will fuel tomorrow's discoveries. But at 
the same time, NASA has an obligation to maintain certain critical time 
series as long as the societal relevance is high, the rate of 
discoveries continues unabated, and the incremental cost is low as 
compared with the cumulative prior investment. Unlike most S&T 
products, the value of time series only increases with age since 
inception. I have heard some argue that NASA could hand off wholesale 
areas of NASA research, such as the Earth sciences program, to another 
civilian agency in order to focus its efforts. Severed from the root of 
the technology program that feeds it, innovation in the program would 
eventually wither and die.
    So how do we at MBARI maintain a balanced portfolio given these 
different, but essential missions? First, we determine what rough 
percentage of resources should be reserved for each mission area, and 
enforce the quota vigorously. The quotas are set so as to maintain 
critical mass and set a reasonable level of expectation in each program 
area such that the associated researchers can make long-term plans. If 
our overall budget grows, everything grows proportionally. If the 
overall budget shrinks, everything shrinks proportionally. Within those 
mission areas, projects compete with other like projects, but it would 
be unfair to pit exploration, for example, versus societally-relevant 
research because different criteria need to be used to measure their 
respective values.
    Like NASA, my MBARI also undertakes high risk, long-lead time 
projects. Through experience, we have learned a few important lessons:

        1.  Protect the rest of the research portfolio from being 
        consumed by the large, long-term project by respecting the 
        percentage quotas. It is the rest of the research portfolio 
        that helps to manage risk, retain balance, and nurture the 
        seeds of the next big project.

        2.  Structure the big project so that it provides science 
        return at many incremental steps along the way. We didn't have 
        to discover this for ourselves at MBARI, because the Earth 
        sciences community had already learned this lesson the hard way 
        through the Mohole Project in the 1960s. The initial objective 
        was to drill through the ocean crust into the underlying mantle 
        rocks. The project proved to be so technically challenging and 
        so mired in management missteps that after many years and many 
        wasted millions of dollars it took an act of Congress to kill 
        it. Out of the ashes of the Mohole Project arose the Deep Sea 
        Drilling Project, now known as the Integrated Ocean Drilling 
        Program. The Mohole's successor program had much more modest 
        and achievable goals that kept the scientific community excited 
        and engaged as remarkable discoveries were made in every ocean 
        basin. The seafloor spreading hypothesis was confirmed. Climate 
        records extending back more than 100 million years were 
        recovered. And now, nearly 50 years after the Mohole Project 
        was first conceived, we are finally on the brink of drilling 
        into the oceanic upper mantle!

        3.  If the project is really big, get lots of help. We get help 
        from institutions like Woods Hole and JPL for our biggest 
        projects. The drilling program discussed above involved 23 
        different nations and is, in fact, held up as a model for 
        international scientific cooperation.

        4.  Get realistic cost and schedule estimates for the big 
        project before undertaking it, including an assessment of the 
        value of what will need to fall off your agenda if you pursue 
        it. And then make sure you can afford it. If you have 
        structured the big project for incremental science return (see 
        #2 above), then it won't matter if you don't achieve your goal 
        right away because the discoveries along the way will maintain 
        the project's momentum, keep the research community engaged, 
        and justify the investment.

NASA's Greatest Achievements in the Earth Sciences

    You also asked me to list some of NASA's greatest achievements in 
the Earth Sciences from the past few decades. There are so many--the 
discovery of the ozone hole, the direct measurement of plate tectonic 
drift from space, the detection of post-seismic crustal deformation 
that influences the pattern of future earthquakes using Synthetic 
Aperture Radar, . . .. The list goes on. Knowing that you will be 
hearing from Drs. Solomon and Killeen on the accomplishments in the 
area of solid Earth and atmosphere, respectively, I'll concentrate on 
the oceans.
    Certainly one of the most unexpected surprises was the contribution 
of satellite altimetry to so many areas of ocean sciences. NASA 
pioneered the technology for measuring sea surface height from 800 km 
altitude in space to 10 centimeter accuracy nearly 30 years ago. The 
technique was so successful for measuring sea level, waves, currents, 
tides, and air moisture, and for mapping the topography of seafloor 
using its gravitational effect on the shape of the ocean surface, that 
a number of other agencies both foreign and domestic launched follow-on 
altimeter missions. NASA continues to operate altimeters from space 
today, and each generation improves in its accuracy and scientific 
return.
    Figure 1 shows one dramatic comparison of our knowledge of the 
ocean floor topography before and after the availability of satellite 
altimetry data. I recall 14 years ago serving as chief scientist on an 
oceanographic expedition to the South Pacific. One night we were 
steaming full speed ahead, when I called to the bridge from the main 
lab to say that based on my processing of the satellite altimetry data, 
we were headed straight towards a major undersea volcano that might 
have a very shallow summit. The mate on watch responded that nothing 
was marked on the navigational charts in the vicinity, but he agreed to 
slow down anyway. Less than 10 minutes later I heard a seaman yell out 
in the moonlight: ``Breakers at 100 yards and closing!'' Because the 
mate had already backed down on the engines, the ship was able to turn 
before crashing into the reef.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As a second, very different example, I will briefly mention NASA's 
development of instruments to measure ocean color to monitor the 
concentration of microscopic plants in the upper ocean. These small 
plants, called phytoplankton, are responsible for producing about half 
of the oxygen that we breathe and are the fundamental basis for nearly 
all of the oceanic food chain. One teaspoon of seawater can contain as 
many as a million of these fast-growing plants. NASA satellites have 
monitored the temporal changes in the concentrations of these minute 
plants from 700 km in space for a little more than two decades. This 
image of ocean color around Tasmania south of Australia was acquired by 
the SeaWIFS satellite in just about one minute. It would have taken 10 
years of non-stop operations of an oceanographic ship to acquire the 
same amount of information, and all of the dynamic details, such as the 
effect of eddies and currents on the distributions, would have been 
smeared out beyond recognition. These satellite data have shown the 
changing productivity of the oceans in response to El Ninos, reduction 
in polar ice extent, intensity of seasonal upwelling, and purposeful 
iron fertilization of the oceans. Such monitoring of the biological 
changes in the ocean help us to understand the consequences of both 
natural and man-made changes to the physical and chemical environment 
in which these plants survive.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Highest Priority Unanswered Questions

    In your second question, you asked me to list the highest priority 
unanswered questions in Earth Sciences that can be addressed from 
space. Again, I will choose an ocean example. Within the last decade, 
reconstruction of past climate records from sparse data have 
demonstrated that the Pacific ocean temperature and productivity of 
fisheries all change in lock step to a climate rhythm that waxes and 
wanes over decadal time scales Figure 3). This temperature variation, 
called the Pacific Decadal Oscillation or PDO, involves temperature 
changes of just one to two degrees and has also been well correlated 
with changes in sea level recorded by satellite altimeters. The Figure 
below shows that the ``cool'' phase of the PDO that ruled the Pacific 
in the early 1960's corresponded to the crash in the sardine fishery in 
my own hometown, Monterey, CA. Landings of sardines fell from 3.6 
million metric tons in the 1930's to less than 10,000 metric tons by 
1965. During that same time, the anchovy fishery offshore Peru became 
the biggest single-species fishery in the world. In the mid-1970's, the 
regime shifted, and the Peruvian anchovy fishery crashed. The most 
recent regime shift which coincided with the 1997-98 El Nino was 
captured by a number of satellite sensors: sea level (as measured by 
altimetry), ocean temperature, and ocean plant production (as measured 
by ocean color) all shifted together back into the cool (anchovy 
dominated) phase. So what forces cause the shift? What rhythms govern 
the time scale? We don't know, and its long life span (20-30 years 
between regime shifts) means that we must be patient. But much is at 
stake. The numbers of seabirds in Hawaii, monarch butterflies in 
Mexico, and salmon in Oregon all appear to vary at the pace of the 
PDO--despite the fact that the temperature variations are one to two 
degrees! We have only captured one shift with high-quality records, but 
the hope is that with patience we will understand how the system works, 
and hopefully avoid another fisheries crash like the one that 
devastated Monterey.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Future Prospects

    In your fourth question, you asked me about the future of NASA's 
contributions to Earth Sciences. I hope that I have already made the 
point that there are exciting couplings emerging among the physical, 
chemical, and biological aspects of the ocean that point to a planetary 
metabolism that is best observed and most efficiently monitored from 
space. I have no doubt that upon further investigation, we will find 
that many changes in the land-based biosphere are also controlled by 
similar rhythms, just as scientists have been able to demonstrate the 
connection between the El Nino event in the eastern tropical Pacific 
and, for example, drought in South Africa. Understanding exactly what 
will happen before it happens is clearly a powerful position to be in, 
because it enables us to take actions that benefit from the regime 
shift, as opposed to those that suffer from it. I am personally very 
excited about the prospects of monitoring salinity directly from space, 
in order to get the second necessary component for understanding the 
thermo-haline circulation that transports so much of the planets' mass 
and energy. I see the potential for monitoring the planet's carbon 
cycle from space through both direct measurements and better modeling 
of the thermohaline circulation. For example, we estimate that the 
oceans take up a net 2,000 million metric tons of carbon dioxide from 
the atmosphere annually, but that number is the small difference 
between two very large numbers: 90,000 million tons of CO<INF>2</INF> 
taken up by ocean plants and other processes versus 88,000 million tons 
of CO<INF>2</INF> returned to the atmosphere from the ocean through the 
upwelling of deep ocean waters. Clearly our ``balance of payments'' (so 
to speak) in terms of the carbon budget is very sensitive to both the 
physical and biological states of the ocean, which in turn vary with 
both the El Nino and the PDO oscillations. There is so much to learn, 
and only when we have a better understanding of all of these cycles and 
where we are within them will we be able to make wise policies to 
protect and sustain our Earth environment.
    Thank you very much for this opportunity to speak to you on these 
critically important issues.

                      Biography for Marcia McNutt

    Marcia McNutt is the President and CEO of the Monterey Bay Aquarium 
Research Institute (MBARI) in Moss Landing, California. MBARI is a 
nonprofit research laboratory funded by the David and Lucile Packard 
Foundation to develop and apply new technology for the exploration of 
the oceans.
    McNutt is a native of Minneapolis, Minnesota, where she graduated 
class valedictorian from Northrop Collegiate School in 1970. In 1973, 
she received a BA degree in Physics, summa cum laude, Phi Beta Kappa, 
from Colorado College in Colorado Springs. As a National Science 
Foundation Graduate Fellow, she studied geophysics at Scripps 
Institution of Oceanography in La Jolla, California, where she earned a 
Ph.D. in Earth Sciences in 1978.
    After a brief appointment at the University of Minnesota, she spent 
the next three years at the U.S. Geological Survey in Menlo Park, 
California, working on the problem of earthquake prediction. In 1982, 
she joined the faculty at MIT in Cambridge, Massachusetts. At MIT, she 
was appointed the Griswold Professor of Geophysics and served as 
Director of the Joint Program in Oceanography and Applied Ocean Science 
and Engineering, a cooperative graduate educational program between MIT 
and the Woods Hole Oceanographic Institution.
    McNutt's research ranges from studies of ocean island volcanism in 
French Polynesia to continental break-up in the Western U.S. to uplift 
of the Tibet Plateau. She has participated in 15 major oceanographic 
expeditions, and served as chief scientist on more than half of those 
voyages. She has published 90 peer-reviewed scientific articles.
    In 1997, McNutt took over the leadership at MBARI. McNutt has 
encouraged the institution to tackle the sort of research problems that 
traditionally have been difficult to support under federal grants and 
contracts, such as high-risk ventures, development efforts with long 
lead times between conception and scientific return, and 
interdisciplinary research. She has also encouraged her researchers to 
develop affordable technology for ocean exploration and observation 
that can be passed on to the larger oceanographic community.
    McNutt's honors and awards include membership in the American 
Philosophical Society and the American Academy of Arts and Sciences. In 
1985, she was awarded a Mary Ingraham Bunting Fellowship from Radcliffe 
College. She also holds honorary doctoral degrees from the University 
of Minnesota and from Colorado College. In 1988, McNutt won the 
Macelwane Award from the American Geophysical Union, presented for 
outstanding research by a young scientist. In 2003 she was honored as 
the Scientist of the Year from the ARCS Foundation. In 2004, she 
received the Outstanding Alumni Award from the University of California 
at San Diego. She is a fellow of the American Geophysical Union, the 
Geological Society of America, the American Association for the 
Advancement of Science, and the International Association of Geodesy.
    McNutt served as President of the American Geophysical Union from 
2000-2002. She also chaired the President's Panel on Ocean Exploration, 
convened by President Clinton to examine the possibility of initiating 
a major U.S. program in exploring the oceans. She currently serves on 
numerous evaluation and advisory boards for institutions such as the 
Monterey Bay Aquarium, Stanford University, Harvard University, Science 
Magazine, and Schlumberger.

    Chairman Boehlert. And thank you for your direct response 
to our questions, but you left us with a bigger questions with 
your, ``Breakers at 100 yards and closing,'' and then you went 
off in a new direction. I assume the ship did, too.
    Dr. McNutt. The ship, because it had slowed down, was able 
to turn in time, and we missed the reef.
    Chairman Boehlert. And that permitted you to be here with 
us today.
    Dr. McNutt. Yes. Thank you.
    Chairman Boehlert. You are welcome.
    Dr. Williamson.

  STATEMENT OF AND DR. RAY A. WILLIAMSON, RESEARCH PROFESSOR, 
    SPACE POLICY INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Dr. Williamson. Chairman Boehlert, Ranking Minority Member 
Gordon, Members of the Committee, it is a pleasure to be here 
today to testify on NASA's Earth science efforts and their 
impact on U.S. citizens.
    For nearly 25 years, I have followed and analyzed the 
development of U.S. Earth science and applications 
capabilities. During that period, federal investments in Earth 
science research and technology have led to powerful methods 
for improving weather and climate forecasts, including advanced 
warnings of changing weather, damaging weather, transportation 
planning and monitoring, agricultural planning, energy 
efficiency, and other geographically- and environmentally-
influenced activities.
    Yet despite the substantial progress over the years, a lot 
more can and should be done. And it should be done to assure 
that the benefits of future Earth science research actually 
reach the American public. NASA's Earth science research is 
critical to that goal. It is a major national asset.
    In recent research co-funded by NASA and NOAA, my 
colleagues and I have explored the scope and scale of social 
and economic benefits provided by NASA's Earth science research 
and by NOAA's applications of some of that research. We 
determined that realized benefits were quite substantial, but 
not well quantified. Nevertheless, all available studies 
indicate, with little doubt, that improved weather and climate 
forecasts have saved millions of dollars in property damage, 
prevented the loss of life from severe storms, and contributed 
millions or even billions of dollars to industrial efficiency.
    Now other members of this panel have sited other examples 
of--many examples of Earth science research. I want to add one 
that is also--is on my list but hasn't been mentioned, and that 
is the significant science and technical support in the 
development of a $3.5 billion, that is yearly, satellite and 
aerial remote-sensing data and applications industry, which is 
now growing at a rate between nine and 14 percent per annum.
    At present, as I have mentioned, we cannot draw 
quantitative conclusions about the total social and economic 
benefits of NASA's Earth science information. This means that 
benefit studies cannot yet be used with confidence to guide 
future investments in space systems. Since NASA is at the 
cutting edge of Earth science research in this country, it 
should focus more attention on this important subject in order 
to guide its future research.
    Mr. Chairman, I see four major issues related to NASA's 
ability to support the country in Earth science research.
    First, as has been mentioned, declining Earth science 
budgets and delayed or canceled Earth science missions.
    Second, U.S. leadership in the international Global Earth 
Observation System of Systems. We initiated that effort nearly 
two years ago, and it stands to bring greater benefits than 
ever to the United States and to the world. Congress should 
support that leadership.
    Three, the general lack of quantitative and qualitative 
data on the benefits of Earth science research. In other words, 
what are we buying with our dollars, and how much has it gotten 
us.
    Four, insufficient attention to developing the methods and 
paths to NASA's--take NASA's research efforts into operations 
and to applications for end-users, in other words, the American 
public.
    In summary, NASA's Earth science program has provided 
substantial benefits to the United States. I see several ways 
in which this committee could be especially helpful in assuring 
that the public actually reaps the benefits of this research.
    One, eliminate the steady decline in the proportion of 
NASA's budget devoted to Earth science. NASA's Earth science 
program produces real benefits to the American public and 
should be maintained at a level that maintains strong U.S. 
leadership in Earth science research.
    Two, provide additional resources to support U.S. 
leadership in the Global Earth Observation System of Systems.
    Three, authorize NASA to direct a greater attention to the 
quantification of the benefits of Earth science research 
applications to America's industry and the public sector and 
the policy implications of those benefits.
    Four, include an exploration of the issue of transition 
from Earth science research to useful applications in the 
Committee's next hearing related to Earth science and 
applications.
    In the eyes of many, Earth science research is not nearly 
as sexy or as cutting-edge as exploration beyond Earth orbit. 
It doesn't get the headlines. It certainly doesn't command the 
same sort of public attention as the astounding results from 
the Hubble Telescope or the Cassini Mission to Saturn. 
Nevertheless, Earth science research truly does involve 
exciting new technological developments and may be, in the long 
run, vastly more important in direct impacts to the economy and 
the public welfare than these other examples.
    Just imagine what our lives would be like if our Earth 
science and meteorological satellites all suddenly failed. It 
is hard to imagine. Tomorrow's weather would again become 
guesswork, and electricity would start to cost us more. Local 
and regional environmental trends would be next to impossible 
to determine and monitor, as we have heard. Ships in the North 
and South Atlantic would be vastly more susceptible to iceberg 
collisions, and other hazards, such as underground volcanoes. 
Even the security of our homeland would be lessened and our 
defense efforts hindered. It is not well understood, I think, 
how much of NASA's Earth science efforts have drifted in and 
supported our homeland security--or could support our homeland 
security and our defense applications.
    In short, we would stand to lose the substantial benefits 
that we have already gained from Earth science research 
applications. Continued aggressive support of these R&D and 
operational efforts is an essential component of the future of 
the economy and security of our nation.
    And I thank you, Mr. Chairman, for this opportunity to 
present my views on these issues.
    [The prepared statement of Dr. Williamson follows:]

                Prepared Statement of Ray A. Williamson

    Mr. Chairman, Members of the Committee, it is a pleasure to be here 
today to testify on NASA's Earth science efforts and their impact on 
U.S. citizens. This is an important and crucial subject in these days 
of increasingly tight federal budgets for science and the development 
of useful applications of science results. For nearly 25 years I have 
followed and analyzed the development of U.S. Earth science and 
applications capabilities, first for the Congressional Office of 
Technology Assessment and since 1995, as a Research Professor in the 
Space Policy Institute within The George Washington University.
    During those two and a half decades, the United States has made 
dramatic progress in Earth science and applications. Investments in 
several geospatial technologies have contributed to the development of 
powerful methods for improving weather and climate forecasts (including 
advance warnings of severe weather), transportation planning and 
monitoring, agricultural planning, energy efficiency, and other 
geographically--and environmentally--influenced activities.
    Whether through NASA, NOAA, the U.S. Geological Survey, or though 
university research funded by the National Science Foundation, the 
federal investment has been key to bringing the science and the 
resulting methods and technologies to a status that they can truly 
benefit not only the Federal Government including important defense and 
homeland security programs but also State and local authorities, the 
private sector, and especially the average citizen. Yet, despite the 
substantial progress over the years, a lot more can and should be done 
to make sure that the benefits of science research actually reach the 
American public.

Benefits of Earth Science Research

    Mr. Chairman, among other things, your letter of invitation to 
testify in this hearing asked about past accomplishments from the NASA 
Earth science program and what future benefits can be expected. In a 
recent research project co-funded by NASA and NOAA, my colleagues at 
the Space Policy Institute and I explored the scope of social and 
economic benefits provided by NASA's current Earth science research and 
NOAA's applications of science results to weather and climate, and 
determined that in sum they were quite substantial. However, reliable 
estimates of the total of such benefits do not exist and the available 
socioeconomic studies focus on specific examples of benefits to 
particular industries, geographical areas, and types of storms or 
damage. All of the available studies indicate with little doubt that 
improved weather and climate forecasts have saved many millions of 
dollars in property damage, prevented the loss of life from severe 
storms, and contributed further millions of dollars to industrial 
efficiency.
    Both NASA and NOAA have made substantial contributions to the 
development of more accurate, longer-term weather and climate 
forecasts. NASA has provided the lead in new instrumentation, new 
understanding of the basic chemistry, physics, and biology of Earth 
systems, and advances in modeling and data assimilation techniques. 
NOAA has provided long-term, routine observations focused on improving 
forecast models and other decision support tools directly benefiting 
the end user of weather and climate information. More specifically, 
benefits of NASA's Earth science research include, but are certainly 
not limited to:

        1.  A much deeper and broader scientific understanding of Earth 
        systems and how they function, which in addition to 
        contributing to general scientific knowledge, also provide the 
        basis for applied use of this important knowledge;

        2.  Development of sophisticated satellite sensors capable of 
        monitoring Earth systems for the benefit of U.S. citizens;

        3.  Significant scientific and technical support in the 
        development of a $3.5 billion dollar satellite and aerial 
        remote sensing data and applications industry that is now 
        growing at a rate between nine and 14 percent per annum [1];

        4.  Data, models, and other decision support tools for weather 
        and climate forecasts, including forecasts of damaging storms. 
        Data from the TRMM satellite, for example, enable forecasts to 
        predict hurricane paths and rainfall amounts much more 
        accurately [2].

    When we examined the economics and related benefits literature 
related to NASA's Earth science research for quantitative economic 
studies or value analysis, we found relatively few in-depth studies. 
Further, although most studies cited sizable benefits, each study was 
carried out using a different valuation methodology, or was focused on 
a narrow element of the industry under study. Taken together, these two 
factors mean that few quantitative conclusions can be drawn about the 
total social and economic benefits of NASA's Earth science information 
to U.S. industry and to Federal, State, and local government 
applications. This means that benefits studies cannot yet be used with 
confidence to guide future investments in space systems.
    Yet our studies show that the supportable, qualitative benefits of 
Earth science research are quite high to nearly all sectors of industry 
and to the public sector. Since NASA is at the cutting edge of Earth 
science research in this country, it should focus more attention on 
this important subject in order to assist in guiding its future 
research agenda. This is not to say that expected practical benefits 
alone should determine NASA's future research agenda, since such an 
approach might stifle creative, breakthrough research efforts, but such 
benefits should play a role in the decision process when difficult 
decisions are being made among projects.

The Electric Energy Industry

    In order to understand the range of issues surrounding the 
development of benefits estimates, we focused on the potential social 
and economic benefits to the electric energy industry of improved 
weather and climate forecasts and other information derived from a 
combination of satellite data and other weather information. This 
industry, on which the United States depends as a critical part of the 
infrastructure of economic growth and well being, relies deeply on 
accurate weather and climate forecasts to estimate its customers' 
future demand for electricity and the company's needed future fuel 
supplies. Because satellites operate either globally or over very large 
regions, they provide synoptic views of meteorological conditions over 
substantial portions of the globe that cannot be monitored cost-
effectively from aircraft or ground stations. In fact, some 90 percent 
of the data now used in weather forecasts derive from satellite 
measurements.
    Our study shows that electric utilities derive the greatest 
economic benefit from weather forecasts that are accurate over 2-4 
days. Improved 7-10 day weather forecasts would also provide additional 
economic benefit for utilities.[3] The companies use monthly and 
seasonal weather forecasts for scheduling maintenance and for meeting 
EPA-set yearly emission allotments. Longer-term forecasts assist in 
planning for new power generation facilities.
    The industry also depends on such forecasts for severe weather 
warnings. As noted above, most of the data inputs for these forecasts 
derive from satellites. The latter data are especially important in 
geographic areas at risk from severe storms. Our study also shows that 
the industry has need of other types of satellite data. For example, 
some companies use NASA's MODIS data to estimate snow cover and Landsat 
data to assist in meeting environmental regulations on transmission 
line rights of way. All of these data contribute an economic benefit to 
the industry, which, in a competitive environment, will generally 
result in greater efficiencies and in lower electricity prices to 
customers.
    Satellite information can also provide significant benefits in 
planning and operating electric production dependent on renewable 
sources of energy such as wind, sunlight, and water. At least seventeen 
(17) states have now mandated the use of renewable energy sources in 
generating electrical power; in the future, other states are likely to 
add similar regulatory requirements. Satellite-based remote sensing can 
aid in realizing the potential of exploiting renewable energy resources 
by helping in the optimal location of generating facilities as well as 
in the operational decisions of generating facilities and electric 
power grid management. The future growth and development of this 
increasingly important sector of energy generation would be 
significantly assisted by NASA satellite data which can provide a 
principal ingredient for this effort to assist in the siting and 
operations of these energy sources.
    More accurately measuring the economic value of the contribution of 
satellites would help in guiding federal policy toward the electric 
utility industry. However, the use of weather and climate forecasts and 
other satellite data in this industry represents only part of the total 
benefit inherent in the environmental information gathered by 
spacecraft. Many other weather-dependent economic sectors, including 
water resources, agriculture, construction, recreation, and the general 
public would also profit from a better understanding of the benefits 
and mechanisms of both weather forecasting and the use of those 
forecasts. These economic benefits are most evident in the ability of 
better weather forecasts to reduce the risks and uncertainty in 
planning and performing a wide variety of economic and social 
functions.

Global Earth Observation System of Systems (GEOS)

    In July 2003, the United States invited other countries to enter 
into discussions regarding the establishment of an Integrated Global 
Earth Observation System (IEOS) that would gather as much information 
as possible from current Earth observation systems operating in space, 
the atmosphere, and on Earth, with the goal of establishing 
comprehensive data and information systems to guide our management of 
planet Earth. That initial meeting was a resounding success and led to 
the current 10-year Implementation Plan agreed to by more than 30 
countries in July of 2004.
    The Implementation Plan, which consumed considerable effort in all 
countries party to the agreement, is only the beginning of many years 
of additional effort to bring the plan to fruition. NASA plays a very 
important role in this effort, supplying new, more useful satellite 
data sets and assisting with development of models and other tools to 
make the data sets truly useful.
    This international system can provide significant additional 
benefits to the United States, as well as to the rest of the world, in 
many ways such as reducing hunger and providing better warnings of 
impending natural disasters. I note, for example, that one of the chief 
tasks of GEOSS will be to focus on methods and means to reduce the 
impact to life and property from natural disasters, such as earthquakes 
and Tsunamis. Satellite data and methodologies have an important place 
in this effort through their ability to gather real-time data on a 
worldwide basis which is one very key element of the modeling, 
forecasting, and warning system.
    Having established its leadership in GEOSS, the United States must 
now follow through on its implementation. This will require sufficient 
funding for the U.S.
    effort, the Integrated Earth Observation System (IEOS) both in 
continuing NASA's Earth science program at a robust level, and in 
supporting the involvement of other agencies in the endeavor. As noted 
in a recent report by the American Meteorological Society, ``there will 
have to be a long-term robust research program designed to add value to 
the operation of IEOS.''[4]
    Such support should also include research on the expected benefits 
from such expenditures and sustained efforts to include the inputs of 
information users--the final stakeholders in the IEOS process. After 
all, there is only so much public money to go around, especially in an 
era of increasing budget deficits, and understanding the areas likely 
to return the greatest benefits will help NASA managers and Congress 
make better funding decisions among the many worthy research projects 
and proposals.

Bringing Benefits to Users

    Despite the importance of maintaining a vigorous Earth science 
program at NASA, obtaining more accurate, more detailed scientific data 
from satellites does not automatically lead to economic benefits to 
users of the information. The many and complex steps between the 
development of forecasts and other decision support tools from 
satellites mean that expected benefits are not always fully realized by 
the end user. Hence, considerable effort must be expended to improve 
both the understanding of all parties involved in the process. This 
especially includes the communications between the research community 
and the ultimate users of the information.
    Second, the transfer of Earth observations information from the 
producing agencies of the government to the end users must occur in a 
timely manner and in easily used formats. At present this is not always 
the case. With better appreciation of the roles and needs of the 
research, modeling, and end user communities, economic and social 
benefits of weather information can improve. We need a series of 
efforts to improve the flow of research results to information end 
users. I cite as an excellent example, H.R. 426, the Remote Sensing 
Applications Act sponsored by Representative Mark Udall, which would 
institute a series of competitively awarded pilot projects to encourage 
public applications of Earth observations data.
    Yet, such efforts to incorporate beneficial Earth science results 
into the wider community will not be enough. In general, NASA and the 
agencies that use its data to improve their operations also need to 
focus on more effective technology transfer, communication, and 
coordination among them. After all, NASA is in the research and 
development (R&D) business, and the user agencies as well as the 
private sector mold NASA's data and other research results to specific 
users in the transition from research to operations. It is always 
easier and more accurate to quantify the end-use applications than the 
R&D. Yet, they are so inter-linked in a ``but for'' chain of events 
that benefits achieved by the end users would not and could not exist 
without NASA's research. NASA's Earth Science Applications Program is 
on the right track in centering its efforts on working with the user 
agencies to improve their processes. However, it will need continued 
support and encouragement from Congress and from within NASA itself.

Conclusions

    In summary, NASA's Earth science program has provided sustained 
benefits to the United States. Nevertheless, in order to do more 
focused, cost-effective planning for the next steps in Earth science 
research, the United States needs a comprehensive, long-term effort to 
estimate both the measurable economic impacts and non-quantifiable 
social benefits of Earth science research and applications.
    I see several ways in which this committee could be especially 
helpful in assuring that the public actually reaps the benefits of 
Earth science research:

        1.  Eliminate the steady decline in the proportion of NASA's 
        budget devoted to Earth science. NASA's Earth science program 
        produces real benefits to the American public and should be 
        maintained at a level that maintains strong U.S. leadership in 
        Earth science research.

        2.  Provide additional resources to support U.S. leadership in 
        GEOSS.

        3.  Authorize NASA to direct greater attention to the 
        quantification of the benefits of Earth science research and 
        applications to America's industry and public sector, and the 
        policy implications of those benefits.

        4.  Include an exploration of the issue of ``transition from 
        Earth science research to useful applications'' in the 
        Committee's next hearing related to Earth science and 
        applications.

    In the eyes of many, Earth science research is not nearly as 
``sexy'' or as cutting-edge as exploration beyond Earth orbit. It 
certainly doesn't command the same sort of public attention as the 
astounding results from the Hubble telescope or the Cassini Mission to 
Saturn. Nevertheless, though it may not be as much in the public eye, 
Earth science research truly does involve exciting new technological 
developments and may be vastly more important in direct and near-term 
impacts to the economy and the public welfare than these other 
examples. Modern society has come to depend on the new knowledge and 
technologies that NASA's Earth science program provides. Just imagine 
what our lives would be like if our Earth science and meteorological 
satellites all suddenly failed. Tomorrow's weather would again become 
guesswork and electricity would start to cost us more. Local and 
regional environmental trends would be next to impossible to determine 
and monitor. Ships in the North and South Atlantic would be vastly more 
susceptible to iceberg collisions and other hazards. Resource 
exploration and resource management would be much more difficult to 
undertake. Even the security of our homeland would be lessened and our 
defense efforts hindered. Finally, we would be deprived of the benefit 
of seeing for ourselves the satellite weather maps on the evening news 
or over the Internet. In short, we would stand to lose the substantial 
benefits that we have already gained from Earth science research and 
application to the detriment of society. Continued aggressive support 
of these R&D and operational efforts is an essential component of the 
future of the economy and security of our nation.
    Thank you Mr. Chairman, for this opportunity to present my views on 
these important topics. I welcome questions or comments.

REFERENCES

        1.  Charles Mondello, George Hepner, and Ray A. Williamson, 
        ``10-Year Industry Forecast: Phases I-III--Study 
        Documentation,'' Photogrammetric Engineering and Remote 
        Sensing, Vol. 70, No. 1, January 2004, pp. 7-58, 2004.

        2.  National Research Council, Committee on the Future of the 
        Tropical Rainfall Measuring Mission, Board on Atmospheric 
        Sciences and Climate, Division on Earth and Life Studies, ``The 
        Future of the Tropical Rainfall Measuring Mission: Interim 
        Report,'' December 2004.

        3.  Ray A. Williamson, Henry R. Hertzfeld, and Avery Sen, 
        ``Weather and Climate, Satellite Data, and Socio-Economic Value 
        in the Electric Energy Industry,'' Unpublished report, soon to 
        be available at http://www.gwu.edu/spi, reports.

        4.  The American Meteorological Society, ``IEOS/GEOSS 
        Implementation Issues,'' Washington, DC: American 
        Meteorological Society, December 2004.

                    Biography for Ray A. Williamson

    Ray A. Williamson is Research Professor of Space Policy and 
International Affairs in the Space Policy Institute, The George 
Washington University. He is Principal Investigator for the NASA-NOAA 
funded study of the Socioeconomic Benefits of Earth Science Research, 
and was recently Co-Investigator of the U.S. Department of 
Transportation-funded Consortium: Disaster Assessment, Safety and 
Hazards for Transportation Lifelines. He is co-author of a recent major 
report on the U.S. remote sensing and geospatial market, and was Chair 
of the Space Policy and Law Department in the International Space 
University 2004 Summer Program.
    From 1979 to 1995, he was a Senior Associate and Project Director 
in the Office of Technology Assessment of the U.S. Congress. While at 
OTA, Dr. Williamson was Project Director for more than a dozen major 
space policy reports on a variety of space subjects.
    Dr. Williamson is a faculty member of the International Space 
University (ISU), Illkirch, France, teaching general space policy and 
Earth observations for the ISU Masters of Space Studies and Summer 
Session programs. He has lectured on space technology and policy in 
regional, national, and international forums.
    Dr. Williamson received his B.A. in physics from the Johns Hopkins 
University and his Ph.D. in astronomy from the University of Maryland, 
and spent two years on the faculty of the University of Hawaii studying 
diffuse emission nebulae. He taught philosophy, literature, 
mathematics, physics and astronomy at St. John's College, Annapolis for 
ten years, the last five of which he also served as Assistant Dean of 
the College.
    Dr. Williamson is a contributing editor to the journals Space 
Policy, and Imaging Notes. From 1998-2001 he was a member of the 
Aeronautics and Space Engineering Board of the National Academy of 
Engineering. He is also a Corresponding Member of the International 
Academy of Astronautics.

Published books include:

2001: Commercial Observation Satellites: At the Leading Edge of Global 
        Transparency, ed., with John C. Baker and Kevin O'Connell (RAND 
        and ASPRS).
2001: Dual-Purpose Space Technologies: Opportunities and Challenges for 
        U.S. Policy-making, (Washington, DC: Space Policy Institute)
2001: Space and Military Power in East Asia: The Challenge and 
        Opportunity of Dual-Purpose Space Technologies, editor, with 
        Rebecca Jimerson, (Washington, DC: Space Policy Institute).
2000: Science and Technology in Historic Preservation, editor, with 
        Paul Nickens (Kluwer Academic/Plenum Publishers).

Recent articles, reports, and presentations include:

2004 ``The Evolution of Earth Science Research from Space: NASA's Earth 
        Observing System,'' (with John McElroy). In Space Science, Vol. 
        6 in Exploring the Unknown, Selected Documents in the History 
        of the U.S. Civil Space Program, Washington, DC: NASA.
2004 ``10-Year Industry Forecast'' (of the U.S. remote sensing and 
        geospatial industry) (with Charles Mondello and George F. 
        Hepner), Photogrammetric Engineering and Remote Sensing, 
        January 2004, pp. 7-58.
2003 Co-Chair, Tracks to Space, (survey of space technologies, 
        innovation strategies, and major technology thrusts in China, 
        Japan, Russia and the United States) International Space 
        University, Summer 2003.
2003 ``Multi-criteria evaluation of safety and risks along 
        transportation corridors in the Hopi Reservation,'' Applied 
        Geography, (with D. Fuller, M. Jeffe, and D. James) accepted 
        for publication.
2003 ``Weather Satellites and the Economic Value of Forecasts: Evidence 
        from the Electric Power Industry,'' IA-03-IAA-3.1.03 (with H. 
        Hertzfeld and A. Sen). Presented at the 54th Annual 
        Astronautical Congress, Bremen, Germany, Sept. 28-Oct. 3.
2002 ``Rocketry and the Origins of Space Flight,'' (with Roger 
        Launius). In To Reach the High Frontier: A History of U.S. 
        Launch Vehicles, Lexington Kentucky, The University Press of 
        Kentucky, pp. 33-69.
2002 ``The Biggest of Them All: Reconsidering the Saturn V,'' In To 
        Reach the High Frontier: A History of U.S. Launch Vehicles, 
        Lexington Kentucky, The University Press of Kentucky, pp. 301-
        333.
2002 Remote Sensing for Transportation Security, with Stanley Morain, 
        Amelia Budge, and George Hepner, National Consortium for 
        Safety, Hazards, and Disaster Assessment, July 2002 (peer-
        reviewed report).
2002 ``Lending A Helping Hand: Using Remote Sensing to Support the 
        Response and Recovery Operations at the World Trade Center,'' 
        Photogrammetric Engineering and Remote Sensing, September, Vol. 
        68, No. 9, pp. 870-875.
2002 ``Satellite Remote Sensing for Archaeology and Historic 
        Preservation: Mapping the Ancient Trails of Southeast Utah,'' 
        presented at the Eurisy Conference, Space Applications for 
        Heritage Conservation, Strasbourg, France, November 5-8, 2002 
        (with Winston Hurst and Michael Jeffe).
2002: ``The Socioeconomic Benefits of Earth Science and Applications 
        Research: Reducing the Risks and Costs of Natural Disasters in 
        the USA,'' (with Henry Hertzfeld, Joseph Cordes, and John 
        Logsdon) Space Policy 18 (2002): 57-65.
2002 Remote Sensing for Transportation Security, with S. Morain, A. 
        Budge, and G. Hepner, National Consortium for Safety, Hazards, 
        and Disaster Assessment, July 2002 (report).
2002 ``Legal and Policy Issues in Satellite Remote Sensing,'' in 
        Project 2001--Legal Framework for the Commercial Use of Outer 
        Space, Karl-Heinz Bockstiegel, ed., Vol. 16, Schriften zum 
        Luft- und Weltraumrecht, Koln: Carl Heymanns Verlag KG, pp. 
        165-178.
2001 ``Using Geospatial Technologies to Enhance and Sustain Resource 
        Planning on Native Lands,'' Photogrammetric Engineering and 
        Remote Sensing, February, Vol. 67, No. 2, pp. 167-169.
2001: ``Remote Sensing Policy and the Development of Commercial Remote 
        Sensing,'' in: John C. Baker, Kevin O'Connell, and Ray A. 
        Williamson, eds., Commercial Observation Satellites: At the 
        Leading Edge of Global Transparency.
2001 ``Satellite Remote Sensing and Transportation: Increasing Safety, 
        Reducing Hazards,'' presented at the 52nd International 
        Astronautical Congress, October 1-5, 2001, Toulouse, France, 
        IAF-01-B.5.02 (with Douglas Fuller).
2001 ``100-Eyed Argus: The Promise and Challenge of Commercial Remote 
        Sensing,'' presented at the American Society of Photogrammetry 
        Annual Meeting, St. Louis, MO, April 2001.
2001 ``International Legal and Policy Issues in Commercial Remote 
        Sensing,'' presented at Project 2001, the International 
        Colloquium, on the Law of Outer Space, Koeln, Germany, May 29-
        31.
2000 ``The Implications of Emerging Satellite Information Technologies 
        for Global Transparency and International Security'' (with John 
        C. Baker). In: Kristin Lord and Bernard Final, Power and 
        Conflict in the Age of Transparency. New York: St. Martin's 
        Press.
1998 ``Satellite Remote Sensing and Maintaining Environmental Security: 
        The Market Perspective,'' In G. Haskell and M. Rycroft, eds., 
        New Space Markets, Dordrecht: Kluwer Academic Publishers, pp. 
        283-290.

                               Discussion

                The Importance of Earth Science at NASA

    Chairman Boehlert. Thank you, Dr. Williamson, for focusing 
on the very real and tangible benefits that the Earth science 
program brings to us on the planet Earth.
    You know, these aren't the easiest of times in terms of 
budgetary consideration, and we are not surprised when 
distinguished scientists come before us and say, ``At least 
give us as much, if not more.'' It is impossible to honor all 
of those requests, but I am somewhat concerned that NASA is 
being viewed, by some, as almost a single-mission agency, and 
it is much more than a single-mission agency. And I am proud to 
identify with the various missions of NASA, including the 
President's Vision for Space Exploration.
    But Mr. Diaz, thank you very much for your testimony, and I 
noted, with particular interest, the comment that we are 
clearly emphasizing a continuing commitment to Earth science 
and NASA's commitment to study the Earth science. And you say 
that is clearly reflected in our national objectives, maybe in 
the objectives, but not as clearly reflected in the budget 
submission. And I see programs being canceled. I see the fate 
of the GPM mission, the Global Precipitation Mission, which the 
Academy says is extremely important and we should go forward.
    And so, you could have fooled me, I guess I say in response 
to your assertion that this is a very high priority. It is 
important, but it is not as high a priority as some of us would 
like.
    And I would like to ask the other witnesses across the 
board: can you give us a sort of insight as to your view of 
NASA's particular role in Earth science and why it is so 
important?
    Dr. Moore.
    Dr. Moore. I think that you put it perfectly with the word 
``science,'' that many of the extraordinary benefits that Dr. 
Williamson mentioned, practical benefits, came from first the 
research, scientific basis. My best analogy--because the Earth 
sciences are somewhat different from the astrophysics, say 
Hubble, my best analogy is the medical sciences. I think the 
Earth sciences are in the same relationship. They have a 
responsibility for science, because they are scientists, as 
well as the applications of that science.
    My concern is that the scientific part may be undermined. I 
certainly recognize that we have to look at this collaboration 
with NOAA. But it certainly cannot be a collaboration of 
centrally moving observational capabilities to NOAA and not, at 
the same time, bringing new observational capabilities into the 
agenda with rich scientific funding. That is what worries me is 
that there could be a decline at NASA, and maybe even an 
increase at NOAA, but the balance would not be right.
    Chairman Boehlert. Thank you.
    Dr. Killeen.
    Dr. Killeen. NASA plays a crucial role in the fabric--the 
intellectual fabric of capacity and human capital in the 
Nation. I think the AAAS mentions that NASA provides 34 percent 
of the funding to our whole national Earth science capability, 
environmental sciences capability. So it is a dominant agency. 
But its role is--the focus, as Berrien points out, on the 
research, on the seed corn, on the new technologies, on the 
innovation that then can be extended and utilized more broadly 
to support society through operational capabilities.
    And I think the history has shown that it does that 
extremely well. The doors have opened on plate tectonics, air 
pollution, weather, climate, many of the examples you say could 
be filled up with--there are numerous examples where we could 
point to NASA's innovation opening intellectual doors. I think 
we stand at a point in history where the work of the past 
decades has suggested that we need to take this life science 
analogy and look at the Earth as a system. We are capable of 
looking at the Earth as a system and actually investigating its 
metabolism, its function across a whole range of parameters and 
factors. NASA will support that. NASA is probably the only 
agency in the world that has the wherewithal, the track record, 
and the access to the human capital to make that happen. And 
that is going to be something that is so important for future 
generations, and it is going to drive economic benefits.
    If you think about the U.S. economy, roughly 1/3 of it has 
some sensitivity to environmental change: leisure, tourism, 
energy, transportation. And we are going to need decision 
support systems to support those enterprises that take into 
account the changes that occur locally, regionally, and 
globally as well.
    Chairman Boehlert. Thank you.
    Dr. Solomon.
    Dr. Solomon. First of all, I agree with what Dr. Moore and 
Dr. Killeen have said.
    To me, NASA's special role is the combination that they 
bring of scientific exploration and discovery and technological 
innovation. And I don't think they are matched anywhere in the 
federal system or even internationally. That gives them a 
special perspective, an opportunity to contribute to scientific 
issues.
    And as previous speakers have said, the scientific issues 
driving Earth science are highly relevant to all of us who live 
on this planet. If we are trying to understand why earthquakes 
occur, why--where they do and when they do, from a purely 
scientific standpoint, that is a first-order question in Earth 
dynamics. But if you are living on a fault in California or 
Colorado or Oregon, it is more than an academic issue. The same 
thing can be said about other natural hazards where space can 
provide a perspective, and what is needed are new ideas, new 
technologies, new observation tools to open up the discoveries 
that will allow us to understand these systems. That is what 
NASA does best. And I see NASA playing a special role for 
continued investigation of the Earth for the foreseeable 
future.
    Chairman Boehlert. Thank you.
    Dr. McNutt.
    Dr. McNutt. Yeah. NASA is simply the only civilian agency 
that has the required capacity, tradition, and track record to 
undertake the technology development to fuel tomorrow's 
discoveries. Imagine if we had a business community in the U.S. 
and we cut it off from the venture capital completely. And 
imagine what would happen to our business community. That is 
exactly what you would be doing to Earth sciences. NASA 
provides that venture capital.
    Chairman Boehlert. I like your style. You put it in very 
practical terms. But I want to make sure that everyone 
understands this is not some esoteric discussion among 
scientists. This is something that has very real, very 
practical implications on our daily lives, as Dr. Williamson 
pointed out, in terms of billions of dollars in economic 
activity and saved lives and hundreds of millions of dollars in 
saved--Dr. Williamson?
    Dr. Williamson. Oh, I think to echo some of my colleagues' 
points, the--a lot of the benefits that I have talked about in 
my testimony and other people this morning and at other times 
have discussed, started the understanding that you needed to 
pursue those practical benefits down the line really started at 
NASA. And you know, I know when I worked as a staff member for 
the Congress a few years ago, I used to get a little impatient 
with scientists, my fellow scientists, who would come to us at 
the Office of Technology Assessment or in one of these hearings 
and argue for more money for science for the sake of science.
    But in fact, I don't see that happening. I see a very 
reasoned exposition in the National Research Council report 
that actually looks in detail at why one wants to support 
certain kind of critical missions. And the GPM is certainly one 
of those.
    Chairman Boehlert. Thank you very much.
    Here is the situation. We have a call of the House for a 
vote. We will have time for Mr. Gordon's questions, and then we 
will take a brief recess and hope we can get back in a timely 
manner. And I would urge all of my colleagues to return. This 
is a very important hearing.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.

                           Earth Science Cuts

    Mr. Diaz, I recognize that your job here today is to defend 
the cuts and cancellations that NASA has made to the Earth 
science budget, and you may feel like the victim of a drive-by 
shooting, but these are all very legitimate concerns and 
questions. And they really--they are predicated on the fact, as 
Mr.--or Dr. Killeen pointed out, that NASA has a great history 
and providing--and you have been a part of it, of research that 
is real-world to the country, and that we are afraid that this 
research and billions of dollars in foundation could be 
irrevocably damaged here in this window. So these are 
legitimate concerns.
    With that said, I would like to better understand, if you 
could help me, NASA's rationale for making some of the cuts. 
For example, NASA's fiscal year 2006 funding request for the 
Combined Earth-Sun Science Program is some $645 million lower 
than the funding plan for fiscal year 2006 that was contained 
in NASA's fiscal year 2004 funding request. That is a 24-
percent reduction in NASA's Earth-Sun Science fiscal year 2006 
funding plan in just two years. Why did NASA decide to cut its 
planned funding request for the Earth-Sun Science Program so 
much, and where did the NASA-diverted funds go?
    Or take another example. Just last year, then-Administrator 
O'Keefe told the American Meteorological Society that we hope 
to accelerate the flight of Glory Mission to as early as 2007 
to provide earlier availability to this space-based pilometer. 
Yet we now find that fiscal year 2006 budget request that NASA 
is, in fact, canceling the Glory spacecraft and has no clear 
plan for flying Glory instruments any time soon. Was 
Administrator O'Keefe misinformed, or was the money intended 
for Glory diverted to some other purpose?
    And finally, I mention NASA's decision to cut the out-year-
funding plan for Earth science contained in last year's budget 
request by a significant amount. Why, given all the stresses on 
NASA's Earth science budget, did NASA decide to cut NASA's out-
year funding plan for Earth science instead of taking the 
alternative course of slowing the pace of new exploration 
initiative? Mr. Diaz?
    Mr. Diaz. Well, there are a lot of questions there. And if 
we have the time, I would like to first start by saying I find 
myself in this unusual position of being refreshed by the 
observations of everyone in the panel who have talked about the 
wonderful success that NASA has achieved. And as you said, it 
does feel good to have been part of that.
    And yet I also find myself in a situation where I can 
understand the concern, because of the change in strategy that 
is taking place.
    The reason that I feel more confident is largely because I 
believe that when we come out of this transition, we will be 
much better positioned to do the work that we have been doing 
in the past than we would otherwise. What has been said is that 
we have made major investments over the past 15 to 20 years, 
and that is exactly correct. But a lot of that investment, I 
would hesitate to say how much of it, has gone into what I call 
infrastructure, platforms that hold instruments. The wonderful 
achievements that people are talking about here have to do with 
the achievements associated with the instruments that fly on 
these platforms. The platforms themselves are very similar to 
the ones that--if not identical, to the ones that NOAA flies 
for operational programs.
    And so the strategy that we are on is one that would try to 
minimize the investment that needs to be made by the government 
overall in infrastructure to support these instruments. And 
many of the changes that----
    Mr. Gordon. Well, is NOAA going to be given the funds to go 
along with these additional----
    Mr. Diaz. NOAA already flies these platforms, and----
    Mr. Gordon. So there is no additional expense that will be 
incurred?
    Mr. Diaz. As I said in the past, I don't have the 
particulars with respect to the NOAA budget, and I cannot tell 
you whether or not----
    Mr. Gordon. Well, don't you think--I mean, that is--you are 
saying you are going to the swimming pool, but you didn't check 
to see if there is any water in it.
    Mr. Diaz. Well, I--we know that they are building the 
platforms, and it is not clear to me how much money they are 
spending on them, but they are building the platforms.
    Mr. Gordon. Well, one of the things that I have been very 
encouraged by your conversation is you want to have an 
openness----
    Mr. Diaz. Right.
    Mr. Gordon.--and a dialogue. Well, don't you think part of 
this dialogue ought to be checking with NOAA and with the 
Administration? I mean, but even if what you are saying can be 
done and that there--and that basic science and applied science 
can be combined here, it still has to be paid for.
    Mr. Diaz. Yes.
    Mr. Gordon. So I mean, I am not even sure that, again, it 
can be consistent. But even--but if your premise is correct, 
don't you think you need to check and see whether or not it is 
going to be funded and--as part of this dialogue you are 
having?
    Mr. Diaz. Well, I think what I--well, we have assurances 
and have gotten assurances that the development of the 
platforms has been funded and that there is space on them for 
us. But I just use that as a backdrop trying to get to 
answering your question.
    There were--in the course of the past two fiscal years, 
your numbers are correct, and we have reduced overall in the 
Earth System Science as well as the Sun-Earth Connection 
combined, by that amount of money. If you look at what we did 
in Earth sciences alone, that is what was Earth science in 
2004, because I can't compare--because they weren't combined in 
2004, there was a reduction taken in 2005 and virtually no 
reduction in 2006.
    I can answer the question about the details. I am not sure 
that you have the time at this point.
    Chairman Boehlert. When we have--we do have to go, because 
we are down to four minutes.
    Mr. Diaz. Okay.
    Chairman Boehlert. We will resume, at this point, when we 
come back. But I just would like to observe, you talked about 
the handoff----
    Mr. Diaz. Right.
    Chairman Boehlert.--and I am enough of a track man to know 
it takes two hands for a handoff. And one hand is extending to 
hand off, but there has got to be a recipient with a plan and a 
program and the funding behind the program. And so--and we 
don't see that.
    So we will take a brief recess and be back as soon as 
possible.
    Mr. Diaz. Thank you.
    [Recess.]
    Chairman Boehlert. We will resume, and before recognizing 
Mr. Calvert, before we were so rudely interrupted by the House 
demanding our presence there, we were having a very important 
discussion. And there is a minute left on Mr. Gordon's time, 
and then we will go to Mr. Calvert.

                   Relationship Between NASA and NOAA

    Mr. Gordon. I guess quickly, Dr. Moore, would you like to 
respond to Mr. Diaz's comments?
    Dr. Moore. Yes. I think I know where you are going or what 
you are thinking there. This relationship between NASA and 
NOAA, is that what we are----
    Mr. Gordon. And also following up on the Chairman's earlier 
comment. In layman's terms, what are the particular sciences 
that we could lose? I mean, are we going to have, in terms of 
weather, agriculture, you know, what are some of the real-
world----
    Dr. Moore. Right.
    Mr. Gordon.--potential losses?
    Dr. Moore. As I tried to say earlier, I think that the 
partnership, the long-standing partnership between NASA and 
NOAA is one of the most valued aspects of the United States 
government. It is almost unique in the world, and it is 
extraordinary. And I applaud anything to strengthen that.
    However, I think we have to also recognize that they are, 
by mandate, very different agencies. NASA is a research and 
development agency. NOAA is an operational agency. NOAA has 
research capability, but it is far, far smaller than the 
significant, as Dr. Killeen pointed out, this very significant 
research capability of NASA. My analogy, to use the medical one 
again, would be if we somehow said we were going to move--
essentially remove the NIH and rely on the hospitals to do the 
research, granted hospitals do research, we have research 
hospitals, but we certainly need the NIH. I think in the same 
vein that the Earth science program at NASA is central for 
NOAA's long-term viability that the--that all of the 
observational capability, such at NOAA, first came through NASA 
and that that train--or that theme should not stop. The areas 
of research we are just beginning to understand how the 
atmosphere is changing.
    The point that Dr. McNutt made on climate variability, all 
of this has come about in the last 10 or 12 years, and we still 
are just beginning to understand it.
    Chairman Boehlert. Thank you very much.
    Mr. Calvert, the distinguished Chairman of the Subcommittee 
that has responsibility for the wonderful programs within NASA.
    Mr. Calvert. Well, thank you, Mr. Chairman, for the 
opportunity to make a couple of comments and to ask a question.

              Transferring Earth Science From NASA to NOAA

    I feel compelled to come to the defense of NOAA and the 
United States Geological Survey. I used to chair that 
Subcommittee before Mr. Ehlers and--for a number of years, and 
I found the people at NOAA and USGS to be top-rate, and some of 
the--and there is science taking place there. I think that some 
folks are saying that--if you would listen to some of the 
panelists, you wouldn't think that there is any other science 
taking place other than NASA.
    And I would like to ask Mr. Diaz a question. Has the 
Administration ever said that they are going to get out of the 
Earth science business?
    Mr. Diaz. No, they have not.
    Mr. Calvert. No, that is not what I have heard you say. You 
are talking about a national policy on Earth science, which I 
think is an important thing. We a number of agencies--and I 
also serve on the Armed Services Committee. The United States 
Navy is doing a tremendous amount of research. We have the 
National Reconnaissance Office. It is--it puts up satellites. 
As a matter of fact, we have one coming up next month and 
another one the month after that. We have a number of agencies 
doing work, and I suspect those agencies are not talking to one 
another. I know they are not, because I looked at a map of 
underwater--of the obstacles that we deal with underwater. I 
suspect the Navy has done a lot of things that we, 
unfortunately, can't talk about or look at that are 
significantly more involved than what NOAA has done or NASA has 
done, for obvious reasons.
    And so we need to have more interaction, so a national 
policy, I don't think, is a bad thing to pursue. You know, 
change is hard in this town. And I do agree with the Chairman 
that we should never make strategic decisions based on budget 
constraints. Strategy should always come first. That should 
always--whether it is on the aeronautics side and having a 
vision for aeronautics as we have on a vision for space, which 
I certainly support. We ought to have a vision for Earth 
science and how we deal with that in the future.
    But Mr. Diaz, I want to give you the opportunity, because 
you are kind of outnumbered here today, to defend the 
Administration's position and how we can improve science and 
improve the interagency cooperation, which is not taking place 
today.
    Mr. Diaz. Well, as I said, I do find myself in this unusual 
position. Having worked with Berrien Moore for so many years, 
it is heartening to hear him say that--how much we value what 
NASA has done, and he didn't say anything in his last statement 
that I disagree with.
    I will say that I think there has been an awful lot of 
change taking place and an awful lot of dialogue between the 
agencies that is documented in at the program level and is also 
documented in assignments that come from nationally-directed 
programs. But we do not have a single place to point to that 
talks to the strategy that NASA and NOAA are following to 
transition to this new environment. There is no intention that 
I have seen, nor do I see any evidence, of NASA abandoning 
Earth science. This is about transitioning to a different way 
of doing it.
    Mr. Calvert. As I see it, a better way of managing the 
resources, and to come out----
    Mr. Diaz. Absolutely.
    Mr. Calvert.--with a--hopefully, a better outcome. I agree 
that NASA should not be a single-purpose agency, but it should 
have priorities, and I think its number one priority is space 
exploration. And the technology to get the satellites in orbit 
at low-Earth orbit or whatever orbit we choose to put it in to 
make sure that we have the ability to get NOAA or any other 
agency that we need to deal with the ability to do the type of 
science that we are looking at.
    And so I just wanted to come to the defense of NOAA and the 
United States Geological Survey and the job that they are 
doing, and I think they are competent folks over there. And I 
hope that as we go through this process, that we recognize the 
good work that they are doing and look at ways we can do a 
better way of interagency cooperation.
    One last point. NASA lost a considerable amount of business 
in the last number of years, I have only been Chairman of this 
committee for a little while, to the Department of Defense. For 
whatever reason, the Department of Defense took it upon 
themselves to do research in aeronautics and space design 
outside of the NASA preview. That was unfortunate, Mr. 
Chairman. And for whatever reason, we need to help rebuild that 
relationship. And I think we have a new Administrator that can 
look at the entire scope of what NASA has done in the past, 
where have they gone and maybe lost their sight of where they 
need to go. I am an old business guy. I believe in business 
plans. And get them back on track. And I don't think the 
Administration is trying to hurt the Earth science industry. I 
think they are trying to help it.
    So with that, thank you for letting me have the time.
    Chairman Boehlert. Thank you, Mr. Calvert.
    And just let me say how much we value your continued 
contributions to this committee and its deliberations. I 
couldn't agree more with you that the national policy is very 
good in theory, and I want to have that national policy. And 
Dr. Moore, I hope in the study you might maybe give us a road 
map on how we accomplish this. I mean, a national policy makes 
sense for a nation. But maybe it is NASA doing the basic 
research and maybe the applied research is done elsewhere. That 
is part of a coherent, national policy. But while I am 
comforted by your continued commitment to Earth science, the 
fact of the matter is when you said to Dr. Moore how much you 
welcome his comments on how valued Earth science is, I welcome 
those comments, too. And I know how valuable it is. That is why 
I hate to see the Earth science budget significantly reduced 
because of the great value in very real terms to the Nation and 
its important impact on the Nation in practical terms, not just 
theoretical discussions among scientists.
    With that, let me recognize the distinguished gentleman, 
Mr. Green.
    Mr. Green. Thank you, Mr. Chairman and Mr. Ranking Member. 
I would like to thank you for the panel that we have assembled, 
the witnesses. Outstanding, each. And I think that you have 
given a neophyte a wealth of information, and I greatly 
appreciate what you have shared with us.

                                 Glory

    Mr. Chairman, if I may, I would like to refer to a table 
from the NAS report, Table 3.1, styled canceled, descoped, or 
delayed Earth observation missions. And I would like to just 
mention a few things from this table, and I shall do so 
quickly.
    Missions, global perception--pardon me, precipitation, 
measurement, this one is unclear, atmospheric surroundings--
excuse me, soundings from geostationary orbit canceled. Ocean 
vector winds, canceled. LandSat data continuity, reformulated. 
And then Glory is listed as unclear. I would like to focus on 
Glory, because there is much talk about global warming. And 
there seems to be the notion that it really does not exist. I 
was hoping that Glory would give us additional feedback such 
that we could make some intelligent comments about this global 
warming debate that has been raging in our country. My 
understanding is that Glory was to be a stand-alone mission in 
2008. Thereafter, there was talk about a piggyback mission, 
that is with another mission on-board, with another mission. 
And I see now that there is an NAS Committee interim report, 
which addresses the possibility of it being suitable or capable 
of being timely placed with another satellite.
    So my question is, after much consternation, are we going 
to have a Glory mission, and if so, what type of timeline 
should we expect?
    Mr. Diaz. Well, I assume that is for me.
    Mr. Green. Yes, sir.
    Mr. Diaz. Okay.
    Mr. Green. Thank you, Mr. Diaz.
    Mr. Diaz. Okay. Yes, we do have plans in place and are 
developing the elements for a Glory mission. The current 
situation is that the budget that we have supports the 
development of the instruments for a Glory mission with the 
expectation that we were going to fly those on a--one of the 
NPOESS satellites. In the current situation, with the review 
ongoing of the NPOESS satellites, we decided to continue the 
development of a spacecraft, which is a spacecraft that was 
partially built and is being built by Orbital Sciences here in 
the Washington area. We are continuing that with the 
expectation that over the course of the next several months we 
will make a decision as to whether or not to fly Glory as a 
stand-alone mission or to fly the instruments on a bus. If we 
fly it on a--as a stand-alone mission, we will need to complete 
the development of that spacecraft and then decide how to get 
it launched. But want to assure you that we intend to fly the 
Glory mission and are continuing to develop the instrument. 
There is some uncertainty about how we would ultimately get the 
instruments into space.
    Mr. Green. And a quick follow-up, if I may, Mr. Chairman.
    How have we budgeted the mission, because if we are not 
sure that it will be stand-alone or piggyback, how are we 
managing to budget that?
    Mr. Diaz. In terms of the runout, we have budgeted it, 
excuse me, as if it was going to fly on one of the NPOESS 
satellites. In terms of this fiscal year, the budget that we 
have available will support the continuation of the bus 
development. And what we will have to do, if we decide to fly 
it as a stand-alone, is to change the budget in the out-years 
during the fiscal year 2007 budget process.
    Mr. Green. Thank you, Mr. Chairman.
    I yield back the remainder of my time.
    Chairman Boehlert. Thank you very much.
    And I just want to make sure you appreciate the fact that 
this committee doesn't think that global climate change, global 
warming is a figment of somebody's wild imagination. I might 
point out, neither does the President. He recognizes it as a 
serious issue, as he should. But whether you are for or against 
on that argument, the fact of the matter is people on both 
sides recognize the importance of what Mr. Diaz and his people 
are doing and we are hearing from these distinguished 
scientists confirming the importance of that.
    Thank you very much.
    The Chair is pleased to recognize Dr. Schwarz.
    Mr. Schwarz. Thank you, Mr. Chairman.

           The Effects of Earth Science Cuts on Universities

    To my fellow University of Michigan Wolverine, Dr. Killeen, 
many universities have programs in Earth science and topics and 
subjects that are pertinent to Earth science that are pretty 
well developed, University of Michigan, of course, being one of 
them, but there are so many others. If NASA continues to 
decrease the size of what it does in Earth science and in the 
Earth sciences, how is that going to affect programs in places 
like Madison or Cambridge or Berkeley or Durham, New Hampshire 
or other places? Is this a deleterious effect, or does life go 
on without NASA going heavily into Earth science and 
aggressively into Earth science.
    Dr. Killeen. I think that there is a potential for a 
deleterious effect on the development of human capital in 
universities, such as University of Michigan, and other places. 
And I note that NASA has 34 percent of the national investment 
in Earth sciences. Most of that is--the predominant part of 
that is in satellites, platforms, database management systems. 
But there is also a very significant fraction in the research 
and analysis programs that extend into the research 
laboratories in the universities and from graduate students, 
undergraduate research topics, curriculum development efforts 
as well. And those are very vitally important programs, I 
think, across the Nation. So the research and analysis. And I 
think at the last reckoning that NASA is, like, ranked number 
third in terms of federal agencies in supporting that element 
of the program.
    These are important for our students as they come forward. 
I used to teach at the undergraduate level non-science majors, 
Earth system sciences, and I can tell you from firsthand 
experience that these young people coming forward in the 
universities are very interested in how the Earth functions, 
what is going on, and how they can play a role. We used to talk 
about the need for a pre-life course sequence as well as a pre-
med. course sequence in these major research universities. And 
the content of those curricular elements are similar to the 
slides that we have been showing today: sea surface, oceans, 
atmospheres, tectonic plates. NASA has provided really exciting 
content that is enrapturing our youth and building this human 
capital, and it is taking place across the country in research 
university campuses, certainly.
    Mr. Schwarz. Can I deduce from that that there would be 
fewer--and Dr. Moore, please jump in, if you feel like you 
would like to, there would be fewer graduate students, post-
doctoral scholars, research scientists on campuses were NASA to 
back off in their Earth science pursuits?
    Dr. Killeen. Well, I will defer to Dr. Moore, but certainly 
if the funding goes down, in terms of research grants to 
university campuses, and NASA is a substantial contributor to 
this arena, then there would be fewer opportunities for 
graduate students to come forward. And those are the very 
individuals that we expect to design and implement the new 
technologies that will be transferred to NOAA operationally 10, 
15, 20 years hence. So I think there is a pipeline of talent 
issue here.
    Dr. Moore. Well, we have already begun to sense the 
pressure on the research and analysis budget and how that 
pressure translates to the availability of graduate 
fellowships. And even though the fellowships say budgetarily 
are extremely small, under pressure, this begins to be felt, 
and we have already experienced it.
    Mr. Schwarz. Thank you, sir.
    And thank you, Mr. Chairman. I would yield back.
    Chairman Boehlert. Thank you very much, Doctor.
    The Chair recognizes Mr. Udall, who had a wonderful opening 
statement, and is going to spare us the reading of it. It will 
be inserted in the record with all of the other wonderful 
opening statements.
    But now we will go with you for your wonderful questions.
    Mr. Udall. You can all see why it is such a pleasure and 
how wonderful it is to serve with Chairman Boehlert.
    I did want to, in particular, welcome Dr. Killeen, and 
remind my good friend from the State of Michigan that Dr. 
Killeen now lives in my hometown of Boulder, Colorado, and I 
don't think he has gone to the dark side and supports the 
Colorado University teams, but----
    Mr. Schwarz. I thank the gentleman for yielding.
    Were he still in Michigan, I believe he lived in Dexter, 
and he would be a constituent of mine.
    Dr. Killeen. No need to fight over me.

                                LandSat

    Mr. Udall. I want to direct my questions at Mr. Diaz on the 
LandSat situation, but I did want to acknowledge Dr. McNutt, in 
particular, on the second page of your statement, where you 
talk about some of the long-term lessons you have put into 
place. And I think the Committee and the community would be 
well-advised to take a look at what you have discovered. So 
thank you. And I think it--there is an application across the 
board.
    Mr. Diaz, I mentioned LandSat, and as you know, the current 
LandSat 7 is now past its design life and operating in a 
degraded condition. How much longer do you--your engineers 
estimate that LandSat VII will remain operational?
    Mr. Diaz. If you don't mind, I have Dr. Asrar here with me 
who has been intimately involved in that, and I would ask him 
to come to the table and answer that specific question, if you 
don't mind.
    Mr. Udall. If you could do it with dispatch, it would be 
appreciated.
    Mr. Diaz. Yeah. He is right here.
    Mr. Udall. We would like to hear from him.
    Dr. Asrar. Thank you very much. My name is Ghassem Asrar, 
the Deputy Associate Administrator in the Science Mission 
Directorate.
    We have been working with our partners, NOAA and USGS, to 
do a complete assessment of the life expectancy, the 
reliability of the system. The current projection is that 
probably maybe two or three more years, although those are 
estimates. The same estimates that were used for LandSat 5, and 
we had projected LandSat 5 will not last longer than, probably 
eight or nine years. This is--I believe it is celebrating its 
15th birthday. So these are engineering estimates. Probably, 
maybe two to three more years. And then in parallel, we are 
looking at other sources of data to mitigate any risks 
associated with the discontinuity, should it come to pass. And 
so we are preparing for the worst and hoping for the best, as 
we will work our way toward the transitioning the LandSat 
capability into the national operational infrastructure.
    Mr. Udall. Thank you for enlightening us in that particular 
point.
    I noticed concern about a gap that may be produced that you 
are speaking to, but I want to ask Dr. Williamson, what user 
groups would be most affected if there is a gap in the flow of 
this data.
    Dr. Williamson. Well, there is a wide variety of user 
groups throughout the world that use LandSat data for 
environmental monitoring. As you know, the swath width and the 
resolution size of each pixel in the image is much broader than 
it is for, say, the commercial high-resolution satellites. And 
that has an advantage, if you are doing exploration of the 
coasts and understanding large-scale issues that are taking 
place along the coasts or inland. In your State of Colorado, 
for example, LandSat imagery was very important in the fires 
that occurred, what, now three years ago, I believe----
    Mr. Udall. Yes.
    Dr. Williamson.--just south of you. And it--those images 
really helped to understand the scope of the fire and the way 
it was progressing over a considerable amount of time. So you 
find a tremendous usage of those data throughout the world in 
similar kinds of projects. So losing LandSat would be a serious 
issue in part because it is a unique instrument. There aren't 
other instruments exactly like it. So it means that on the 
operational side, it becomes very difficult to take the data 
that you have been used to using from LandSat and then 
substitute other data and get the equivalent results. Other 
examples I could site would be down in Brazil, for example, 
watching the--tracking the deforestation in Brazil. The same 
thing in Russia and other parts of the world. And as has been 
already said, the environmental--major environmental changes 
that take place elsewhere in the world affect us as well. And 
we need to understand those better.
    Mr. Udall. Yeah. Well, the old saying, ``We are all 
downwind from everybody else in the world.''
    If the Chairman might indulge me just for another question 
directed back at NASA and Mr. Diaz.
    Given what we have heard and I think what we understand 
about LandSat, what are you doing to address this potential 
data gap, and how much money are going to budget to obtain 
LandSat-like data from alternative sources?
    Mr. Diaz. Again, Dr. Asrar is involved in actually working 
that, so let me ask him to come back and talk about that.
    Mr. Udall. If I could, too, Mr. Chairman, I would like to 
submit some additional questions to NASA----
    Chairman Boehlert. Sure. That would be----
    Mr. Udall.--along this line of questioning, but if we have 
a minute to hear----
    Chairman Boehlert. Sure. As all Members of the Committee 
are going to be afforded that opportunity, and we would 
appreciate, obviously, timely responses.
    Doctor?
    Dr. Asrar. Mr. Chairman, and again, thank you for the 
opportunity.
    Given the sort of broad reach of LandSat, its utility 
throughout the government, we at NASA haven't been doing this 
unilaterally. We have been working with all of our sister 
agencies and the Offices of the Office of Science and 
Technology Policy to develop a national plan for dealing with 
the potential data gap. And all of the users are at the table: 
U.S. Department of Agriculture, U.S. Geological Survey, 
Department of Interior, and NOAA. So the plan that we are 
developing, given that it is a work in progress, we thought of 
scoping what is required and what are the sources of data and 
which part of the data could be obtained through international 
cooperations. For example, the 33-year record of LandSat data 
is something that everybody is benefiting from. But there are 
other nations, like India and, as of late, China, who have 
developed comparable capabilities. They have these type of 
observations. On the EOS spacecraft, there is an instrument 
called ASTER that has comparable LandSat capability with much 
reduced swath, about 60 kilometers. We have another technology 
demonstration satellite on orbit called Earth Observer I that 
has comparable LandSat capabilities. So we are going to bring 
all of the data sources together, regardless of whether the 
government-owned or internationals to fulfill the LandSat data 
continuity needs, and depending on what are the best solutions, 
identify the resources within the government to fulfill that. 
The major commitment is to maintain the continuity and whatever 
resources are required to make it happen, I am pretty sure our 
government will be up to supporting that.
    Mr. Udall. Thank you, Doctor. I think we are all concerned 
on this panel that data conversion, that data integration is 
still a very complicated and challenging one, and I think Dr. 
Williamson put it very, very well.
    Chairman Boehlert. Thank you very much.
    The gentleman's time has expired.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Well, I don't want to destroy the 
wonderful spirit that we have at work here, but I do have 
some--a couple pointed questions, maybe. And Mr. Chairman, it 
might be nice to have at least one person on the panel who can 
actually stimulate the discussion by having a different point 
of view. And just my suggestion in the future.
    Chairman Boehlert. We always rely on you for that.

                        Climate Change Research

    Mr. Rohrabacher. All right. I just can't tell you how, you 
know, just enlightening it is to understand that we are still 
considering another global warming mission. You know. Glory. I 
mean, just--I mean, how many billions of dollars do we have to 
spend on this? I mean, is it actually going to change global 
warming to have yet another satellite up there? My calculations 
since I have been here, that we have spent tens of billions of 
dollars trying to prove global warming, and every budget that 
we pass has this. And let me note something that happened, Mr. 
Chairman, when I first--not when I first came here, but sort of 
a few years into my tenure on this committee. A very high 
ranking official from NOAA came to see me to tip me off that El 
Nino was going to happen in six months and it would hit 
California. You know, we would hit it in about six months and 
the effect that it would have. And let me note he was exactly 
right. And that was--it really impressed me. And I said, ``Gee, 
these guys really are focusing on some things that are 
useful.'' And being a surfer and everything like that, I really 
wanted to know the water was going to be warmer and the--more 
fish and there might be some forest fires because of the rain 
coming down, et cetera.
    Anyway, the same fellow, by the way, in a hushed voice, 
leaned over to me and said, ``Just to let you know, but don't 
tell anybody that I told you, but all of these calculations 
about global warming that they have made so far, they haven't 
taken into consideration the cloud cover on the days that the 
temperatures were taken. You think that might have something to 
do with whether or not they have a valid calculation?'' And 
then--he was afraid to say that in public, but he sort of 
whispered in my ear. I just--you know, it just amazes me when 
you hear that so much what I would have to say is just fear, 
expressions of fear when the President starts talking about 
making just a restructuring of how we house and where we put 
research in the government.
    Let me ask Dr. McNutt. I mean, you stated--I mean, this 
goes--this is something that I just would like to know how you 
justify this that somewhere from its root of the technological 
program that feeds innovation, the program would eventually die 
and wither--or wither and die. Aren't there just research 
programs that don't have to also have people who put machines 
together? And what makes you think that all research is going 
to wither and die if not tied directly to the technology that 
implements the research?
    Dr. McNutt. What I meant by that is that if we--all we need 
to do is take the same sensors we already have and continue to 
fly them in space with no changes, no upgrading, then we 
probably could hand those off to another agency and put it just 
in maintenance mode. But I don't think anyone on this panel 
would support the idea that there won't be newer and better 
measurements that really need to be made to answer some of 
those questions. For example, you bring up the issue of cloud 
cover. Cloud cover has to do with aerosols. Aerosols are one of 
the most, right now, unknown parts of the climate formula. And 
putting new sensors in space would allow us to take some of 
those hushed questions that you are hearing behind closed doors 
and actually answer them so that we can make predictions for 
climate change.
    Mr. Rohrabacher. I guess all of those clouds, you know, in 
the past that people talked about before we had aerosol cans 
were just not really relevant to whether or not the Earth has 
changed its weather patterns over these last----
    Dr. McNutt. Well, we are talking about aerosols not in 
aerosol cans, so to speak.
    Mr. Rohrabacher. Okay. Let me note that other testimony 
that I have heard here indicates that a lot of our investment 
that we--that even NASA already has in space, you know, our 
Earth Observing System, et cetera, that we have enormous 
unanalyzed data. Isn't this a travesty that here we are talking 
about how important it is to keep NASA in the loop, but here it 
has organized itself in a way that the product of what we are 
getting out of the investment, a huge amount of this data 
remains unanalyzed? Why--wouldn't we think that perhaps it 
might be better to give some other agency that is actually more 
oriented towards analysis and research some authority here 
rather than just keep giving it to the engineers that run NASA? 
Go right ahead. I mean----
    Dr. Moore. I would like to comment on that.
    I think that there was a time when your statement was true. 
But I don't think that is the current situation. And I believe 
that it is not the current situation because of actions of NASA 
and also of the technological infrastructure of the United 
States and the planet. Today, undergraduates and high school 
students and graduate students, and even aging professors, look 
at NASA data every day on our desktop. It is remarkably easy to 
analyze these fire hoses of data, which 10 or 20 years ago, 
with punch cards, it was a very tough thing to do. So in a 
sense, modern society has caught up with Earth observation. And 
I do think you were correct in your assessment, but I don't 
believe it is where we are today.
    Mr. Rohrabacher. But does that still mean NASA has to 
continue to be the vehicle? I mean, I just--it----
    Dr. Moore. I think the issue here is that NASA is the 
primary R&D Earth observing organization. And as such----

                          Research Priorities

    Mr. Rohrabacher. But the question is whether it should be 
or not. I mean, when we are talking about--NASA has its 
missions, you know, and here we have--it has evolved into what 
it is today. And when--I don't imagine there is anyone on the 
panel that would disagree with a hypothesis that there is some 
research that the government pays for that is less deserving 
than other research. I mean, I imagine there are--even among a 
panel that is so committed to assign money for research, there 
is some research that would be better--the money might be used 
elsewhere. Well, when you restructure--and like the President 
is talking about, that is when you get rid of things that 
aren't worthy of the investment. That is where you make your 
choices as to what should have priority. And if you never 
restructure, it is just going to continue like it is, which is 
yet another global warming project, yet another global warming 
project rather than having a--or whatever the projects are, 
rather than trying to find out what things are more valuable 
with the use of government money. When I was--I am sorry I am 
going on here, but let me just note this that when I first--
when we first got the majority and I was the Chairman of the 
Subcommittee on Environment and Research--and Energy Research, 
I looked over all of the different projects that were being 
funded, and I said, ``How are we going to cut the budget, and 
how are we going to make sure the money is being best spent?'' 
And I just looked down and said, ``Which one of these projects 
is spending the most money and having the least results?'' And 
it happened--I know everybody is going to get mad, fusion 
energy happened to come up, and of course, the academic 
community has never forgiven me for that. But the fact is, they 
hadn't come up with the results that other people were coming 
up with. And shouldn't we have a restructuring, in some way, 
that lets people use our science money in the most--and channel 
it towards the--actually the most sufficient rather than 
keeping on--always keeping on the project. Once it is--you 
know, once it is funded, it has eternal life. And I will leave 
that question with the panel. But----
    Mr. Schwarz. [Presiding] The gentleman's time has expired.
    The gentleman from North Carolina----
    Mr. Rohrabacher. If the Chair would indulge Dr. Killeen, 
just--he had something he wanted to say about that.
    Mr. Schwarz. University of Michigan, anything. Keep it 
brief.
    Dr. Killeen. Thank you. Thank you very much for those 
challenging comments.
    I think, on the panel, we are talking about an end-to-end 
system of research--education, research innovation, transition 
to operations, support for the societal needs. They are quite 
practical, in fact. The element that we are emphasizing, 
because we were asked to, was the NASA element, which has been 
the R&D, the technology development, the invention of new 
instrument types, et cetera, as opposed to the deployment of 
operational systems. So that said, I think if we were--and we 
could all defend NOAA. In fact, my institution works closely 
with NOAA on next-generation weather forecasting and all sorts 
of things, and they are great people and do a wonderful job.
    But if you think about the NASA's past contribution, which 
we have tried to highlight, in terms of technological 
innovation that has meaning, for prediction of El Nino, for 
prediction of the five-day weather forecast, for the prediction 
of what is going to happen in the next two hours in an airport 
when you are landing, for prediction of next season's thermal 
structure in the Northeast where the natural gas needs to 
deploy natural gas on a delivery, those are all things that 
society needs for which we need a knowledge base. And I think 
what might be at risk if NASA pulls back from its R&D mission 
in the Earth sciences, is developing that knowledge base that 
will support those kind of systems and tools into the future. 
And I could go on on this, but I won't.
    Mr. Schwarz. The gentleman from North Carolina, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.

                                  TRMM

    Just following up on that, there have been several members 
of the panel, and of this committee, who have pointed to Earth 
observation as not something that simply satisfies a curiosity 
of academics or as, perhaps, and employment program for 
academics, but it has a definite application. And certainly in 
weather forecasting, it is useful to look at the comparison. 
This last--of where we are now and where we have been. This 
last year, we had an unusually active hurricane season. I think 
most of us who live on the East Coast watch with fascination 
the storms form on the west coast of Africa and march across, 
westward across the Atlantic, and make landfall here. We had at 
least two storms that were category four, which is an unusually 
powerful hurricane. Hurricane Charlie hit--made landfall in 
Florida. It was a category four. It resulted in 31 deaths, 
which is, of course, tragic. Hurricane Ivan also struck as a 
weak category four and resulted in 49 deaths, including 10 in 
North Carolina, largely as the result of flooding from heavy 
rains. And of course, that was tragic, too.
    But the comparison of the kind of damage that came earlier 
in our history when we were much less populated but did not see 
it coming is dramatic. In, I am sorry, 1893, a storm of unknown 
intensity made landfall in Louisiana. The estimate is that 
there were 2,000 deaths from that storm. That same year, again, 
a storm of unknown intensity, made landfall in South Carolina 
and Georgia. The estimate of the loss of life is at 21,000. And 
of course, in 1900, the--what we now estimate to be a category 
four storm, hit Galveston without warning and resulted in eight 
to 12,000 deaths. And in 1928, a storm struck with very, very 
little warning in Florida and resulted in 1,800 deaths. That is 
a striking contrast, the level of loss of life that we suffered 
when we did not see it coming and could not prepare versus what 
we see coming--versus where we are now versus where we were 
then in our ability to prepare and how much difference it 
makes. And I certainly do hope that we grown in our ability to 
foresee other natural disasters and to forecast them to predict 
their--predict and prepare.
    Mr. Diaz, I had a couple of questions about what NASA has 
decided, in at least one case, and more importantly, I think, 
how you decide. Last year, Japan announced that it was 
withdrawing from the partnership for the Tropical Rainfall 
Monitoring Mission, TRMM, and NASA initially announced that it 
would discontinue TRMM, even during that hurricane season. And 
the evidence, I think, or the belief of scientists is that the 
information from TRMM has aided in the forecasting of 
hurricanes, their intensity, and their path and I think largely 
because of the intervention of Members of Congress. Mr. 
Boehlert wrote a letter, Chairman Boehlert wrote a letter. Mr. 
Lampson from Texas, who I think was then Chair of the--or 
rather Ranking Member of the Subcommittee on Space and 
Aeronautics wrote a letter to object and ask at least that TRMM 
continue in operation through the end of that hurricane season. 
Dr.--or rather Admiral Lautenbacher, is that the correct name, 
who is the Undersecretary of Commerce for Oceans and 
Atmosphere, which I think has jurisdiction over NOAA, wrote to 
Mr. O'Keefe and asked and said given our growing dependence on 
these NASA satellite instruments, I would appreciate an 
opportunity to work with you to develop a more formal mechanism 
for dialogue with NASA as--well in advance of any termination 
date for research data streams.
    Mr. Diaz, you said that there is an awful lot of dialogue, 
I think was your phrase earlier, with the other agencies that 
depend upon NASA. Is there now--actually, Admiral Lautenbacher 
asked for a joint working group. And it is apparent that he 
thought that NOAA had been left in the lurch, simply being told 
that NASA was discontinuing the TRMM project.
    What are current plans for TRMM, one? And then second, are 
you doing anything to develop that formal mechanism for 
dialogue so that the other agencies that depend upon NASA do 
not simply find out from reading the newspapers that NASA is 
discontinuing programs that they depend upon?
    Mr. Diaz. Thank you for that question.
    And let me start by saying what the current status is of 
TRMM. Just--TRMM is currently being operated, as it always has 
been, and it will continue to be operated until such time as 
either one of two situations occur: either it becomes clear 
that it will exceed the hazard criteria associated with 
uncontrolled reentry that NASA policy requires for us to take 
action at, or until it becomes clear that it is no longer 
valuable as a resource or is less valuable than is worth 
continuing.
    Now I will say that in the case of the former, we have some 
standards, and we have continued to look at the condition of 
the satellite and its ability to do a controlled reentry and 
have always had that capability.
    In the case of the latter, that is the value associated 
with it, there was no formal process in place that had us 
interacting with NOAA or, for that matter, the rest of the 
community.
    In the case of TRMM, there was a joint working group put 
together under the auspices of OSTP, and we came to the 
conclusion that TRMM ought to be continued as long as there was 
no hazard associated with it. And so we are in the process of 
continuing to monitor when that action would have to be taken, 
the de-orbit action.
    But in the case of this value issue, we have put in place 
what is called a senior review process, which is much the same 
as the review process that we have in space science that will 
periodically, typically every several years, look at the 
continued--or look at the fleet of missions that are available 
to continue and prioritize them with respect to continuing them 
from the standpoint of scientific value. And in fact, as we sit 
here, the first of those senior reviews for the Earth science 
satellites is currently ongoing.
    In terms of what the expectation is with respect to TRMM, 
we think within the next several months we will have to make a 
decision about deorbiting the TRMM mission. And if you don't 
mind, I would ask Dr. Asrar, who has more details, if you need 
anymore details, to go beyond that.
    Mr. Schwarz. Thank you.
    The gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I just want to mention briefly that before my colleague 
from California, Mr. Rohrabacher left, I entered his rhetorical 
question about how many more missions we would need on global 
warming, and I said, ``We will probably keep doing them until 
you believe it is true.'' And I told him he had the power to 
stop the missions.

              Transferring Earth Science From NASA to NOAA

    Having said that, Earth science is a very important part of 
NASA, and I have to say, even though I am a scientist, when 
this was first discussed, I thought, ``That is kind of a waste 
of money. Why should we waste all of that space hardware on 
Earth observation?'' But I was dead wrong, because there is so 
much you can do from space in terms of Earth observations. And 
we often tend to neglect, as I did in my initial response, 
neglect our own planet. A good example of that is we had 
several thousand people now climb Mt. Everest. We had 100 or 
more--several hundred astronauts go into space, and we have 
only had two people exploring the depths of the ocean really at 
very significant depths. We tend to neglect our own planet. And 
I, during the Easter recess, gave lectures at two major 
universities on different parts of the country, but these are 
both on the top of American universities. And in both cases, 
the Earth scientists sought me out and said, ``We are very 
concerned about what is going to happen with Earth science if 
NASA pulls the plug.''
    Well, I understand you are not quite pulling the plug, but 
you are saying, ``We will just move it over to NOAA.'' NOAA 
does not have the capability at this point. You can't simply 
expect that if new sensors are developed we can just plop them 
on one of the weather satellites. There is compatibly issues, 
scheduling issues. I think it is--in view of NASA's excellent 
record on Earth observation, they have to continue to be 
involved, and not just say, ``Okay, we will help design the 
sensors. We will put them up into space, but it is going to be 
your satellites. You have to manage that somehow.'' I am really 
concerned, too. It sounds as if NASA--NOAA has not been heavily 
involved in any way in the planning of this. If I am mistaken 
on that, I would like to know. But it sounds to me like the 
real problem is that NASA is low on money because you have been 
given big new missions, and you don't--weren't given the money 
to do it, so you are cutting and scraping as much as you can to 
get rid of what you regard as non-essential to the new 
missions. And I believe it is very important for you to 
continue to be heavily involved in Earth science.
    And so I just think it is essential for us to keep a robust 
Earth Observation System going and both at NOAA and at NASA. 
They are complementary. And if we are going to transfer over to 
NOAA, what you suggested could go over to them, we are going to 
have to transfer some money from NASA to NOAA to do it, because 
we are not going to find any new money these days. Since they 
are both in the same Appropriation Subcommittee, I suspect it 
would be quite easy to make that transfer.
    So if you are trying to save money, you may not end up 
saving money by doing this. I would be happy to listen to any 
responses from anyone on the panel.
    Mr. Diaz. Well, I would like to make sure that we don't 
leave the impression that--number one, that this is being done 
unilaterally. We are in conversation with NOAA very frequently, 
and we do have agreements in place for many of the elements 
individually. What we don't have in place is an overall 
strategy that is articulated that does what I have mentioned. 
And so I do think that if NOAA were sitting here today, they 
would recognize the fact that the things that we are talking 
about transferring or the things that we are talking about 
doing jointly, and I would rather think of it as things that we 
are talking about doing jointly as opposed to sending them 
things that we ought to be doing----
    Mr. Ehlers. I hope you would, but I would also point out 
something else you don't have, and that is the approval of the 
Congress. Please remember that.
    Mr. Diaz. Okay.
    Mr. Ehlers. You may proceed.
    Mr. Diaz. And the--in any event, I just wanted to make sure 
that we did register that NOAA is involved in these 
conversations and I think would acknowledge that, if they were 
here.
    Mr. Ehlers. I appreciate that.
    Anyone else wish to comment then?
    Dr. Killeen? Anything from Michigan.
    Dr. Killeen. Repeating theme.
    I would like to comment on that. The central point of my 
testimony, for example, today is that a fundamental 
restructuring of the national program, which is what we are 
talking about here, should be done very carefully, 
deliberatively, with appropriate assessment of the effective 
contributions of the component parts. I do believe that the NRC 
decadal survey that is being commissioned by NASA and NOAA is a 
critically important part of that. It will take time to fully 
come to grips with it. We are not looking at the final report 
here, and I am not part of that panel. I am on the outside. But 
that assessment, I think, is essential to be so that all of the 
``I''s are dotted and all of the ``T''s are crossed and so 
there is confidence in the communities that are invested in 
this and in the Nation that we will be able to proceed forward 
with this big enterprise.
    Mr. Ehlers. Anyone else?
    Yes, Dr. Williamson.
    Dr. Williamson. I think nobody on this panel would disagree 
with the importance of occasionally restructuring how we think 
about our research and applications effort in Earth science, 
but I do think that we differ in detail on some of these 
matters probably, but in general, I feel that dropping or 
delaying longer missions like GPM and so forth, which are very 
important, not only to research, but to helpful and beneficial 
applications is probably not the way to go.
    Mr. Ehlers. All right. I thank all of you, and I want to 
reassure you, Mr. Diaz, this--my questions and statements 
probably sounded antagonistic. They were not intended to be 
that so much as a warning. This is something--we regard this as 
a very major change, and it is going to take a good deal of 
work, hard work and coordination between yourself and NOAA, if 
it is to take place, and also the concurrence, and I would also 
say, involvement of both the research community and the 
Congress.
    I--as a research scientist, I know how complicated research 
science is and how essential it is to plan well. And it can't 
be something that is just done because you want to get out from 
under the financial burden. I hope it is--the goal on your 
part, as well as NOAA's is to improve the science that is done. 
And if you can do that and improve efficiency at the same time, 
we will certainly be open to looking at that.
    Thank you very much.
    Mr. Diaz. Well, thank you, Mr. Ehlers.
    Mr. Schwarz. The gentleman's time has expired.
    Mr. Costa from California.
    Mr. Costa. Thank you very much, Mr. Chairman.

        Use of Earth Science Programs to Manage the Water Supply

    I, too, share a similar feeling that the gentleman from 
Michigan expressed that I think many of the Members of this 
committee feel in terms of the prioritization for the Earth 
sciences program within NASA's budget.
    I have been informed that Dr. Williamson and perhaps Dr. 
Killeen might be best to address a question that I have. For 
many years, I have been involved on the application of 
addressing California's current and long-term water needs. We 
have a saying in California that water is the lifeblood of our 
state and if you want to understand how California has 
developed economically and socially, you can trace it to one 
resource issue, and that is how we have managed our water 
resources.
    But I think it is applicable, frankly, as it relates to the 
world. I think one of the sweeping issues we have today is the 
availability of water to sustain our population throughout the 
world and not only for communities for water quality, but also 
to provide for our crops, which obviously provides the 
sustenance.
    I am concerned, Dr. Williamson, about the applicability, as 
we look at our water management tools in our water toolbox, 
about the availability of the use of the Earth science program 
and specifically the satellite technology as we try to address, 
not just in California's case, but throughout the country, 
availability of water as we try to forecast for crop 
productions and crop--annual crop yields as we try to attempt 
to ensure that we are doing our best to manage our water 
resources.
    Would you care to comment?
    Dr. Williamson. Yes, I will. Thank you.
    You know, a famous poet once wrote that there is water, 
water everywhere, but not a drop to drink. And it usually is 
thought in that case, specific case, it applied to the ocean. 
But we are beginning to face that in critical areas around the 
world and certainly through the United--throughout the United 
States. And in your State of California, you have faced, over 
the years, a lot of concerns about that issue. And I appreciate 
that.
    One of the tremendous advantages of satellite technology, 
and supported by adequate research, is the ability for 
satellites to see areas together in a so-called synoptic view, 
all together at one time. And that ability to gauge water 
resources by observing the quality of water in large freshwater 
areas and observing the sources of water in--especially in the 
State of California. A lot of your water is supplied by the 
snow in the wintertime in the northern parts of California and 
the states somewhat east of you. And in fact, we can begin to 
understand how much water is available by looking at snow cover 
and snow depth and so forth, and satellite imagery, satellite 
measurements of all kinds are very useful in that endeavor.
    So there are a number of different applications that are 
possible, but we need better science to support those 
observations, and I know that NASA has a program to look at 
those kinds of things and that certainly needs to be continued. 
GPM is a good example of a system that would assist in that 
effort.
    Mr. Costa. Dr. Killeen.
    Dr. Killeen. May I comment, too?
    Mr. Costa. Sure.
    Dr. Killeen. The problem with a regional access to water is 
a wonderful case study of this need for Earth system science to 
produce decision tools to help predict and manage resources 
regionally. And in my testimony, I hope--I was trying to make 
the case that we are on the threshold of being able to do that 
with regional fidelity that is unprecedented, and the U.S. is 
in the leadership in this arena. If you think about water in 
California, it is dependent on snow. It is dependent on 
precipitation. It relates to El Nino and La Nina cycles that 
Mr. Rohrabacher was talking about.
    Mr. Costa. We used to think that droughts lasted five to 
seven years. Today, by new studies that have come out, it is 
estimated historically that droughts have lasted anywhere from 
50 to 70 years because of new science that has come forth.
    Dr. Killeen. There are long-term droughts that have lasted 
longer than that in the continental United States in the 
historical record, and so we need to understand the factors, 
the harbingers that will--would change materially the provision 
of water to states like California. It means a regional 
decision support system, which is going to be derived from 
satellite data sets, data resimulation into numerical models, 
large computational models that have fidelity and that are 
tested continued against reality to make sure that they work 
and they are real. And these are the sort of important 
scientific underpinnings for management of natural resources, 
such as in your state.
    Mr. Costa. Thank you.
    Mr. Schwarz. Thank you, Mr. Costa.
    The gentlelady from Texas, Ms. Jackson Lee.

               Effects of Decreased Earth Science Funding

    Ms. Jackson Lee. Thank you, Mr. Chairman, very much, and I 
thank the Ranking Member for I think what is a very important 
hearing. I think, as I look at the panelists whose testimony I 
will review, and I thank you for your indulgence of the several 
meetings, and even meetings in the anteroom with constituents. 
But Mr. Diaz, let me thank you very much for your service. And 
I think I will focus more particularly on some of the others. 
And I will ask a broad-based question.
    Let me just let it out of the bag. I am a strong supporter 
of the human space flight and the Shuttle. I come from Houston. 
But I have been on this committee now for going on 10 years, or 
maybe almost 10 years. I have never stepped away from the 
valued importance of Earth science. And it disheartens me to 
know that our government is in the horns of a dilemma in 
borrowing from Peter to pay Paul, unnecessary, from my 
perspective. Now it seems to me that there is dynamic research 
going on in the private sector, academic institutions. So I am 
going to be asking broad-based questions. I want to know if 
that is the case. I want to know what value it is to have a 
government entity actively engaged in Earth science, you know, 
how does that--you know, we have always heard the story that 
the Internet generated out of DOD and look where we are today. 
And somebody might want to--I think someone is smiling because 
of who may have taken credit or not. But the point is that we 
know that it was a government-based energy that came forth.
    So I want these broad-based questions which is, you know, 
how are we harmed if we diminish our efforts in Earth science. 
That is the first one. That perilous route are we now taking by 
the government's major cuts that we are now experiencing and 
suffering in the Earth science area? Mr. Diaz has to defend a 
budget that I think is non-defendable. And then, in particular, 
I want to speak about what Earth science NASA has been able to 
do and that is dealing with the NASA Global Precipitation 
Management satellite and the fact that we have had to cancel or 
scale back most Earth science missions, this satellite is to be 
coordinated with launches of related satellites by other 
nations, was first scheduled to be launched in 2007, currently 
launching in 2010, and would be considered on schedule. 
Obviously, it is not on schedule because of the budget.
    The other point that I wanted to be pointed about, I went 
to Sri Lanka right after the tsunami and walked the streets, 
heard the stories of our government officials, meaning embassy, 
heard how they got a call, how they heard and thought that 
someone in Hawaii had heard something but had no ability to 
communicate it, and so it was an enormous tragedy, and to 
understand that NASA has the capacity, potentially, to detect 
that kind of, forgive me for being a non-scientist, that kind 
of disturbance, that kind of disruption, that kind of notice 
that might have been given to those ocean-based persons, and 
they could have had a greater saving of life.
    So there is Dr. Moore, Dr. Killeen, I believe, Dr. Solomon, 
Dr. McNutt, Dr. Williamson, and is there--is that, Dr. 
Williamson, going that way. Would you kindly--my light is still 
green, but I am going to yield to you. If you could just 
quickly go down the line with those bullet points: the perilous 
route that we are taking, how we are suffering with not doing 
this Earth science at the pace I think we should.
    Thank you, gentlemen and lady.
    Dr. Moore. Yeah, I think these cuts are significant, and 
therefore, they are damaging. You could not have significant 
cuts and not have damage. An analogy that I have used earlier I 
would like to return to. The United States government helps 
ensure the medical care for this country through the National 
Institute of Health. The NIH funds fundamental research in 
medicine throughout the country, both at universities and in 
the private sector and in national labs. NASA plays, in a 
unique way, that same role. The uniqueness is in the Earth--the 
ability to have the Earth observing from satellites. And so 
when we begin to cut into that research base, we do damage.
    Ms. Jackson Lee. Thank you.
    Dr. Killeen.
    Dr. Killeen. I would say that----
    Ms. Jackson Lee. And now we are on the beige light. The 
next light is red, so we--and it is facing me, not you, but--so 
that is----
    Dr. Killeen. I think the Nation does stand to be damaged 
with a reduction in--major reduction in support in the Earth 
sciences and the NASA contributions there. You asked how will 
we be harmed if this--it is hard to be precise in quantitative 
terms, but we are a knowledge-based society, and we will be 
reducing the amount of knowledge we will have in the future to 
support decision-making. If you only think about the ozone hole 
and what that meant to us and the fact that NASA, in fact, was 
the agency that allowed--it was provided the smoking gun that 
gave us the relationship between chlorine--man-produced 
compounds and loss of ozone, and we were able to understand 
that problem and then react to it with international protocols. 
One gets a sense that this is an important capability that we 
need to sort of maintain for our community.
    I am most concerned about the pace of change. Rapid change 
in an enterprise like this can cause irrevocable damage, not 
only to the building systems but also to the human capital and 
infrastructure for Earth science research.
    Ms. Jackson Lee. Dr. McNutt? Oh, Dr. Solomon.
    Dr. Solomon. Let me give a quick answer on top of Dr. 
Killeen, and then Dr. McNutt can respond.
    I think the danger in not carrying forward as ambitious and 
thoughtful a program in Earth science as we can afford is two-
fold. One is knowledge, as others have said. And we have heard 
examples all morning and into the afternoon where space gives 
us an opportunity to track hurricanes based--you saw firsthand 
the tragic consequences of a tsunami where having in place more 
sensors and the capability to convey warnings would have saved 
lives. The same is true with volcanic eruptions. The same may 
be true some day with earthquakes themselves. So that knowledge 
is an opportunity cost that is very hard to gauge. But the more 
we have, the better we can deal with the inevitable changes to 
our--to Earth. We are not going to stop tsunamis, and we are 
not going to stop volcanoes from erupting, but to know that 
they are going to happen and to have warning systems in real 
time can make a real difference.
    The other loss that we could sustain if we cut back, and 
any program as ambitious as Earth science and space or human 
space flight, which is something that you follow, is the loss 
of interest of the next generation. I think these programs are 
enormously appealing, and the young people who are choosing 
what careers to go into, they are very smart, and they can 
see----
    Ms. Jackson Lee. Trends.
    Dr. Solomon.--trends. They can see where there is going to 
be interesting things to do 10 or 20 years from now and where 
things are shutting down.
    Ms. Jackson Lee. I think that is the greatest devastation. 
You are absolutely right.
    Dr. McNutt.
    Dr. McNutt. Yes. I wanted to briefly comment on the tsunami 
and NASA's role in it. Your reference was indeed right that the 
adjacent altimeter satellite was in the right place at the 
right time, that it detected the tsunami wave. That was, I 
think, a chance occurrence. One couldn't count on that as a 
reliable warning system, and I think you have already heard 
testimony of systems that could be put in place.
    I will mention, however, another NASA contribution, and 
that was in the immediate aftermath of the tsunami, NASA 
satellites were able to record, with quite high fidelity, the 
damage that was done by the saltwater that affected the crops, 
the forests in the area. This kind of information was important 
for assessing what the economic damage would be and where help 
most needed to go in order to bring relief to the affected 
populations. So I don't think NASA can be blamed for lack of a 
warning system, but I think they should get some credit for the 
relief efforts.
    Ms. Jackson Lee. I was not intending to blame. I was saying 
that enhancing what they had could, in fact, have put us in a 
better position that Earth science is valuable.
    Dr. Williamson, thank you.
    Dr. Williamson. Yeah, well, I--as you have noticed from my 
testimony, I tend to focus on the more practical aspects of 
whether the outcomes of research and so forth. And it is 
certainly true that our store of previous research and 
knowledge that we have built up over that period has 
contributed tremendously, not only to our quality of life, but 
directly to the economy. And I notice that we have suffered a--
somewhat of a reversal in the economic growth in the last 
quarter over the previous quarter.
    One of the things that needs to be thought through in these 
efforts is how the Earth science program actually contributes 
to the economy. And I think it is a substantial contribution 
and certainly NASA's research, starting at the beginning, 
basically, it is basic research that provides the foundation 
for these wonderful applications that we all benefit from 
really needs to be continued and at a reasonable important--you 
know, pace, if you will, and amount.
    Ms. Jackson Lee. Mr. Chairman, I want to thank you very 
much, one, for your indulgence. If I might just ask unanimous 
consent to have my statement, my full statement placed in the 
record and just place on the record the fact that this is a 
very important hearing, particularly for those of us who are 
advocates of space exploration, and to say that we are not 
advocates of borrowing from Peter to pay Paul or advocates from 
taking from one program or another.
    I happen to be a strong supporter of the International 
Space Station, and I think there is a wonderful partnership, 
potential partnership between Earth science research and the 
Space Station. The most devastating aspect of the testimony of 
all of the distinguished gentlemen, including Mr. Diaz, who I 
thank for his service, is that we are killing--to use a very 
strong and harsh term, we are killing the spirit of the future 
scientists of America, and I think we would do a disservice to 
do that. I hope we can find a way in this bipartisan Committee 
to restore some of the funds for Earth science.
    I thank the gentleman very much.
    Mr. Schwarz. Without objection.
    Mr. Diaz, Dr. Moore, Dr. Killeen, Dr. Solomon, Dr. McNutt, 
Dr. Williamson, this has been a very edifying morning for all 
of us, for me especially. I appreciate your coming to testify 
before the House Science Committee. And if there is no 
objection, the Committee is adjourned.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Alphonso V. Diaz, Associate Administrator, Science 
        Directorate, NASA

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  You stated at the hearing that ``We are in conversation with NOAA 
very frequently, and we do have agreements in place for many of the 
elements.. . . [I]f NOAA were sitting here today, they would recognize. 
. .the things that we are talking about transferring or the things we 
are talking about doing jointly.'' Please provide any Memorandum of 
Understanding or other document relating to NASA working jointly with 
NOAA, or transferring projects or project elements to NOAA.

A1. The NASA-NOAA partnership is governed by the NASA-NOAA Basic 
Agreement, with annexes to address specific areas. The two agencies are 
currently working on an annex to cover research and operations 
transitions that are now under study. NASA and NOAA also have an 
agreement with CNES and EUMETSAT on an operational ocean topography 
mission. Copies of these agreements are attached.

Q2.  You also said at the hearing, ``What we don't have in place is an 
overall strategy that is articulated that does what I have mentioned.'' 
Are there any plans to articulate such a strategy? Who would have to 
approve such a strategy at NASA, NOAA and the White House?

A2. OSTP has provided specific guidance on the incorporation of 
Landsat-type instruments into the NPOESS program as the means to secure 
long-term continuity of land cover remote sensing. More broadly, the 
Executive Branch has developed and approved a strategic plan for an 
Integrated Earth Observation System as the U.S. contribution to the 
Global Earth Observation System of Systems. This plan primarily covers 
the operational components of a national observing system. The research 
components are coordinated through various interagency programs, 
including the Climate Change Science Program. Both operational and 
research observation plans are coordinated through the U.S. Group on 
Earth Observation (USGEO) of the Committee on Environment and Natural 
Resources of the National Science and Technology Council. The USGEO is 
co-chaired by officials from OSTP, NASA, and NOAA. In addition, senior 
officials from both NASA's Science Mission Directorate and NOAA are 
Principals of the Committee on Environment and Natural Resources and 
must sign off on CENR plans.

Q3.  The first recommendation of the Academy panel is that the Global 
Precipitation Mission (GPM) be launched without delay. It is unclear 
whether GPM is funded at an adequate level in the FY06 budget proposal 
to be able to achieve this launch schedule. The FY 2005 budget request 
reduced the funding for GPM to allow for a 2012 launch date. The FY 
2006 budget maintains this reduced funding level, despite stating that 
GPM is now scheduled to launch in 2010. Is GPM funded at the level to 
allow for a 2010 launch? How much funding must GPM have to ensure that 
the mission launches in 2010?

A3. GPM is a mission in formulation, and therefore does not have a 
fixed life cycle cost. In FY 2006, NASA has requested $24 million to 
support a 2010 launch date.

Q4.  As part of the procurement for the GPM Microwave Imager (GMI), 
does NASA plan to include two high-frequency channels (specifically, 
166 and 183 GHz) for the instrument? If not, why not?

A4. The two high-frequency channels are options, as is a second GMI 
unit, in the current contract with Ball Aerospace Technologies 
Corporation to develop and build the GPM Microwave Imager (GMI). The 
decision on exercising the high frequency option will be made based on 
scientific merit and cost during the next several months.

Q5.  In your testimony, you mentioned that NASA is participating in a 
Joint Research to Operations Working Group with NOAA. What is NASA's 
funding level for this working group? Please describe the results of 
the interactions between NASA and NOAA within this working group so 
far.

A5. The R&O Transition Plan being formulated by the JWG includes a 
systematic approach to develop Capability Implementation Plans for each 
research capability that is identified for transition to operations. 
The budget associated with transitioning the capability will be 
included in the Capability Implementation Plan for senior management 
review. The agencies will determine how transition cost will be 
allocated, based on the approved version of the Capability 
Implementation Plan. The funding for the working group so far has been 
to support the personnel in the working group. There are 20 active 
members of the working group (10 from NOAA and 10 from NASA). Even 
though the civil servant support has been deemed part of the normal 
course of the job, the value of the civil servant time and contractor 
support to this effort is valued at $400 thousand.
    An ad hoc Joint Working Group (JWG) was organized and has been 
holding regular bi-weekly meetings since October 2004. Dr. Colleen 
Hartman (NOAA) and Dr. Mary Cleave (NASA) are the senior managers 
responsible for oversight of the ad hoc JWG. Gary Davis (NOAA) and Ron 
Birk (NASA) are the co-leads for the ad hoc JWG.
    The following are results for the NASA and NOAA interactions 
through the ad hoc Joint Working Group to date:

        <bullet>  Formulated and documented an organizational and 
        performance framework for this bilateral R&O activity, 
        including agency and user community roles.

        <bullet>  Formulating, documenting, and coordinating joint 
        agency concurrence to a plan for implementing the R&O 
        transition process that includes seeking independent evaluation 
        and reviews of the plan.

        <bullet>  Defining, documenting, and facilitating the process 
        for development and approval of Capability Implementation Plans 
        (CIP) for transition or use of specific research and 
        operational capabilities.

        <bullet>  Coordinating identification of candidate transition 
        capabilities by integrating agency and user community input.

        <bullet>  Forming Capability Implementation Planning Teams to 
        prepare Capability Implementation Plans for candidate 
        transition capabilities.

        <bullet>  Recommending respective agency membership on 
        Capability Implementation Planning teams.

        <bullet>  Formulating a process for JWG reviews of individual 
        Capability Implementation Plans (CIP).

    The NASA Applied Sciences Program is focused on extending the 
results of Earth science research to serve in operational systems 
through partnerships with federal agencies and national organizations 
and is supporting the JWG.

Q6.  In your testimony you mentioned that one way NASA and NOAA have 
worked together was funding the National Academy of Sciences (NAS) 2003 
report, Satellite Observations of the Earth's Environment, Accelerating 
the Transition from Research to Operations. One of the major 
recommendations from that report is that ``a strong and effective 
Interagency Transition Office for the planning and coordination of 
activities of the National Aeronautics and Space Administration (NASA) 
and the National Oceanic and Atmospheric Administration (NOAA) in 
support of transitioning research to operations should be established 
by and should report to the highest levels of NASA and NOAA.'' Does 
NASA support establishing and Interagency Transition Office as 
described in the NAS report? If so, what is NASA doing to establish the 
Office? If not, why not?

A6. NASA and NOAA are actively engaged in establishing the Joint 
Working Group on Transition Research and Operations (R&O). This joint 
working group includes senior management from both agencies and a 
structured approach to involve key personnel for each of the areas for 
transition. The approach is to establish agreement on specific 
capabilities to be transitioned and to assign teams with 
representatives from NASA and NOAA to participate in developing the 
Capability Implementation Plans.
    Deliberations on the recommendations from the NAS 2003 report to 
establish an Interagency Transition Office led to the development of 
the Joint Working Group on Transition of Research and Operations. The 
JWG is formulating a Transition Plan to systematically:

        a.  Identify the candidate capabilities for transition 
        (including community participation).

        b.  Establish teams with the appropriate knowledge to develop 
        Capability Transition Implementation Plans.

        c.  Formulate the detailed Capability Transition Implementation 
        Plans with information on schedule, budget, resource 
        requirements, and benefits to the Nation.

        d.  Senior review of the Capability Transition Implementation 
        Plans for subsequent decisions on budget and resource 
        allocations.

    This approach optimizes the capacity of involving the appropriate 
representatives for the functions of:

        a.  Establishing and evolving the processes for transitions.

        b.  Identifying the candidate capabilities for transition.

        c.  Developing the capability transition implementation plans.

        d.  Reviewing the capability implementation plans.

        e.  Identifying and allocating budgets and resources to 
        implementation the capability transitions.

Q7.  What is the status of the NASA Earth Science and Applications from 
Space Strategic Roadmap and what are the main conclusions of their work 
so far?

A7. The NASA Earth Science and Applications from Space Strategic 
Roadmap Committee completed its work with the submission of its report 
to NASA on May 22, 2005. The NRC has separate congressional direction 
to look at NASA science issues, including the six science roadmaps. 
NASA has since provided to the NRC the science roadmaps received on May 
22. In June, members from each of the six science committees will brief 
the committee results to the NRC. The NRC will plan to provide a report 
or other input on the science roadmaps to NASA by August 1, 2005.
    The concepts and recommendations identified by the Earth Science 
and Applications from Space Strategic Roadmap Committee are advice to 
NASA and are subject to review by the NRC. The following are some of 
the concepts put forward by the Roadmap Committee:

        1.  In addition to scientific objectives that motivate specific 
        missions and modeling, the committee identified integration 
        objectives that motivate the synergistic networking of systems.

        2.  The committee has identified a metric, the measurement 
        maturity index, to assist in the planning and management of 
        investigations, assess their potential transition to 
        operations, and as an aggregate measure of the balance of 
        investments in a research area. While needing more development, 
        the committee believes this could be developed into a useful 
        tool for planning future investigations.

        3.  The committee identified a preliminary mission timeline, 
        along with an approach (called ``awareness clusters'') to 
        organizing and building over time the integrated capacity to 
        observe and model the Earth system.

    The near-term recommendations of the Committee include:

        1.  Complete the current, approved NASA program in a timely 
        fashion.

        2.  Begin advanced planning for several near-future missions 
        identified in the committee's timeline.

        3.  Begin advanced planning for the first ``awareness 
        cluster,'' including the technologies, missions, models, 
        networks, and educational and international cooperation 
        opportunities that support the science focus of the cluster.

        4.  Start at least one new mission in FY 2007 or FY 2008 and 
        the others as soon as possible after that.

Q8.  The National Academy of Sciences interim report stated: ``The 
committee is concerned that a significant reallocation of resources for 
the research and analysis (R&A) programs that sustain the 
interpretation of Earth science data has occurred either as a result of 
the removal of the `firewall' that previously existed between flight 
and science programs or as an unintended consequence of NASA's shift to 
full-cost accounting.'' Please describe the extent to which NASA has 
reallocated funding for the Earth Science R&A programs, and explain why 
this has occurred.

A8. In recent years, NASA's research budget has been largely stable. 
The research and analysis (R&A) program, one of about 60 projects 
within the Earth-Sun Research Program, has been particularly stable, 
with minimal year-to-year fluctuations. There has been only one 
significant modification to this program in recent years. The 
transition from ``business-as-usual'' to ``full cost accounting'' in FY 
2004 led to an increase of approximately 20 percent in the R&A budget 
over the FY 2003 budget, but the imprecision associated with this 
transition led to an increase in requirements for center-related 
funding that was approximately 50 percent greater than the increase in 
funds, leading to an effective reduction in purchasing power of the R&A 
program of the order of 15 percent. The shortfall in FY 2004 impacted 
contractors at the NASA centers and the broader research community. In 
FY 2005, the R&A program was adjusted to accommodate these full cost 
transitions and per the mid-year operating plan, is $10 million higher 
than the final FY 2004 operating plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted by Representative Bart Gordon

Q1.  What specific Earth Science-related responsibilities is NASA 
transferring or planning to transfer to NOAA?

        a.  What are the timetables for the transfers?

        b.  What are the estimated budgetary impacts of the 
        responsibilities transferred?

A1a,b. NASA has long served as the research, technology development, 
and satellite development source for the Nation's civil space-based 
remote sensing capability and will continue to perform in this 
capacity. During the past several years, the NASA-NOAA partnership has 
evolved across a broad front to meet the Nation's need for affordable 
operational and research observations. (1) techniques; (2) 
technologies; (3) measurement responsibilities; and (4) remote sensing 
instruments and platforms. NASA's baseline budget reflects our 
expectation that the ongoing partnership with NOAA will continue to 
evolve. However, the budgetary impacts associated with the transfer of 
responsibilities in not known at this time. Each of these areas 
involves joint NASA and NOAA efforts that lead to the transfer of 
innovative capabilities, as summarized below:

Techniques--The focus in this area is on the utilization of remote 
sensing data to improve the models that NASA and NOAA use to create 
weather and climate forecasts. NASA, NOAA and USAF have established the 
Joint Center for Satellite Data Assimilation as a means to accelerate 
the use of research data to improve operational weather and climate 
forecasting. NASA has also been working with NOAA's National Hurricane 
Center to improve hurricane track forecasting via new model algorithms 
and data.

Technologies--New technologies will focus on the improvement of NOAA's 
weather forecasting capability based on science and technology through 
new spacecraft and modeling. The next generation weather satellites 
will use satellite spacecraft that are based on those developed by NASA 
and its prime contractor for the EOS Aqua and Aura missions.

Instruments and Platforms--The development of advanced instruments and 
platforms by NASA in a research context that can be used in NOAA's next 
generation of operational environmental satellites. The NPOESS VIIRS 
and ATMS sensors, for example, continue the imaging and sounding 
observations by the NASA EOS MODIS and AIRS sensors, respectively.

Measurements--New instruments prepare the way for transition of 
measurement responsibilities. This includes plans, underway since the 
late 1990s, to continue selected climate measurements begun by NASA's 
Earth Observing System via transfer of instrument technologies and 
measurement responsibilities begun by EOS Terra and Aqua to the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS). The first fruit of this effort will be the NPOESS Preparatory 
Project, a satellite now in development jointly by NASA and the NPOESS 
Integrated Program Office. This mission will carry both the VIIRS and 
ATMS instruments as well as others. Based on the strategy of assuming 
that a number of the critical measurements made by Terra and Aqua would 
be done through NPOESS, NASA was able to reduce the planned budget for 
systematic Earth science measurements.

    NASA may propose innovative next generation missions to begin 
during this time frame, in keeping with the general strategy of 
transitioning mature measurement responsibilities so that operational 
systems can benefit and NASA can move on to the next frontier. In 
parallel, NASA, NOAA and their European counterparts have been working 
over the last three years on a plan to transition ocean surface 
altimetry measurements begun by the NASA/CNES TOPEX/Poseidon and Jason 
missions to a future operational system using the Ocean Surface 
Topography Mission now under development as a ``bridge.'' Not all 
measurements begun by EOS are slated for transition to NPOESS, but the 
significant ones that are, including the basic imaging and sounding 
done by Terra and Aqua, help in enabling the reduced budget planned for 
Earth science to still accommodate a mix of continued long-term 
measurements, and first implementation of new types of global 
measurements, for example through the Earth System Science Pathfinder 
line of competed missions and the Global Precipitation Mission.
    Opportunities flow in the other direction as well, for example in 
the area of flight of NASA research instruments on NOAA spacecraft. 
Currently, attention is focused on future geostationary missions. NASA 
continues to build and launch Geostationary Operational Environmental 
Satellites for NOAA, with the recent launch of GOES-N on May 20, 2005. 
The next generation series will begin with GOES-R. NASA and NOAA are 
discussing a strategy to reserve capacity on this series of satellites 
for demonstration of advanced instruments of importance to both 
agencies.
    Major measurement transitions in work:

        <bullet>  Climate quality atmosphere and biosphere measurements 
        begun by Terra and Aqua to NPOESS (2010) via NPP (2006)

        <bullet>  Upper atmosphere ozone measurements from TOMS & Aura 
        to NPOESS (2010) via NPP (2006)

        <bullet>  Land cover change measurements from Landsat 7 to 
        NPOESS Operational Land Imager (2010)

        <bullet>  Ocean surface topography from TOPEX/Poseidon and 
        Jason to an NOAA/EUMETSAT operational system via NASA/CNES 
        development and NOAA/EUMETSAT operation of the Ocean Surface 
        Topography Mission (2008)

        <bullet>  Next generation geostationary satellites beginning 
        with GOES-R (2012)

Q2.  What do you consider the most promising future benefits that the 
Nation might gain from continued investments in Earth Science research? 
What will be the negative impacts on society if NASA's commitment to 
Earth Science research and applications is diminished in the coming 
years?

A2. NASA's Earth Science programs are our nation's primary innovators 
in providing new information about the global Earth system using the 
unique vantage point of space. NASA's perspective is global, and 
emphasizes the ``Earth system view'' that encourages understanding of 
the interconnections between various components of the Earth system 
(atmosphere, oceans, biosphere, cryosphere, and lithosphere). NASA's 
commitment to Earth science research and application directly enables 
advanced understanding of the current interactions and future evolution 
of the Earth system, as well as allows NASA to support the U.S. Climate 
Change Science Program (CCSP).
    The space-based missions carried out by NASA provide information 
about the global distribution of Earth system parameters never before 
available on the spatial and temporal scales that NASA can provide. 
Recent examples include ice sheet and sea ice changes in polar regions 
(from ICESat), more accurate measurements of the Earth's gravitational 
field and their analysis to determine information about water stored 
underneath the Earth's surface (from GRACE), distribution and nature of 
aerosol particles that affect climate, precipitation, and air quality 
(from Terra), and distribution of precipitation over the ocean in the 
tropics and subtropics (from TRAM). Future space systems will provide 
significant enhancements in our knowledge of the global three-
dimensional distribution of clouds and aerosols, and then high-
resolution information about the global distribution of carbon dioxide 
(suitable for inferring information about global sources and sinks), 
and ocean salinity.
    NASA contributes to the record of long-term satellite measurements 
needed to help evaluate change in the Earth system and help scientists 
separate between natural and human-induced changes. Examples include 
studies of ozone distributions (from the TOMS series), solar irradiance 
(most recently from UARS, ACRIMSAT, and SORCE), of ocean surface 
topography (from Topex/Poseidon and Jason), and of the Earth's overall 
radiation budget (most recently from the CERES instruments aboard the 
Terra and Aqua spacecraft). The long-term need for precise and accurate 
calibration is not something that has been available from operational 
platforms in the past. NASA's efforts also include a significant focus 
on modeling and data assimilation to be sure that new data can be 
understood and used to test hypotheses of our current understanding of 
the Earth system's behavior and to improve our capability to predict it 
in the future.
    NASA strives to facilitate the use of its data in supporting policy 
development and resource management through its applied science 
program, partnering with other federal agencies to accelerate the 
process by which space-based data can be used to serve society (e.g., 
improve weather and climate forecasting and prediction of natural 
hazards). NASA's technology program constitutes an investment in future 
Earth science, developing the observational tools and techniques that 
will enable new views of the Earth in the future, making possible 
measurements not currently possible today as we look to push back the 
frontiers in Earth remote sensing (e.g., more frequent temporal 
sampling, improved determination of the vertical dimension in the 
measurement of Earth system parameters). A vigorous basic research 
program underlies all of the above so that as new information is 
gained, scientists can innovatively incorporate new knowledge into 
their studies, develop and test hypotheses, improve models, and develop 
newer techniques that will enable new knowledge in the future.

Q3a.  Two years ago, the Space Studies Board of the National Research 
Council recommended the establishment of an Interagency Transition 
Office to manage the issues involved in transitioning the capabilities 
developed in research instruments to the operational systems that 
support weather monitoring and forecasting.

      Have NASA and NOAA taken any steps to establish such an 
organization? If not, why not?

A3a. NASA and NOAA are actively engaged in establishing the Joint 
Working Group on Transition Research and Operations (R&O). This joint 
working group includes senior management from both agencies and a 
structured approach to involve key personnel for each of the areas for 
transition. The approach is to establish agreement on specific 
capabilities to be transitioned and to assign teams with 
representatives from NASA and NOAA to participate in developing the 
Capability Implementation Plans.

Q3b.  If so, when was the organization established who heads it, and 
what is its charter?

A3b. An ad hoc Joint Working Group (JWG) was organized and has been 
holding regular bi-weekly meetings since October 2004. Dr. Colleen 
Hartman (NOAA) and Dr. Mary Cleave (NASA) are the senior managers 
responsible for oversight of the ad hoc JWG. Gary Davis (NOAA) and Ron 
Birk (NASA) are the co-leads for the ad hoc JWG.
    The roles and responsibilities include:

        <bullet>  NASA and NOAA designated representatives lead the 
        JWG. The JWG develops, implements, and facilitates a senior 
        level collaboration process. This collaboration process is used 
        to coordinate, evaluate, identify, and transition appropriate 
        NASA research results (capabilities) for NOAA operational and 
        applied research use; and appropriate NOAA operational assets 
        (capabilities) to support NASA research.

        <bullet>  Designated NASA and NOAA senior representatives 
        jointly provide oversight of and accountability for, this 
        working group. These representatives are responsible for 
        coordination of performance measures and goals, and compliance 
        with their respective agency policies and processes relevant to 
        successful implementation and maintenance of a bilateral R&O 
        process.

        <bullet>  An initial transition plan detailing the R&O process, 
        including an initial set of implementation plans for transition 
        of specific research result capabilities, will be submitted to 
        senior NASA and NOAA leadership for approval by September 30, 
        2005.

Q3c.  Does the organization determine how transition costs will be 
allocated between the two agencies? If not, who does?

A3c. The R&O Transition Plan being formulated by the JWG includes a 
systematic approach to develop Capability Implementation Plans for each 
research capability that is identified for transition to operations. 
The budget associated with transitioning the capability will be 
included in the Capability Implementation Plan for senior management 
review. The agencies will determine how transition costs will be 
allocated based on the approved version of the Capability 
Implementation Plan.

Q4.  Based on correspondence between Admiral Lautenbacher and then-NASA 
Administrator O'Keefe, it appears that there was no advance 
coordination between NASA and NOAA when NASA decided to terminate the 
Tropical Rainfall Monitoring Mission last year.

        a.  Is that correct?

        b.  If so, why wasn't there adequate advance coordination?

A4a,b. There has been considerable coordination between NASA and NOAA 
regarding TRMM, dating back to 2001. NASA and NOAA personnel have 
discussed TRMM re-entry plans in a number of forums, including 
workshops, correspondence, and meetings. In April and July 2003, NASA 
sent letters to the two registered NOAA TRMM real-time data users (John 
Paquette/NESDIS and Stephen Lord/NCEP) stating NASA's expectation that 
TRMM's decommissioning could begin as early as the first quarter of 
2004. In July 2004, ten days prior to the mailing of the correspondence 
cited by Rep. Gordon, nine senior NOAA staff members representing a 
broad cross section of NOAA were notified via e-mail of the imminent 
decommissioning.

Questions submitted by Representative Mark Udall

Q1.  The FY 2006 budget request has combined the Earth Systems and Sun-
Earth Connections budgets. Please provide a detailed crosswalk between 
the FY 2005 budget request and FY 2006 budget request and its five-year 
runout with the Earth Systems and Sun-Earth Connections budgets broken 
out separately.

A1. See attached budget crosswalk and five-year run-outs.

Q2.  Due to a cut in funding, there are plans to end several extended 
missions in October of 2005, including Voyager.

Q2a.  Will there be a new Senior Review to reconsider the planned 
terminations?

A2a. Yes, decisions on scientific priorities will be made once NASA 
receives input from both the Sun-Earth Connection and Earth System 
Science Senior Review Panels. These panels, composed of external and 
independent senior researchers with relevant knowledge and experience, 
meet periodically to review proposals for innovative research, 
accomplished with existing space assets. The panels assist NASA by 
evaluating the scientific merit of each extended mission on a 
``science-per-dollar,'' basis in terms of the expected returns from new 
science goals.

Q2b.  If so, when will it take place?

A2b. The Earth System Science review is currently in progress and the 
Sun-Earth Connection review is expected to convene in the fall of 2005.

Q2c.  Will funding for these missions be maintained until a new Senior 
Review is completed? How much funding would be required?

A2c. NASA will permit the Sun-Earth Connection missions to operate 
while the Senior Review process provides for a new assessment of the 
future scientific value of these operating missions. This is expected 
to cost approximately $20.6 million in FY 2006. At the conclusion of 
the Panels' deliberations, NASA will use their assessments and findings 
to develop Agency decisions regarding the continued operation of these 
missions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted by Representative Michael M. Honda

Q1.  What priority is NASA's Earth Science program as NASA pursues the 
President's exploration initiative?

Q1a.  How have the recent decisions to cancel, de-scope, or delay 
recent Earth observing missions or mission programs been made? In 
particular, please explain the rationale for seeking the assistance of 
the National Academies in determining what the highest priority areas 
should be and then making changes before the results of that study are 
known?

A1a. NASA's Guiding National Objectives specifically identify studying 
the Earth system from space, and developing new space-based and related 
capabilities for this purpose, as a priority for the Agency. Not only 
are NASA's activities in Earth Science are essential to the achievement 
of NASA's mission, they directly support three Presidential 
initiatives: Climate Change, Global Earth Observation, and 
Collaborative Oceans Research.
    In all of NASA's science disciplines, decisions often must be taken 
between Decadal Surveys or triennial strategic plans, and are taken 
based on the best available data on science community priorities and 
prior strategic plans and surveys. As such, the Science Mission 
Directorate generally chooses to stay the course on missions already in 
development, and if necessary, defer missions that were only in the 
formulation stage, and cancel selected missions where an alternative 
source of data could be identified.
    By applying these criteria to NASA's Earth science missions, only 
the Glory mission was descoped in the FY 2006 budget to an instrument-
only build. The remaining Earth science missions were left largely 
unchanged, reflecting the need to respond to national priorities in 
Earth science and in recognition of the fact that the results of the 
Decadal Survey would not be available until late 2006.

Q1b.  What role is full-cost accounting and the fact that it was not 
accompanied by the appropriate reallocation of salary and other 
infrastructure money to support those scientists working on critical 
Earth Science projects playing in these decisions?

A1b. Adoption of full cost accounting practices has neither affected 
the strategy for pursuit of Earth science by NASA in the era of the 
Vision for Space Exploration, nor the process of prioritization of 
research and missions in the Science Mission Directorate. There are 
important questions to address in this arena, and this is the subject 
of the National Research Council decadal survey for Earth science now 
underway. However, these questions exist quite apart from the topic of 
full cost accounting.
    Funds previously carried separately for civil servant salaries and 
institutional support were added to program budgets (including Earth 
science) in FY 2005 and beyond. Implementation of full cost accounting 
and management posed some challenges in the start-up phase, but the 
magnitude of these problems should decrease over time as we get more 
experience in working within this new environment. The inherent 
difficulty in making this significant transition led to some short-term 
transient effects and some near-term challenges in FY 2005 that 
affected university researchers, civil servants, and contractors. We 
anticipate the process of soliciting, selecting, and funding science 
proposals from the community (in both academia and NASA Centers) in the 
era of full cost accounting will be smoother in the coming fiscal year.

Questions submitted by Representative Al Green

Q1.  Given the increasing vulnerability to extreme weather and climate 
variations as seen by the tsunami and the various hurricanes that hit 
Florida, what initiatives, if any, does NASA currently have to explore 
such events? NASA has been a major sponsor of such research in the 
past; what initiatives does NASA have planned for the future? What 
effect will budget constraints have on these projects?

A1. Tsunami: A capable tsunami warning system must be both reliable and 
cost effective. Tsunamis are caused by plate boundary earthquakes, with 
the most devastating tsunamis occurring within a few hundred miles of 
the earthquake's epicenter due to both the larger amplitude of the 
tsunami wave and the lack of sufficient warning. As with all 
geohazards, significant savings in life and property can result from a 
tsunami warning system that provides the information necessary for risk 
assessment, warning, and recovery. NASA's research and technology 
sponsored primarily by the Earth-Sun Science Division of the Science 
Mission Directorate seeks to address these fundamental requirements.
    NASA is participating within the IWGEO and with other federal and 
international organizations to insure the effective distribution of 
these research and development results. Imagery from four NASA 
spaceborne instruments shed valuable insights into the Indian Ocean 
tsunami that resulted from the magnitude 9 earthquake southwest of 
Sumatra on December 26, 2004. These images offered several unique views 
of portions of the affected region. The data helped scientists and 
government agencies to assist with disaster recovery and will be used 
in mitigating the effects of future natural hazards and increasing our 
understanding of how and why tsunamis strike.

Tropical Cyclones: One of the least understood issues regarding 
tropical cyclone (TC) behavior are the factors that influence TC 
genesis and rapid intensification. Hurricane Charley during 2004 is an 
example of a TC that underwent unpredicted rapid intensification just 
hours before landfall in northern Florida.
    NASA is leading a major field experiment based in Costa Rica during 
July 2005 called the Tropical Cloud Systems and Processes (TCSP) 
campaign. The aim of TCSP is to investigate atmospheric and oceanic 
processes governing the formation and intensification of hurricanes. 
Costa Rica provides the ideal mission location for accessing a variety 
of TCs developing across the western Caribbean, Gulf of Mexico and 
Eastern Pacific. In a manner similar to the highly successful series of 
NASA CAMEX (Convection and Moisture Experiments) investigations, the 
NOAA Hurricane Research Division P3-Orion aircraft will fly joint 
missions with the NASA ER-2 and Aerosonde aircraft during TCSP. The 
NASA ER-2 is a unique, high-flying platform with a sensitive Doppler 
radar, passive microwave radiometer and atmospheric profilers that 
serve as a ``virtual satellite'' and can thus be positioned to 
optimally sample critical regions of developing tropical cyclones. One 
important goal of TCSP is to improve the numerical representation of 
hurricanes using the specially collected aircraft and satellite 
observations. For instance, TCSP scientists will work closely with 
Florida State University (FSU) scientists to identify data sets to 
optimize the highly successful FSU Super ensemble hurricane forecast 
prediction tool.
    It is anticipated that the TCSP mission will answer many key 
questions pertaining to the genesis of intense tropical vortices, in 
addition to raising many other questions. For instance, NASA scientists 
have a keen interest in understanding whether a core set of processes 
is unique to tropical cyclogenesis and intensification anywhere around 
the globe, irrespective of geographic location. TCSP will address many 
of the issues associated with TC genesis in close proximity to a 
central mountain chain (the Central American cordillera) and the fate 
of African Easterly Waves as they interact with this terrain. However, 
the African Monsoon Meteorology Experiment (AMMA), slated for the 
eastern Atlantic in summer 2006, provides a potential opportunity to 
investigate many of the TCSP hypotheses in a different geographical 
setting. For instance, what is the influence of the Saharan Air Layer 
on tropical cyclogenesis? Direct NASA participation with one or more 
ground-based Doppler radars and possibly a high altitude research 
aircraft stationed downstream of the African continent during AMMA will 
be ideally suited to better understand why some tropical disturbances 
develop into Atlantic hurricanes, while others do not. Historically, 
the most destructive hurricanes that make landfall on U.S. soil 
originate from Africa during the late summer-early fall.
    In addition, NASA has hurricane modeling research in the areas of 
advanced computational modeling coupled with the space borne 
observations. A major experiment, in collaboration with NOAA, which 
combines advanced weather prediction model, satellite observations, and 
powerful computing platform, is currently underway for the 2005 
hurricane season.

Global Precipitation Measurement (GPM): TRMM was originally designed to 
be a three-year scientific research mission. It is now in its eighth 
year of operation, having completed all of its original scientific 
research objectives and more. NASA and the Japan Aerospace Exploration 
Agency (JAXA) will continue their close collaboration beyond TRMM 
through establishment of a new advanced capability for the measurement 
of precipitation globally with the Global Precipitation Measurement 
mission (GPM). This mission will be a critical component of the 
International Global Earth Observing System of Systems and will 
significantly improve upon the temporal and spatial resolution provided 
by TRMM.
    The GPM mission's Core Satellite is planned to carry advanced dual-
frequency radar that will provide rain measurements exceeding the 
capabilities of TRMM. In addition, GPM will use an international 
constellation of satellites to measure precipitation globally and much 
more frequently (approximately every three hours) than TRMM. In 
addition to Japan, Europe, Canada, France, India, South Korea, Taiwan, 
Brazil, and others have expressed and interest in participating in GPM. 
A science team is currently in place to study the impact of 
precipitation variability on specific processes within the atmospheric 
and/or surface water cycles, water budgets and their closure. The 
precipitation science team is also interested in studying the rate of 
water cycling through the atmosphere and surface, and the relationships 
of linked precipitation-water cycle processes on weather and climate 
through both forcing and feedback. The range of investigations, in 
addition to modeling and data analysis, includes algorithm 
improvements, validation, applications, and education/outreach efforts. 
GPM is currently targeted for launch in late 2010.

Climate Variability: A subtle impact of extreme weather/climate 
variation, but with far-reaching consequences, is the El Nino-Southern 
Oscillation (ENSO). ENSO has its roots in a coupled atmosphere-ocean 
interaction over the western Pacific, and NASA has been monitoring ENSO 
with the TRMM and QuickSCAT satellites since the late 1990s. The 
QuickSCAT satellite provides observations of reversing trade winds that 
accompany El Nino, and NASA TRMM scientists have investigated several 
El Nino and La Nina rainfall cycles of varying intensity and duration. 
No two ENSO events are alike, and continued long-term monitoring of 
ENSO with TRMM will increase our understanding of ENSO's peculiar 
variations. Precursors to El Nino such as the short-term Madden-Julian 
Oscillation (MJO) have been identified through TRMM's unique 
combination of rain and ocean surface temperature measurements. As the 
key linkage between MJO and ENSO is established, there is the hope that 
TRMM data sets will be used to increase the predictability of El Nino 
and its impacts on the United States.
    NASA's TOPEX/Poseidon and Jason-I are measuring ocean surface 
topography, the MODIS instrument on the EOS platforms also provides 
high-resolution observation of sea surface temperature. The Estimating 
of the Circulation and Climate of the Ocean project sponsored by the 
National Oceanographic Partnership Program is currently assimilating 
long-term ocean observation data into a physically consistent climate 
quality data set for the climate variability research. These efforts 
will be augmented in the future with sea surface salinity data from the 
Aquarius mission.
    One aspect of climate change that has received much attention 
recently is changes in the Earth's ice covered regions. NASA continues 
to advance our understanding of these ice processes through a 
combination EOS missions, e.g., the Ice Cloud and land Elevation 
Satellite (ICESat), the AMSR instrument on Aqua, and ongoing and 
planned activities with operational and interagency partners, such as 
the Navy's SSM/I instrument, our partnership in Canada's RADARSAT 
mission, and others.
    The Research and Analysis Program currently supports--in addition 
to investigations funded by individual programs--two major climate-
variability-related categories of interdisciplinary investigations. 
These are in the areas of sea level rise and polar feedbacks in the 
climate system, both of which have been identified as priorities of the 
Climate Change Science Program and Integrated Earth Observing System 
(IEOS). We continue to work with our interagency partners to maximize 
investments in understanding the significant changes that have been 
occurring in the Polar Regions, particularly in the framework of the 
upcoming International Polar Year (2007-2008).

Q2.  For years, there has been a major focus on the effects of 
greenhouse gases, the thinning of the ozone, global warming, and the 
melting of the ice caps. It is my assumption, and please correct me if 
I am wrong, that one of the functions of a Global Earth Observing 
System of Systems (GEOSS) initiative would be to monitor such activity?

Q2a.  As an interagency and international effort, what effect will 
budget cuts to NASA's Earth Science program have on this initiative?

A2a. NASA Earth system science results of research and development of 
space-based observations and improved modeling capacity are recognized 
as contributing nearly 100 instruments on 30 spacecraft for the 
International Global Earth Observation System of Systems (GEOSS). NASA 
Earth science applications are recognized for contributing integrated 
system solutions to each of the nine societal benefit areas highlighted 
in both the Strategic Plan for a U.S. Integrated Earth Observation 
System (IEOS) and the 10-Year Plan for a Global Earth Observation 
System of Systems. The entire NASA Earth Science budget contributes to 
goals and objectives of U.S. participation in GEOSS. The contributions 
of NASA research results to GEOSS is not a separate budget line or 
project. Thereby, any reductions in Earth Science funding would 
decrease our contribution to GEOSS. NASA plans to contribute the 
results of over $1B in Earth system science research and development 
per the President's budget.
    The International GEOSS and the U.S. IEOS include framework 
architectures that can accommodate and benefit from the observations 
and predictions/forecasts resulting from NASA research and development 
of space-based Earth observation systems; including the ground 
segments, data handling capacity, modeling, computing, knowledge, and 
applied sciences and system engineering.

Q2b.  Is it expected that NASA will continue with the GEOSS initiative 
in FY 2006 and beyond? At what funding levels?

A2b. NASA's plans for research and development of Earth observation 
systems include support for national and international priorities and 
goals, including the U.S. IEOS and International GEOSS. The GEOSS is 
architected to benefit from the full scope of the results of NASA 
research and development programs, flight missions and applied sciences 
partnerships on benchmarking enhancements to integrated system 
solutions for the nine societal benefit areas. Per the response above, 
the NASA budget for Earth science is the U.S. contribution to the 
research and development efforts that contribute to the goals and 
objectives of serving society as documented in the GEOSS 10-Year 
Implementation Plan.

Q2c.  To date, what role has NASA's Earth Science program played in the 
Administration's new GEOSS initiative?

A2c. NASA leadership contributed to developing and refining the 
framework and architecture of the U.S. IEOS and International GEOSS 
plans. The plans provide guidance in the direction for evolving 
research capacity (including NASA contributions) to enable improved 
future operational systems. NASA contributes to the national 
interagency activity through participation in the U.S. Group on Earth 
Observation, a subcommittee of the Committee on Environment and Natural 
Resources (CENR). NASA senior officials serve in the roles of Co-Chair 
and other positions of the USGEO and as alternate Co-Chair for the 
Architecture SubGroup of the international Group on Earth Observations.
    NASA missions (e.g., Terra, Aqua, and Aura), program plans (e.g., 
Earth Science strategies and implementation plans) and results (e.g., 
collaboration with EPA on enhancing the national air quality Nowcasting 
system) are recognized through the USGEO and GEO as contributions to 
the IEOS and GEOSS.

Q3.  I also have the privilege of serving on the Financial Services 
Committee and have had the opportunity to take a close look at the 
Administration's changes to housing programs. The Administration wants 
to consolidate Community Development Block Grants and six other HUD 
programs as well as ten other programs from federal agencies to move 
them into the Commerce department, drastically reducing funding in some 
cases and making minimal cuts in others. I also notice that in the same 
fashion at the Administration's request, NASA has decided to combine 
the Earth Science and solar physics programs into one Earth-Sun Science 
program that has been incorporated into the new Science Mission 
Directorate.

        a.  Which stand-alone projects within the Earth Science program 
        will sustain the most drastic cuts?

        b.  Do you believe the reorganization of NASA's Earth Science 
        program is a good idea or a bad idea? Why?

        c.  Would you have any recommendations for improving the 
        effectiveness of NASA's Earth Science program?

A3a,b,c. The combination of the former Earth Science Enterprise and 
Sun-Earth Connection theme of the Space Science Enterprise into a 
single unified Earth-Sun System Division has not led to cuts in any 
Earth science projects. Significant reductions were made between FY 
2004 and FY 2005 President's budgets. In FY 2006, the budget submit 
using the new structure, resulted in no significant reductions to Earth 
science.
    The creation of a single unified Science Mission Directorate and 
the grouping of the former Earth Science Enterprise and the Sun-Earth 
Connection theme of the former Space Science Enterprise into a single 
unified Earth-Sun System Division was done to better position us to 
take advantages of potential synergies between formally different 
organizations. However, the time elapsed since the agency 
transformation that effected these changes is too short to determine 
whether the benefits are being achieved.
    NASA's Earth Science budgets are managed overall effectively. We 
feel that one of the most important things that can be done to improve 
management is to assure the stability of the program. Firming up of 
budgets early in the fiscal year is also very important, as it allows 
for early establishment of targets.
                   Answers to Post-Hearing Questions
Responses by Berrien Moore III, Director, Institute for the Study of 
        Earth, Oceans, and Space, University of New Hampshire

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  In your written testimony, you state that the NAS committee 
recommends that NASA and NOAA should commission an independent review 
regarding the Landsat Data Continuity Mission. Please clarify why the 
committee believes the Administration should perform another cost 
benefit analysis of the decision to transition the Landsat measurements 
to the NPOESS platform, as outlined in the Auguest 13, 2004 OSTP memo.

A1. In reference to the Landsat Data Continuity Mission, the Interim 
Report of the National Academy of Science's Decadal Study team 
recommended independent external reviews that involved the scientific 
and operational users that focused upon suitability, capability, and 
timeliness of the (OLI).
    Our understanding of what happened to the Landsat Continuity 
Mission can be summarized as follows:
    Efforts to begin implementing a successor mission to Landsat 7, 
called the Landsat Data Continuity Mission (LDCM), focused on a plan to 
purchase data meeting LDCM specifications from a privately owned and 
commercially operated satellite system beginning in March 2007. 
However, after an evaluation of proposals received from private 
industry, NASA canceled a Request-for-Proposals (RFP) for providing the 
required data in September 2003. Soon after, the Executive Office of 
the President formed an interagency working group to discuss Landsat 
data continuity in light of the cancellation. A memorandum from the 
Office of Science and Technology Policy (OSTP), signed on August 13, 
2004 by the Director of OSTP, Dr. John Marburger, III, summarizes the 
outcome of these discussions. The memorandum states ``the Departments 
of Defense, the Interior, and Commerce and the National Aeronautics and 
Space Administration have agreed to take the following actions:

        <bullet>  ``Transition Landsat measurements to an operational 
        environment through the incorporation of Landsat-type sensors 
        on the National Polar-orbiting Operational Environmental 
        Satellite System (NPOESS) platform;

        <bullet>  ``Plan to incorporate a Landsat imager on the first 
        NPOESS spacecraft (known as C-1), currently scheduled for 
        launch in late 2009;

        <bullet>  ``Further assess options to mitigate the risks to 
        data continuity prior to the first NPOESS-Landsat mission, 
        including a `bridge' mission.''

    We know of no formal study that actually accessed the ``bridge 
mission'' nor do we believe that the user community was adequately 
involved in the formulation of the 13 August 2004 memorandum from OSTP. 
We certainly applaud the steps of OSTP, NASA, NOAA, and USGS to help 
assure the longer-term future of Landsat, but we believe that before 
giving up on the bridge mission and before settling on NPOESS as the 
implementation platform for OLI, there should be an independent study 
weighing all the options.

Q2.  During the hearing, much of the discussion concerned what the 
National Oceanic and Atmospheric Administration (NOAA) does not do. 
Could you please describe the Earth science that NOAA does support, its 
significance and how it differs from what is done by National 
Aeronautics and Space Administration (NASA)?

A2. The Earth science accomplished through NOAA support is important 
and it is, as it should be, focused upon helping NOAA meets its 
operational mandates. NOAA is a science-based agency with regulatory, 
operational, and information service responsibilities. To fulfill these 
responsibilities, it is essential that NOAA maintain a vigorous and 
forward-looking research enterprise that has both near and longer-term 
goals, but it must be recognized that the operational (near-term) 
requirements will always be a significant pressure upon the research 
enterprise. Moreover, in addition to having to respond to operational 
concerns, the research budget at NOAA is relatively modest in 
comparison to the Earth science research effort at NASA. Finally, Earth 
science depends upon significant technological advances in order to 
address the critical difficult challenges of today, for which there is 
no budget nor is there a mandate for NOAA to mount significant 
technology development programs that are needed to meet today's and 
tomorrow's scientific and operational challenges.
    In sum, the differences are a) NOAA's operational mandate, and b) 
the relatively modest size of NOAA research budget (a significant 
portion is consumed by the 30 NOAA Laboratories and Centers and 19 
Joint Institutes), and the subsequent lack of a significant capability 
for advanced technology development.

Q3.  What are the advantages and disadvantages of placing NASA 
instruments on NOAA platforms, assuming that the appropriate funding 
was provided?

A3. The advantages are increased collaboration, the ability to stage 
``pre-operational instruments in an operational environment (which 
should smooth the transfer to operations) and expanded access to space. 
The main disadvantages are the narrow selection of orbits and launch 
opportunities, a rather limited envelope for power, weight, and other 
spacecraft resources, and the potential constraint on data transfer and 
data processing. In addition, there is a concern that if NASA hands the 
instrument over to NOAA, NASA then will not provide a Research and 
Analysis function as it would for a purely NASA mission. This latter 
issue could be addressed by policy; whereas, the narrow selection of 
orbits, launches, and space, and ground resources are more troubling.

Questions submitted by Representative Bart Gordon

Q1.  What do you consider to be the most promising future benefits that 
the Nation might gain from continued investments in Earth science 
research? What will be the negative impacts on society if NASA's 
commitment to Earth science research and applications is diminished in 
the coming year?

A1. Future benefits. Improved scientific understanding, which forms the 
foundation for practical applications that enhance the prosperity and 
security of society. Businesses, government agencies, and even 
individuals rely on products and services that have emerged from Earth 
science research programs. For example, improvements in the ability to 
forecast weather have had an enormous impact on society. Today's four-
day weather forecast is as accurate as two-day forecasts were 20 years 
ago. The error in the three-day forecast landfall position of 
hurricanes has been reduced from about 210 miles in 1985 to about 110 
miles in 2004. Sea surface winds and precipitation can be observed at 
accuracies that allow emergency managers to more efficiently evacuate 
coastal residents in the path of hurricanes. As a result, lives are 
saved and property losses are minimized. Increased knowledge about the 
ocean-atmosphere-land system suggests that similar improvements are 
possible in seasonal climate forecasts, which are needed for a variety 
of agriculture decisions.
    Today, we can track vast clouds of dust and pollution from their 
source on continents across the oceans, permitting health alarms to be 
sounded effectively. We can map deformations of the Earth's surface and 
evacuate regions that may soon experience volcanic eruptions or 
landslides. We can track changes in soil moisture and then redirect 
food supplies to areas that may soon face drought and famine. We can 
monitor long-term changes in the land surface, atmosphere, and oceans 
and thereby characterize the impacts of human activities on climate. We 
have documented ozone loss in the stratosphere, resulting in the 
Montreal Protocol and termination of the production of the causative 
chlorofluorocarbons (CFCs).
    Despite many successes in applying Earth science information to 
improve lives, security, and the economy, we have the ability to do 
much more. The increase in knowledge produced over the last decade by 
Earth scientists is itself a tremendous societal benefit with clear 
public policy implications. And the experience in applying that 
knowledge lays a solid foundation for more systematically selecting new 
missions that address not only important scientific issues but also 
critical societal needs. New observations, analyses, better 
interpretive understanding, enhanced predictive models, broadened 
community participation, and improved means for information 
dissemination are all needed. If we meet this challenge, we will begin 
to realize the full economic and security benefits of Earth science.
    Negative Impacts. At NASA, the vitality of Earth science and 
application programs has been placed at substantial risk by a rapidly 
shrinking budget that no longer supports already-approved missions and 
programs of high scientific and societal relevance. Opportunities to 
discover new knowledge about Earth are diminished as mission after 
mission is canceled, descoped, or delayed because of budget cutbacks. 
These reductions and the change in priorities jeopardize NASA's ability 
to fulfill its obligations in (other) important presidential 
initiatives, such as the Climate Change Research Initiative and the 
subsequent Climate Change Science Program. It also calls into question 
future U.S. leadership in the Global Earth Observing System of Systems, 
an international effort initiated by the current Administration.
    This substantial reduction in Earth observation programs today will 
result in a loss of U.S. scientific and technical capacity, which will 
decrease the competitiveness of the United States internationally for 
years to come. U.S. leadership in science, technology development, and 
societal applications depends on sustaining competence across a broad 
range of scientific and engineering disciplines that include the Earth 
sciences.

Questions submitted by Representative Mark Udall

Q1.  The White House has proposed putting the Landsat imager on the 
first NPOESS satellite, currently being developed by NOAA and DOD.

        <bullet>  What are the technical and programmatic risks of 
        putting the new Landsat imaging sensor on the first NPOESS 
        platform? How serious are those risks?

        <bullet>  Is the Landsat user community involved in determining 
        the requirements to be met if the Landsat sensor is added to 
        NPOESS?

A1. The main technical and programmatic risks are as follows:

        a.  Technical

                1.  Adequacy of the large NPOESS platform to adequately 
                meet the pointing and jitter requirements of the 
                Operational Land Imager (OLI).

                2.  Operational data interface from the Weather 
                Centrals to the land processing system.

        b.  Programmatic

                1.  Adequate involvement of the community in the 
                definition of the instrument performance requirements.

                2.  Impact of delay in the launch of NPOESS C-1 (first) 
                platform, which will compound the impact of the lack of 
                a bridge mission (see my comments attached below that I 
                submitted to one of Chairman Boehlert's questions).

                3.  Long-term commitment to process and distribute the 
                data.

                4.  Uncertain policy of response to OLI instrument 
                failure on orbit.

Q2.  How do current NASA Earth science budgetary priorities and plans 
compare to recommendations made by the National Research Council over 
the past five years?

A2. Simply put, the current direction of Earth sciences is 180 degrees 
from the recommendations of the Earth sciences community as expressed 
through NRC reports. NASA is cutting or delaying recommended missions 
that were in development, and it is not responding to recommendations 
for other new missions; the Research and Development monies are being 
cut and opportunities for graduate education are being diminished. By 
and large, NASA is heading in the opposite direction from repeated 
recommendations of the Earth sciences community.

Questions submitted by Representative Al Green

Q1.  I also have the privilege of serving on the Financial Services 
Committee and have had the opportunity to take a close look at the 
Administration's changes to housing programs. The Administration wants 
to consolidate Community Development Block Grants and six other HUD 
programs as well as ten other programs from federal agencies to move 
them into the Commerce department, drastically reducing funding in some 
cases and making minimal cuts in others. I also notice that in the same 
fashion at the Administration's request, NASA has decided to combine 
the Earth science and solar physics programs into one Earth-Sun Science 
program that has been incorporated into the new Science Mission 
directorate.

Q1a.  Which stand-alone projects within the Earth science program will 
sustain the most drastic cuts?

A1a. I believe that the Interim report captures the stand-alone 
projects most severely cut through its list (Table 3.1 from the Interim 
Report attached below) of missions that are either delayed, canceled, 
or descoped. In addition, I believe that the next is the Earth System 
Science Pathfinder program, which currently does not have sufficient 
funds to execute in a timely fashion the mission that have been 
selected in the ESSP-3 set and no monies for ESSP-4 Request for 
Proposals. Addressing the issues implicit in the Table and ESSP would 
be my top priority.

Q1b.  Do you believe the reorganization of NASA's Earth science program 
is a good idea or a bad idea? Why?

A1b. I do not have a strong view on combining Earth and solar physics--
I know that it can work productively since these sciences are combined 
in a single institute at UNH and they were combined in the 1980s at 
NASA. I do not think that this is a major issue.

Q1c.  Would you have any recommendations for improving the 
effectiveness of NASA's Earth Science program?

A1c. The development a coherent Decadal View is the next critical step-
this is the responsibility of the community through the NRC study. When 
this is accomplished and adequately reviewed, then I believe that NASA 
must align its program with that expressed view. For the moment, we 
must stop the bleeding so that the patient does not die.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Timothy L. Killeen, Director, National Center for 
        Atmospheric Research

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  During the hearing, much of the discussion concerned what the 
National Oceanic and Atmospheric Administration (NOAA) does not do. 
Could you please describe the Earth science that NOAA does support, its 
significance and how it differs from what is done by National 
Aeronautics and Space Administration (NASA).

A1. The National Oceanic and Atmospheric Administration (NOAA) plays an 
important role in performing and supporting Earth science research in 
the U.S. NOAA and NASA are the only U.S. civil agencies that fund the 
design, development and operation of Earth observing satellites that 
provide global-scale measurements of the Earth system, and both 
agencies also support a wide variety of modeling and research 
activities that include efforts focused on weather prediction, climate 
change, and oceans. There are, however, a number of important 
differences.
    NOAA's research focuses mainly on study of the atmosphere and 
oceans (as the agency name implies), and is largely focused on 
supporting NOAA's operational mission. NOAA certainly plays a leading 
role in research relevant to weather prediction, although many other 
agencies, including NASA and NSF are also active in this area. NOAA 
plays a very important role in climate change research and, 
particularly, in climate change observations. NOAA's ongoing work in 
measuring the CO<INF>2</INF> concentration in the atmosphere is one of 
the fundamental building blocks of climate change science, with a high 
quality record that extends back to the late 1950's. Its effort to 
establish a climate reference network of precise and ideally placed 
stations to measure temperature, precipitation, and wind speeds will 
likewise prove very beneficial to scientists and decision-makers if it 
is strongly supported by the Administration and Congress over the long-
term. And NOAA ocean measurements and analyses have helped explain the 
role of the ocean in storing much of the energy retained in the Earth 
system as a consequence of the human-induced build-up of greenhouse 
gases in the Earth's atmosphere. NOAA has also been a leader in 
improving our understanding of climate variability as well as longer-
term climate change. The network of NOAA buoys in the tropical Pacific 
has helped explain the El Nino-Southern Oscillation and its impacts.
    NASA has supported a broader program of Earth science and global 
change research that includes significant efforts in land use and land 
cover change, terrestrial ecology, and solid Earth/geology, which are 
not prominent in NOAA research. In addition to its broader scope, NASA 
has been a much larger supporter of university-based research. Leaving 
spacecraft and data system costs aside, AAAS analyses show that NASA 
was the third largest provider of competitively awarded extra mural 
funding for the university environmental science community in 2004, 
trailing only the National Science Foundation and the National 
Institutes of Health. Even small reductions in the NASA program have 
large effects in the university community. As I noted in my testimony 
before the Committee, such reductions have a negative affect on the 
undergraduate and graduate education and training, and thus on the 
technical capabilities of our nation's future workforce. In contrast, 
NOAA is not a significant provider of peer-reviewed competitive 
research opportunities for the academic community, instead spending 
most of its research funding on intramural work that is conducted in 
its own labs.

Q2.  What are the advantages and disadvantages of placing NASA 
instruments on NOAA platforms, assuming that the appropriate funding 
was provided?

A2. In general, there is no direct scientific advantage to placing NASA 
instruments on NOAA platforms. There could be budgetary savings for 
NASA if it did not have to pay for spacecraft development or operation. 
But NOAA would have to bear these costs, which would require 
significant increases in the NOAA budget. It does not appear that 
shifting the responsibility for some part of overall mission costs from 
one agency to another will reduce the overall expense to taxpayers. The 
only scenario where one can imagine significant savings is if a single 
instrument can serve both NOAA and NASA purposes. But the significant 
differences between NASA science needs and NOAA operational needs make 
such opportunities difficult to identify.
    It is possible that societal benefits could accrue from tighter 
integration of NASA and NOAA satellite activities related to weather 
forecasting if such integration resulted in more rapid and effective 
transition of advanced research capabilities to operations. However, 
NOAA and NASA activity in this area is already much more integrated 
than commonly realized, with NASA responsible for the construction, 
integration, and verification testing of the spacecraft, instruments, 
and unique ground equipment operated by NOAA. Satellites are handed off 
to NOAA after they are checked out on-orbit. This responsibility will 
be taken over by the Air Force when the U.S. begins operation of the 
joint DOD-NOAA-NASA National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), which will replace the current generation of 
polar orbiting weather satellites in about 2008. Provision of NASA 
research instruments to such a system could provide research and 
operational benefits, but this requires that the overall program is 
provided with sufficient budgets and managed in such a fashion that it 
can ingest and make use of continued advances in capabilities.
    There are important Earth science questions that can only be 
addressed by maintaining accurate space based measurements for very 
long periods of time, particularly in climate change, solar, and land 
cover change research. One can make a rational argument that a set of 
long-term research instruments should be included on NOAA operational 
satellites that are expected to be maintained as part of our nation's 
permanent infrastructure. But this only makes sense if there is a long-
term budgetary commitment to developing and maintaining the advanced 
instrumentation needed to produce research-quality measurements. 
Experience to date is not particularly encouraging in this regard, with 
Landsat providing an unfortunate example of major difficulties in 
maintaining long-term support for high-quality research measurements, 
even when they also serve many practical, nearly ``operational'' 
purposes.
    It should also be remembered that NASA is currently flying three 
large Earth science satellite systems carrying a total of 15 different 
instruments, along with about 14 smaller Earth science missions 
carrying 1-3 instruments each. NOAA currently operates four satellites 
at a time. Transferring even a small subset of NASA instrumentation 
onto NOAA satellites implies a significant increase in the number and/
or capabilities of these systems (instruments require power, space, and 
communications capacity), which will require substantial additional 
funding over and above the amounts required for instrument design and 
development. Such a step is also likely to require substantial 
additions to NOAA staffing, perhaps by transferring large numbers of 
NASA employees to NOAA. Conversely, significantly reducing the number 
of research instruments that can be flown would significantly reduce 
the scope of U.S. efforts to document and understand the planet upon 
which we live and depend.
    The primary disadvantage of flying NASA research instruments on 
NOAA operational platforms is the difficulty of merging the differing 
management requirements for operational and research systems. The 
primary purpose of NOAA systems is protection of life and property, 
which translates into a set of overarching management requirements. 
Science will be a junior partner in such systems, and operational 
requirements are almost certain to override science requirements if 
there is a conflict between them. This is appropriate, but also 
represents a potential cost to our nation's science efforts. For 
example, a key instrument failure requires rapid launch of a 
replacement NOAA satellite, even if the other instruments are still 
working. The old satellite is then turned off. Adapting research 
instrumentation to such a system either requires (a) the purchase of 
multiple instrument copies so that the ``hot spares'' can include 
replacement research instruments or (b) additional research funding to 
support continued satellite operations if operational instruments fail.
    In summary, it is possible that flight of NASA instruments on NOAA 
satellites could provide benefits to both the science and operational 
communities, and to our nation as a whole, but only if adequate budgets 
are provided over the long-term and strong and effective interagency 
management mechanisms are put in place. Maintaining an appropriate 
balance of scientific and operational requirements and priorities would 
be very challenging in such an arrangement, but is critical to 
achieving success. This kind of program integration is not likely to 
result in significant overall savings or efficiencies unless single 
instruments can be made to serve operational and research purposes. 
Reduction in the budgets devoted to Earth science satellite missions 
and/or the numbers of Earth science instruments that are developed and 
operated will slow the rate at which we improve our understanding of 
the Earth system and how changes in the Earth system affect its 
capacity to sustain life.

Questions submitted by Representative Bart Gordon

Q1.  What do you consider to be the most promising future benefits that 
the Nation might gain from continued investments in Earth science 
research? What will be the negative impacts on society if NASA's 
commitment to Earth science research and applications is diminished in 
the coming years?

A1. As I stated when I testified before the Committee, I believe that 
rapid advances in NASA Earth observing capabilities, coupled with 
revolutionary advances in information technology, have positioned us 
for an extraordinary new era in Earth science research--one in which we 
can quantitatively understand and predict the Earth as a system, with 
the temporal and spatial fidelity needed by decision-makers at many 
levels of our society: local, regional, and global. This will lead 
directly to major societal benefits including:

        <bullet>  improved national security

        <bullet>  better weather forecasts and warnings

        <bullet>  more targeted climate outlooks

        <bullet>  better management of natural resources including 
        water, agriculture, and energy

        <bullet>  more effective mitigation of natural disasters such 
        as drought, floods, landslides, and volcanic eruptions.

    The investments made in Earth science programs at NASA, the 
National Science Foundation, the National Oceanic and Atmospheric 
Administration, the Department of Energy, the U.S. Geological Survey, 
and other agencies are all important for enabling this progress. But 
NASA plays a unique role in our overall national efforts as the only 
provider of research-quality (i.e., well documented and very accurate) 
global scale measurements from space. Reducing our investment in NASA 
Earth sciences program will slow the rate at which we improve our 
understanding of the Earth system and how changes in that system affect 
its capacity to sustain life. Reduced investment will also slow the 
rate at which we develop new practical applications of scientific 
knowledge will provide the benefits listed above, even as other nations 
are increasing their investments and expertise in this area.

Questions submitted by Representative Al Green

Q1.  I also have the privilege of serving on the Financial Services 
Committee and have had the opportunity to take a close look at the 
Administration's changes to housing programs. The Administration wants 
to consolidate Community Development Block Grants and six other HUD 
programs as well as ten other programs from federal agencies to move 
them into the Commerce department, drastically reducing funding in some 
cases and making minimal cuts in others. I also notice that in the same 
fashion at the Administration's request, NASA has decided to combine 
the Earth science and solar physics programs into one Earth-Sun Science 
program that has been incorporated into the new Science Mission 
Directorate.

Q1a.  Which stand-alone projects within the Earth science program will 
sustain the most drastic cuts?

A1a. This question is most appropriately addressed by NASA managers. I 
do not have access to their internal decision processes about exactly 
how they will allocate budget reductions that are proposed by the 
Administration and approved by Congress. As an Earth scientist, I am 
particularly concerned about a set of actions identified in the recent 
report from the National Research Council, including:

        <bullet>  Cancellation of the Ocean Vector Winds mission

        <bullet>  Cancellation of the Landsat Data Continuity mission

        <bullet>  Cancellation of the Glory mission

        <bullet>  Cancellation of the Wide Swath Ocean Altimeter

        <bullet>  Cancellation of the Geostationary Imaging Fourier 
        Transform Spectrometer

        <bullet>  Delay of the Global Precipitation Measurement Mission

    In a more general sense, I am quite worried about the possibility 
that additional budget reductions will fall disproportionately on the 
Research and Analysis component of the NASA program, which supports the 
involvement of the academic community in NASA programs and enables the 
creation of knowledge and useful information from space-based 
measurements.

Q1b.  Do you believe the reorganization of NASA's Earth Science program 
is a good idea or a bad idea? Why?

A1b. I believe that it is up to NASA and those in the Congress and 
Executive branch who are responsible for oversight of NASA to agree on 
the most appropriate organizational structure for the Agency and its 
programs. However, I am concerned that the combination of NASA's Earth 
and Space science programs into a single organization and the reduction 
of funding for both Earth and Space science is part of an overall 
process of reducing NASA science funding and applying it to other 
agency priorities. I believe this is a serious mistake. In my view, our 
nation is better served by a balanced NASA program that provides strong 
support to both science and human space flight and exploration funding, 
and I would thus respectfully suggest continued maintenance of the 
traditional ``firewall'' between science and human space flight 
funding.

Q1c.  Would you have any recommendations for improving the 
effectiveness of NASA's Earth Science program?

A1c. As I stated when I testified before the Committee, I believe that 
NASA should work with the scientific and technical community and its 
partner agencies in the Climate Change Science Program (CCSP) to define 
a NASA Earth science plan that is fully compatible with the overall 
CCSP science strategy. In my view, the interaction with the scientific 
and technical community should include both input from and review by 
the National Research Council and direct interaction with the community 
of investigators who are supported by NASA, and the aerospace industry 
who are very familiar with NASA capabilities and developing 
technological opportunities. I believe NASA should also find a means of 
involving users and potential users of NASA-generated data in this 
process, perhaps through public comment periods or a series of 
workshops. This science plan should then guide the process of setting 
mission priorities.
    Defining criteria to use in comparing and deciding upon potential 
mission would be an important part of this planning exercise. I would 
recommend consideration of a set of criteria that include:

        <bullet>  Compatibility with science priorities in the plan

        <bullet>  Potential scientific return from mission

        <bullet>  Technological risk

        <bullet>  Direct and indirect societal benefits

        <bullet>  Cost.

    I believe that the decadal planning activity underway at the NRC in 
response to a request from NASA and NOAA is a valuable step in this 
process.
                   Answers to Post-Hearing Questions
Responses by Sean C. Solomon, Director, Department of Terrestrial 
        Magnetism, Carnegie Institution of Washington

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  During the hearing, much of the discussion concerned what the 
National Oceanic and Atmospheric Administration (NOAA) does not do. 
Could you please describe the Earth science that NOAA does support, its 
significance and how it differs from what is done by National 
Aeronautics and Space Administration (NASA)?

A1. There are two fundamental differences between NOAA and NASA. First, 
NOAA is primarily an operational or monitoring agency, whereas NASA's 
strength is the ability to develop innovative technologies that enable 
new types of measurements and new discoveries about how the Earth 
functions as a planet. Second, NOAA's charter is focused on the oceans 
and atmosphere, whereas NASA takes a planetary perspective, one that 
integrates the land surface and interior with the oceans and atmosphere 
as well as the Earth's space environment. Both NASA and NOAA play 
important roles for Earth science and for this nation, but those roles 
are distinct. This nation is stronger because of the complementarity 
and cooperation between the two agencies.

Q2.  What are the advantages and disadvantages of placing NASA 
instruments on NOAA platforms, assuming that the appropriate funding 
was provided?

A2. Certainly there are often economies to be gained in situations 
where NASA can place an instrument on a space platform operated by 
another federal agency or international partner. Such situations can 
save the cost of a dedicated satellite and can provide greater access 
to space flight. The principal disadvantages, in contrast, are that the 
choice of orbital characteristics, mission operations, or data 
management for one mission may not be optimum for another experiment, 
leading to compromises in experiment goals and lessened scientific 
impact. Each such opportunity needs to be evaluated in light of the 
full trade-off among benefits and costs.

Questions submitted by Representative Bart Gordon

Q1.  What do you consider to be the most promising future benefits that 
the Nation might gain from continued investments in Earth science 
research? What will be the negative impacts on society if NASA's 
commitment to Earth science research and applications is diminished in 
the coming years?

A1. We still have much to learn about how our planet functions. 
Continued investment in Earth science can deepen our understanding of 
how our atmosphere protects and sustains us, how Earth's climate and 
weather are evolving, what controls the availability of fresh water, 
how life influences and responds to environmental processes, and what 
controls changes to the Earth's surface and interior. A diminished 
investment by this nation in new technologies for studying our planet 
will impact deleteriously our ability to mitigate natural disasters; 
make the best use of our land, ocean, and fresh-water resources; and 
better the lives of all of Earth's citizens.

Questions submitted by Representative Al Green

Q1.  I also have the privilege of serving on the Financial Services 
Committee and have had the opportunity to take a close look at the 
Administration's changes to housing programs. The Administration wants 
to consolidate Community Development Block Grants and six other HUD 
programs as well as ten other programs from federal agencies to move 
them into the Commerce department, drastically reducing funding in some 
cases and making minimal cuts in others. I also notice that in the same 
fashion at the Administration's request, NASA has decided to combine 
Earth science and solar physics programs into one Earth-Sun Science 
program that has been incorporated into the new Science Mission 
Directorate.

        <bullet>  What stand-alone projects within the Earth science 
        program will sustain the most drastic cuts?

        <bullet>  Do you believe the reorganization of NASA's Earth 
        Science program is a good idea or a bad idea? Why?

        <bullet>  Would you have any recommendations for improving the 
        effectiveness of NASA's Earth Science program?

A1. The specific form of organization at NASA is less important than 
the vision brought to the strategic planning process used to develop 
mission concepts and prioritize new programs. During the late 1980s and 
early 1990s the Earth and space sciences were combined into one office 
at NASA, and all elements of the Agency's sciences programs fared 
equitably.
    There are ongoing efforts at strategic planning that should improve 
the effectiveness of NASA's program in Earth science and applications. 
The first decadal survey for Earth science and applications from space, 
now underway under the aegis of the National Academy of Sciences, is an 
important indicator that the Earth science community has embraced the 
need to integrate its planning and prioritization processes. NASA's 
scientific roadmapping efforts that were completed earlier this year 
and are now under review by the National Research Council constitute a 
parallel, complementary strategic planning activity that has produced 
focused recommendations for the most important next steps for the 
Agency's Earth Science program.
                   Answers to Post-Hearing Questions
Responses by Marcia McNutt, President and CEO, Monterey Bay Aquarium 
        Research Institute

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  During the hearing, much of the discussion concerned what NOAA 
does not do. Could you please describe the Earth science that NOAA does 
support, its significance and how it differs from what is done by NASA?

A1. The closest analogy I can make in trying to distinguish the 
different roles visa-a-vis NOAA and NASA with regard to Earth science 
is to say that NOAA is the ultimate consumer of scientific information, 
whereas NASA is a creator of scientific information. As a consumer, 
NOAA would thrive if it could satisfy its appetite for Earth science 
information using systems developed, deployed, and operated by other 
agencies. For many years, NOAA got its space-based Earth science 
information using NASA satellites, sensors, and data systems. However, 
NOAA couldn't guarantee that the diet for Earth science data that it 
had become accustomed to and that it required to meet its mission-
specific obligations would always be provided by NASA, given NASA's 
basic research objectives. Therefore, it made sense for NOAA to 
replicate satellite missions that NASA had already developed, tested, 
and proven once the NASA prototypes were no longer serviceable. In 
fact, this approach was good for both agencies, because it freed up 
NASA resources in the Earth sciences to work on better, more precise 
instrumentation and new sensors that could measure important quantities 
that had never been acquired from space before.
    If all that was at stake here was continuing a time series using 
existing instruments on standard platforms (e.g., the TOMS--Total Ozone 
Mapping Spectrometer--missions that measure the evolution of the ozone 
hole), I would be comfortable with the idea that NOAA could pick up 
that part of the program. However, that is not what is being proposed. 
Missions in NASA's Earth Science program that are prototypes of new 
measurements from space are being canceled or indefinitely postponed. 
NOAA does not have the history or the technology base or the mission to 
take on these new developments. Furthermore, NASA is developing new 
sensor systems for Earth science applications that don't necessarily 
fit with NOAA's oceanic and atmospheric mission (e.g., synthetic 
aperture radar--SAR--for earthquake and volcano hazard assessment) and 
that therefore would never be taken up by NOAA. The SAR probably does 
fit in with the mission of the USGS, but space-based SAR is never going 
to be developed and brought to operational status by USGS, at least not 
in any affordable way.
    The bottom line is the following. If NOAA were to take on all of 
NASA's Earth science research program, it would only be successful if 
it spun up a technology development group in order to create the new 
sensors and platforms necessary for the next generation of important 
problems. But this would be a needless and expensive duplication of 
what NASA is doing already. NASA's mission is to explore the universe. 
Technology development is essential to achieve that objective. The 
technology developments needed for exploration and research and 
(eventually) operations are basically indistinguishable because they 
are all part of the same continuum. It has made economic sense for many 
years for NASA to be the technology innovator in Earth sciences, and 
leave it to the other agencies to adopt and continue the most 
successful of those programs, as measured by the importance of the 
acquired data to their missions.

Q2.  What are the advantages and disadvantages of placing NASA 
instruments on NOAA platforms, assuming that the appropriate funding 
was provided?

A2. I believe that it would be possible to fly a NASA instrument on a 
NOAA platform IF the platform could support the instrument, IF the 
orbit were conducive to the measurement being made, and IF NASA were 
still fundamentally in charge of the development of the instrument and 
the shepherding of the data stream while the instrument is still in the 
developmental stages. After all, NASA has done exactly this with other 
international space agencies, so it should be possible to do this with 
NASA. But these are a lot of ``if's, and as I understand it, this is 
not what is on the table. NASA has reprogrammed money out of Earth 
science, so there is no funding to transfer to NOAA to cover the costs, 
and more than just the launches and the platforms have been cut from 
the program. The better way to do just this is to leave the funding in 
a NASA Earth Science program, and create an interagency transfer 
mechanism to permit NASA Earth Sciences to purchase the launch and the 
space on a NOAA platform when that indeed is the most cost effective 
way to accomplish the mission.

Questions submitted by Representative Bart Gordon

Q1.  What do you consider to be the most promising future benefits that 
the Nation might gain from continued investments in Earth science 
research? What will be the negative impacts on society if NASA's 
commitment to Earth science research and applications is diminished in 
the coming years?

A1. Some benefits we can already anticipate because they are already 
coming over our horizon. For example, I firmly believe that a continued 
investment in NASA's Earth Science research and application program is 
critical to the Nation's economy, with the sectors most likely to 
benefit including energy, agriculture, and transportation. And these 
are certainly not ``fringe'' elements of the U.S. economy! What these 
sectors all have in common is the necessity to make predictions to 
optimize the scheduling and deployment of resources in order to provide 
services to society in a cost effective manner. Why plant a crop poorly 
suited to the projected rain fall in the coming season if another crop 
will thrive under those same conditions? A largely failed crop is a 
needless waste of the grower's resources and leads to high prices at 
the grocery stores for the consumers.
    Doubtlessly the most important benefits are the ones that we hardly 
dare predict yet. But let me be so bold as to suggest an example. The 
GRACE (Gravity Recovery and Climate Experiment) mission was launched in 
March, 2002, as part of the Earth System Science Pathfinder program. 
The GRACE mission detects changes in Earth's gravity field by 
monitoring the changes in distance between two satellites as they orbit 
Earth. GRACE's measurements are so precise that the satellite has been 
able to detect seasonal and longer period changes in groundwater 
storage beneath the land surface. As a resident of the Salinas Valley, 
I can attest to the importance of groundwater as a storage mechanism 
for temporally redistributing fresh water from the season when rain 
falls--the California winter--to the other seasons when it is needed to 
grow crops, fight fires, etc. Monitoring changes in water storage in 
the planet's great aquifers from space makes a lot of sense because the 
measurement is not limited to locations where there are wells and is 
insensitive to the complication that where rain falls may be different 
from where the water is stored. The gravity signal averages out local 
variations and provides a consistent standard from region to region and 
continent to continent. Fresh water is one of society's most valuable 
and threatened resources. I anticipate that missions such as GRACE will 
be important in helping us properly manage our fresh water supply.

Questions submitted by Representative Al Green

Q1.  I also have the privilege of serving on the Financial Services 
Committee and have had the opportunity to take a close look at the 
Administration's changes to housing programs. The Administration wants 
to consolidate Community Development Block Grants and six other HUD 
programs as well as ten other programs from federal agencies to move 
them into the Commerce department, drastically reducing funding in some 
cases and making minimal cuts in others. I also notice that in the same 
fashion at the Administration's request, NASA has decided to combine 
the Earth Science and solar physics programs into one Earth-Sun Science 
program that has been incorporated into the new Science Mission 
Directorate.

Q1a.  Which stand-alone projects within the Earth Science program will 
sustain the most drastic cuts?

A1a. I will defer to Mr. Diaz to answer this question, as I understand 
that NASA has not necessarily finalized its plan for which programs 
will sustain the most drastic cuts and that there are some semantic 
issues on whether at this point some missions are cut or simply 
``postponed.'' However, I will add that in my experience, drawing a 
project out over a longer time scale adds more to the cost to get the 
same result. It is not an effective use of resources.

Q1b.  Do you believe the reorganization of NASA's Earth Science program 
is a good idea or a bad idea? Why?

A1b. I think it is a bad idea. I believe that the re-organization has a 
high likelihood of marginalizing Earth sciences at the Agency. External 
scrutiny of the distribution of resources between Earth and spaces 
sciences will be greatly reduced, allowing space science to raid 
whatever budget is left in Earth science. Like it or not, Earth is the 
only planet we will have to sustain us for a very long time. NASA's 
research is so key to our future on this planet that to downgrade its 
status in the Agency is exactly the opposite of what should be done.

Q1c.  Would you have any recommendations for improving the 
effectiveness of NASA's Earth Science program?

A1c. I am a fan of Goldin's philosophy. I think we should be doing more 
of the type of research that was encouraged through the Earth System 
Science Pathfinder (ESSP) program. I prefer that to the large space 
platforms that try to house every conceivable instrument, and result in 
undesirable trade-offs in terms of orbit, altitude, etc., and take 
forever to get launched.
                   Answers to Post-Hearing Questions
Responses by Ray A. Williamson, Research Professor, Space Policy 
        Institute, George Washington University

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  During the hearing much of the discussion concerned what the 
National Oceanic and Atmospheric Administration (NOAA) does not do. 
Could you please describe the Earth science that NOAA does support, its 
significance and how it differs from what is done by National 
Aeronautics and Space Administration (NASA)?

A1. NOAA tends to support applied science, that science that directly 
supports the needs of the American public, such as weather forecasting, 
how the U.S. coastline is changing under the effects of global warming, 
and how periodic medium- and long-term changes in ocean temperature may 
affect fish and marine populations upon which the U.S. populations 
depend for sustenance.
    NASA, on the other hand conducts research into more basic Earth 
science questions, such as how space technologies can support basic 
science research into the underlying Earth systems and how they 
interact with each other. What are the fundamental mechanisms of 
weather and climate and how can this knowledge be used to build more 
accurate weather and climate bio-physical-chemical models of Earth's 
weather and climate behavior?

Q2.  What are the advantages and disadvantages of placing NASA 
instruments on NOAA platforms, assuming that the appropriate funding 
was provided?

A2. The answer to this question depends heavily on the precise function 
of the instrument in question, and the specific orbital parameters of 
the NOAA spacecraft compared to that of the NASA sensor under 
consideration. Each orbit has its own particular characteristics. In 
some cases, an appropriate fit may be found between NASA sensor and 
NOAA spacecraft. In other cases, the missions of both sensor and 
spacecraft would have to be compromised substantially in order to put 
them together. In the case of the Landsat sensor and the Congressional 
mandate to maintain the continuity of data delivery from the 
instrument, placing a Landsat-equivalent sensor on the NPOESS 
satellites means that the Landsat sensor would fly in a different 
orbit, causing several differences in the characteristics of the data 
acquired. Extensive experimentation with the resulting data by several 
different categories of users would be required in order to determine 
whether or not the differences are sufficient to require major changes 
in the operational characteristics of the users' data analysis systems. 
In the long run, such changes in operations might cost more to the 
users than is saved through placing the instrument on the NPOESS 
satellites.

Questions submitted by Representative Bart Gordon

Q1.  What do you consider to be the most promising future benefits that 
the Nation might gain from continued investments in Earth science 
research? What will be the negative impacts on society if NASA's 
commitment to Earth science research and applications is diminished in 
the coming years?

A1. Continued investments in Earth science research can, if adequately 
funded, result in numerous benefits for the Nation, a selection of 
which are listed below. Conversely, reduced funding can lead to loss of 
these potential benefits, not only directly from the loss of NASA's 
involvement in promoting new applications of its research, but also in 
the loss over the long-term of the scientific knowledge such research 
provides.

    A Partial Selection of Potential Benefits:

        <bullet>  Much improved weather, climate predictability (e.g., 
        10 days advance forecast in place of the current seven days)

        <bullet>  Improved safety of coastal populations and property 
        at risk from tropical storms through reduced loss of life and 
        property damage

        <bullet>  Improved understanding of the generation, movement, 
        and possible mitigation of greenhouse gases and pollution-
        causing chemicals

        <bullet>  Contributions to airline safety from space weather 
        forecasts

        <bullet>  Reduced loss of life from improved predictability of 
        earthquakes and volcano activity

        <bullet>  Improved management of natural resources by federal 
        agencies and crop management by agricultural firms

Questions submitted by Representative Mark Udall

Q1.  The White House has proposed putting the Landsat imager on the 
first NPOESS satellite, currently being developed by NOAA and DOD.

Q1a.  What are the technical and programmatic risks of putting the new 
Landsat imaging sensor on the first NPOESS platform? How serious are 
those risks?

A1a. The current Landsat system is one of the most capable and 
versatile land observation systems available anywhere. When operating 
at full capacity, Landsat 7 was capable of producing maps of the entire 
United States each season, data that are very useful for tracking 
seasonal changes. Data are used for a wide variety of purposes, from 
land planning, environmental management, agricultural management, and 
for large-scale studies of environmental change. They are often the 
first data sets that users turn to in order to have a general overview 
of the landscape under study and often serve as a foundation for more 
detailed analysis with higher resolution data with much less extensive 
coverage. For the sensor to be placed on the NPOESS satellites, several 
technical issues would need to be resolved, the details of which depend 
strongly on the needs of data users, such as orbital height, swath-
width of the sensor, the number and placement of spectral channels, and 
the frequency of coverage. Current users of Landsat data have built 
their processing and analytic systems around the characteristics of 
current Landsat data. Hence, any changes in the characteristics of the 
data sets have far reaching consequences to the many users of Landsat 
data.

Q1b.  Is the Landsat user community involved in determining the 
requirements to be met if the Landsat sensor is added to NPOESS?

A1b. It is my understanding that the Landsat data user community is 
generally opposed to placing the Landsat sensor on NPOESS because most 
users do not feel that it will continue to serve their needs. However, 
if the Administration decides to move ahead with that transition 
anyway, the needs of the user community would certainly need to be 
taken into account in order to encourage those users to continue making 
use of the data.

Questions submitted by Representative Al Green

Q1.  At the Administration's request, NASA has decided to combine the 
Earth science and solar physics programs into one Earth-Sun science 
program that has been incorporated into the new Science Mission 
Directorate.

Q1a.  Which stand-alone projects within the Earth Science program will 
sustain the most drastic cuts?

A1a. This is not a subject with which I have sufficient knowledge to 
provide an adequate answer.

Q1b.  Do you believe the reorganization of NASA's Earth Science program 
is a good idea or a bad idea? Why?

A1b. In some respects, this is a good idea because it recognizes in the 
organization the extremely close connection between solar events and 
their effects on Earth systems. For example, the study of solar-
generated space weather, which has been a subject of increasing 
scientific interest and applied concern because of the sometimes severe 
effects of space weather on technological systems, such as airline 
flights and the electricity grid, could be affected positively. 
Further, the sun, through space weather effects also affects 
terrestrial weather. However, organizing NASA in this way means that 
the program managers must give careful attention to coordination of the 
different aspects of the program to assure that they are able to 
achieve their overall objectives for the program.

Q1c.  Would you have any recommendations for improving the 
effectiveness of NASA's Earth Science program?

A1c. In my testimony, I noted the importance of following up NASA's 
Earth Science programs to document the scale and scope of the many 
benefits we derive from the funds NASA spends on Earth science. In my 
view, the effectiveness of NASA's Earth Science program would be vastly 
improved through a sustained effort to document and measure the 
benefits of Earth science research, both the science results and the 
applications developed in partnership with other U.S. agencies. As 
noted in my testimony to this Committee, studies at the Space Policy 
Institute ``show that the supportable, qualitative benefits of Earth 
science research are quite high to nearly all sectors of industry and 
to the public sector. Since NASA is at the cutting edge of Earth 
science research in this country, it should focus more attention on 
this important subject in order to assist in guiding its future 
research agenda. This is not to say that expected practical benefits 
alone should determine NASA's future research agenda, since such an 
approach might stifle creative, breakthrough research efforts, but such 
benefits should play a role in the decision process when difficult 
decisions are being made among projects.''
    The Committee could assist NASA by ``authoriz[ing] NASA to direct 
greater attention to the quantification of the benefits of Earth 
science research and applications to America's industry and public 
sector, and the policy implications of those benefits.''

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
